<html>
<title> - RECENT DEVELOPMENTS IN EGYPT AND LEBANON: IMPLICATIONS FOR U.S. POLICY AND ALLIES IN THE BROADER MIDDLE EAST, PART 1</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                    RECENT DEVELOPMENTS IN EGYPT AND
               LEBANON: IMPLICATIONS FOR U.S. POLICY AND
                   ALLIES IN THE BROADER MIDDLE EAST

=======================================================================

                                HEARINGS

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                        FEBRUARY 9 AND 10, 2011

                               __________

                           Serial No. 112-32

                               __________

        Printed for the use of the Committee on Foreign Affairs





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
 64-483PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page

Part 1, February 9, 2011.........................................     1
Part 2, February 10, 2011........................................    67

                               WITNESSES
                               February 9

The Honorable Elliott Abrams, senior fellow for Middle Eastern 
  studies, Council on Foreign Relations..........................    10
The Honorable Lorne Craner, president, International Republican 
  Institute (former assistant secretary of state for democracy, 
  human rights, and labor).......................................    17
Robert Satloff, Ph.D., executive director, The Washington 
  Institute for Near East Policy.................................    26

                              February 10

The Honorable James B. Steinberg, Deputy Secretary, U.S. 
  Department of State............................................    77

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING
                               February 9

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statements
  February 9.....................................................     4
  February 10....................................................    70
The Honorable Elliott Abrams: Prepared statement.................    12
The Honorable Lorne Craner: Prepared statement...................    19
Robert Satloff, Ph.D.: Prepared statement........................    28

                              February 10

The Honorable James B. Steinberg: Prepared statement.............    79

                                APPENDIX
                               February 9

Hearing notice...................................................   120
Hearing minutes..................................................   121
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........   123
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California: IFES Briefing Paper entitled 
  ``Elections in Egypt: Key Challenges for Credible and 
  Competitive Elections''........................................   124

                              February 10

Hearing notice...................................................   132
Hearing minutes..................................................   133
The Honorable Russ Carnahan, a Representative in Congress from 
  the State of Missouri: Prepared statement......................   135
The Honorable Joe Wilson, a Representative in Congress from the 
  State of South Carolina: Prepared statement....................   136
Written responses from the Honorable James B. Steinberg to 
  questions submitted for the record by the Honorable Ileana Ros-
  Lehtinen.......................................................   137
Written responses from the Honorable James B. Steinberg to 
  questions submitted for the record by the Honorable Russ 
  Carnahan, a Representative in Congress from the State of 
  Missouri.......................................................   155

 
RECENT DEVELOPMENTS IN EGYPT AND LEBANON: IMPLICATIONS FOR U.S. POLICY 
             AND ALLIES IN THE BROADER MIDDLE EAST, PART 1

                              ----------                              


                      WEDNESDAY, FEBRUARY 9, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:25 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
Having been duly organized, this committee will now proceed to 
our first official hearing of the 112th Congress. After 
recognizing myself and the ranking member, Mr. Berman, for 7 
minutes each for our opening statements, I will recognize the 
chairman and ranking member of our Subcommittee on the Middle 
East and South Asia for 3\1/2\ minutes each for their 
statements. We will then proceed directly to hear testimony 
from our distinguished witnesses, and I would respectfully 
remind them to keep their statements to no longer than 5 
minutes. I am rather ruthless with this gavel. After we hear 
from our witnesses, individual members will be recognized for 5 
minutes each to question our witnesses. The Chair now 
recognizes herself for 7 minutes.
    Recent developments in Egypt and Lebanon pose great 
challenges to U.S. policy, to our interest and to our allies in 
the Middle East. In Lebanon we have witnessed the takeover of 
the country by the Iran-Syria-Hezbollah axis. In Egypt we see 
destabilization of a government which has been a key U.S. ally 
and partner for over 3 decades. In both instances, successive 
U.S. administrations failed to develop and implement a longer 
term strategy to move beyond the status quo and prepare for the 
future.
    In both Egypt and Lebanon we have failed to effectively 
leverage U.S. assistance in support of peaceful, pro-democracy 
forces, and to help build strong, accountable, independent, 
democratic institutions as a bulwark against the instability 
that is now spreading throughout much of the region. Instead of 
being proactive, we have been obsessed with maintaining short-
term, personality-based stability, stability that was never 
really all that stable, as the events of recent weeks 
demonstrate. Successive administrations have repeatedly opposed 
and obstructed efforts by Members of Congress to require 
accountability and ensuring Egypt met conditions for its 
economic assistance.
    The Mubarak government has been a reliable and valuable 
ally of the United States on security matters, but the 
relationship must extend well beyond Mubarak. It would be 
short-sighted and potentially dangerous for the United States 
to base its entire approach to another nation on the survival 
of one individual.
    In the early days of the current unrest the administration 
failed to seize the opportunity to press for reform, to address 
the demonstrators' frustrations and prevent chaos and violence.
    On January 25th, the first day of the demonstrations, 
Secretary Clinton stated, ``Our assessment is that the Egyptian 
Government is stable.'' Vice President Joe Biden, in an 
interview on January 27th, said, ``I would not refer to Mubarak 
as a dictator.''
    According to the Wall Street Journal, National Security 
Council officials admitted in a meeting on January 31 that they 
did not have a contingency plan in place should the Egyptian 
Government collapse. Now the White House is reportedly making 
matters worse by not only reexamining its position on dealing 
with the Muslim Brotherhood, but also stated that a new 
Egyptian Government should ``include a whole host of important 
non-secular actors.'' The Muslim Brotherhood had nothing to do 
with driving the protests, and they and other extremists must 
not be allowed to hijack the movement toward democracy and 
freedom in Egypt.
    Turning to Lebanon, we are again confronted by the absence 
of a long-term U.S. strategy. Iran, Syria, and Hezbollah have 
acted relentlessly to undermine Lebanon's sovereignty and the 
United States has largely adopted a reactive posture seeking to 
contain the advance of these hostile forces. Washington has 
also persisted in continuing to provide assistance to a 
Lebanese Government in which Hezbollah essentially had veto 
power. This included security assistance to the Lebanese Armed 
Forces, LAF, despite longstanding concerns over whether such 
aid could directly or indirectly benefit Hezbollah.
    Even now when the Lebanese Government has been overthrown, 
the United States has still failed to indicate that it will cut 
off assistance to a proxy government for Iran, Syria, and 
Hezbollah.
    There are lessons from the Lebanon debacle which are 
applicable to Egypt. In Lebanon, following the Hariri 
assassination, elections were immediately held under Syrian-
inspired electoral law, laying the foundation for the political 
empowerment of Hezbollah. Therefore, shouldn't the United 
States insist that constitutional and administrative 
requirements concerning the electoral process in Egypt be 
revised to ensure that only responsible actors who meet certain 
basic standards participate in Egypt's future? Such criteria 
should include renouncing violent extremism, upholding the rule 
of law, recognizing and enforcing Egypt's international 
commitments, including its nonproliferation obligation and its 
peace agreement with the Jewish State of Israel.
    I would greatly appreciate if our witnesses this morning 
would address the following questions in their testimony: Can 
there be stability in Egypt if Mubarak remains in power? Do 
conditions enable a military control transition process? Would 
this buy time for legitimate opposition forces to organize and 
for constitutional modifications to take place? There are some 
who have suggested that Egypt could follow a Turkey model. How 
viable is that comparison? Given that patterns have recently 
developed in Turkey, could Egypt's adoption of this model lead 
to possible threats to U.S. interests and allies in the Middle 
East? Can the legitimate opposition assume a leadership role? 
Can the military transition to the civil arena? What changes in 
the Egyptian Constitution would be necessary to ensure that 
candidates for public office for political leaders are going to 
act and govern democratically? What criteria are necessary to 
ensure that radical Islamists are not empowered?
    And beyond Egypt and Lebanon the United States must have 
broader strategic plan for the region so that our interests and 
our allies are protected and destructive regimes in Tehran and 
Damascus and other extremists are unable to exert their 
influence over people yearning for democracy.
    These questions are particularly relevant as we commemorate 
the centennial of the birth of President Ronald Reagan. During 
his Westminster address Reagan stated, ``Any system is 
inherently unstable that has no peaceful means to legitimize 
its leaders. While we must be cautious about forcing the pace 
of change, we must not hesitate to declare our ultimate 
objective and to take concrete actions to move toward them. The 
objective I propose,'' according to Ronald Reagan, ``is quite 
simple to state: To foster the infrastructure of democracy.''
    We face an emergency in Lebanon and Egypt that could spread 
to the broader Middle East. With cautious determination, we 
thank our esteemed witnesses for appearing before our committee 
today and look forward to their testimony.
    With that, I am pleased to yield to our ranking member, Mr. 
Berman.
    [The prepared statement of Chairman Ros-Lehtinen follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Berman. Thank you, Madam Chairman. This hearing could 
not be more important or timely. The events of the past month 
across the Middle East have come at a head spinning pace. They 
are both exciting and daunting. A new dawn is breaking for the 
people of Egypt. The promise of a democratic transition brings 
with it new opportunities and freedoms. However, with this 
change comes uncertainty for our security and the security of 
our close ally, Israel. We must both ensure that the transition 
proceeds and seek to ensure that our shared interests are not 
compromised.
    When strongman Ben Ali fled Tunisia on January 14th, few 
guessed that the next country to be intoxicated by the Arab 
world's growing embrace of freedom would be Egypt, the long-
time cornerstone of U.S. strategy and peacemaking in the Middle 
East. We had worried about Egypt's income gap, its illiteracy, 
its poverty, its denial of fundamental human rights. We had 
debated leadership succession issues as President Mubarak's 
health faltered, and we knew Egyptians, who often seemed to 
endure the unbearable and do so with good humor, have a history 
of rising up every other generation or so. But we never guessed 
that the next Egyptian revolution would begin in Tunis.
    The mass demonstrations in Cairo have already produced 
stunning results: The decision that neither Hosni Mubarak nor 
his son Gamal nor Omar Suleiman will run for President in 
September. They have also instigated talks on the future of 
Egypt between the government and various parties, including the 
Muslim Brotherhood, a moment which has formally been banned 
from politics in Egypt since its founding in 1928.
    Hosni Mubarak has been a friend of the United States, 
however flawed. We didn't put the Mubarak government in power, 
but we supported it because it pursued regional policies we 
generally supported. And with our large foreign assistance we 
incentivized it to pursue those policies.
    While we can't determine Egypt's future leader, we should 
use our influence to encourage a process of change that is 
orderly and a government whose foreign and security policies 
support our interests. As this change takes hold, we must keep 
firmly in mind that our goals include an Egypt that supports 
close relations with the United States, supports the welfare of 
the Egyptian people, democracy, universal human rights, is 
secular in orientation, and of course adheres to the peace 
treaty with Israel.
    In any transition the military will play a critical role, 
as it is already doing. That is why I think it is important 
that our military assistance program continue, so as long as, 
and only if, the military is playing a constructive role in 
bringing about a democratic transition. Based on their 
writings, I know there is disagreement among the panelists on 
this issue, and I look forward to the discussion.
    Egypt has long needed a more inclusive government, 
responsive to the desires of its citizens. If a stable 
democracy is to emerge, there must be participation by a wide 
array of political forces that are fully committed to 
democratic principles. Like many, however, I am skeptical about 
the Muslim Brotherhood's commitment to democracy. The 
Brotherhood wants Egypt to be governed by religious law rather 
than man-made law, a problematic position for a democrat. It 
has a bloody history and even after it renounced violence and 
endorsed democracy in the 1970s, some of its alumni joined the 
ranks of the world's most notorious murderers. Included in 
those ranks are Sadat's assassins and al-Qaeda's Ayman al-
Zawahiri.
    Some Egyptians of impeccable democratic credentials say the 
Brotherhood has changed and that it is now truly democratic in 
its approach. But even if that is true, we shouldn't fool 
ourselves. Even in the best case scenario where the Brotherhood 
proves itself fully committed to democracy, there is every 
reason to believe it will try to influence the Egyptian 
Government in ways that undermine U.S. interests and it will 
make Egypt a regressive and less tolerant place.
    Mubarak has already made clear that his presidency will end 
in September and that his son Gamal will not succeed him. It is 
critical that Egyptians agree as soon as possible on relevant 
constitutional amendments and laws and a clear and certain 
timetable for their implementation if free and fair elections 
are to be held in September. The less time that the opposition 
has to prepare for elections, the more likely it is that the 
next President will be determined either by Mubarak's National 
Democratic Party or by the Muslim Brotherhood, by far the two 
most organized political forces as of now.
    I would like to say a few words about Lebanon, where a 
handpicked Hezbollah candidate is on the verge of becoming 
Prime Minister. It is a very troubling example of how 
democratic development can go off the tracks when a party 
doesn't respect democratic ground rules. Hezbollah's 
parliamentary faction is but a political front for a cut-throat 
militia. And more than anything else that has put the terrorist 
group in the political driver's seat. If you don't believe me, 
ask Walid Jumblatt, the Druze leader who left Saad Hariri's 
March 14th Movement and threw his support to Hezbollah. It is 
an all but open secret that he did so in physical fear of 
Hezbollah.
    As Hezbollah gradually assumes control over more of the 
levers of power in Lebanon, we must be both wise and firm in 
our response. I will be introducing legislation called the 
Hezbollah Anti-Terrorism Act. Following on the Palestinian 
Anti-Terrorist Act, which passed Congress following Hamas' 
election to leadership in the PA in 2006, my bill will set 
rigorous requirements for the provision of foreign assistance 
to Lebanon during periods where Hezbollah is part of the 
Lebanese Government. The goal will be to ensure that none of 
our assistance to Lebanon benefits Hezbollah in any way. We 
certainly want to assist our friends in Lebanon, and we will. 
But we also want to make sure that we don't inadvertently help 
our enemies at the same time. My legislation leaves ample scope 
for both.
    I look forward to the testimony of our three witnesses and 
particularly their views on how the United States can encourage 
a responsible democratic transition in Egypt on the goals I 
previously laid out, what the chances are that such a 
transition will occur, and what they foresee is the role of the 
Muslim Brotherhood in Egypt during that transition and beyond.
    Chairman Ros-Lehtinen. I thank my good friend for his 
remarks, and now I will recognize Mr. Chabot for 3\1/2\ 
minutes. He is the chairman on the Subcommittee on the Middle 
East and South Asia.
    Mr. Chabot. Thank you, Madam Chairman. So we can get to the 
witnesses sooner I will not take the full 3 minutes. I will be 
very brief. I want to thank you for holding these very timely 
hearings this morning, and I know we all look forward to 
hearing from this very distinguished panel of witnesses.
    When I was recently appointed chairman of the Middle East 
and South Asia Subcommittee, having served on the subcommittee 
for a number of years, I knew we would be dealing with a host 
of important issues in a critical part of the world. I don't 
know that anyone, however, anticipated that we would be 
confronted with so many developments in the region quite so 
quickly, not just in Egypt and Lebanon, which we will be 
focusing on in the next 2 days, but in Tunisia and throughout 
the broader region. Clearly in the case of Egypt we have come 
to a crossroads. And while we do not yet know how the current 
volatile situation in that nation will play out, I think we all 
realize that we are going to have to reassess our bilateral 
relationship not only in terms of diplomacy but in the area of 
economic assistance as well.
    The current situation, however, is not limited, as I 
mentioned before, to Egypt. The widespread protests throughout 
numerous countries in the region raise broader concerns 
regarding U.S. foreign policy more generally as well as how we 
administer foreign aid.
    I look forward to being involved in these important 
discussions as we move ahead both here and in the full 
committee with you, Madam Chair, and in the subcommittee, both 
of which I am sure will be quite busy.
    So we can get to the witnesses, as I mentioned before, I am 
going to yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you, Mr. Chabot. Now I would 
now like to recognize Mr. Ackerman, the ranking member of the 
Subcommittee on the Middle East and South Asia, for 3\1/2\ 
minutes.
    Mr. Ackerman. Thank you and congratulations, Madam Chair.
    In Egypt I fear we are snatching failure from the jaws of 
success. After progressively escalating pressure on President 
Mubarak, after rejecting regime-backed violence against 
peaceful protests, after denouncing the regime's assault on 
journalists, after carefully positioning the United States on 
the side of the protesters, the Obama administration now 
appears to be wavering on whether America really backs the 
demands of the Egyptian people or just wants to return to 
stability with a facade of change.
    The contradiction that is forming between the 
administration's rhetoric and its policy concerns the so-called 
national dialogue initiated by Egypt's new Vice President, 
General Omar Suleiman. General Suleiman is a strong, serious, 
and capable man, but it is still unclear whether his job is to 
lead Egypt's transition on behalf of the Egyptian people or to 
delay it, sidetrack it, flim-flam it into irrelevance on the 
part of President Mubarak.
    The major items on the Egyptian reform agenda are well-
known: An end to restrictions on free speech and free press, an 
end to restrictions on the formation and operation of political 
parties, an end to the constantly abused emergency law, and an 
end to structural impediments to free and fair elections.
    What have the Egyptian people seen so far? A dialogue with 
the opposition that excludes major opposition leaders but does 
include regime allies, a proposed committee to report on the 
reforms that the government has no obligation to adopt or even 
consider, a promise to lift the state of emergency when the 
government considers that it is appropriate, a pledge to 
liberalize media and communication without any definition of 
what constitutes liberalization.
    The Secretary of State, to her credit, insists that with 
regard to the General Suleiman-led dialogue ``the people 
themselves and the leaders of various groups within Egyptian 
society will ultimately determine whether it is or is not 
meeting their needs,'' she warns. ``We are going to wait and 
see,'' she says, ``how this develops but we have been very 
clear about what we expect.'' I wish we were that clear.
    Respecting Egyptian sovereignty is one thing, maintaining a 
level of ambiguity so thick that ordinary Egyptians cannot 
discern whether or not we are on their side is something else 
altogether. Our national security interests require much 
greater clarity. The people yearn to be free.
    How refreshing is it to see people who are not trampling 
our flag in the streets as they raise theirs? How inspiring is 
it to see people in that part of the world ready to die for 
their children's future instead of sending their children off 
to die? The people yearn to be free. We must plant ourselves 
firmly on their side.
    Until there is evidence that a real transition is underway, 
with the exception of aid for humanitarian needs or with the 
transition, we need to suspend our aid to Egypt. We simply 
cannot afford to be viewed in Egypt as the bank-rollers of 
repression. The people yearn to be free.
    I cannot help but muse if Charlton Heston were to be 
appointed the Special Envoy to Egypt, he would stand there 
speaking softly with a big stick in hand and say to President 
Mubarak, ``Your people have let you go.''
    Thank you, Madam chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Ackerman.
    In the interest of time and since our witnesses are well-
known in their field, I will refrain from the lengthier bios 
and will proceed immediately to recognize Elliott Abrams, 
senior fellow at the Council on Foreign Relations and former 
deputy national security adviser, for his remarks.
    Elliot will be following by Lorne Craner, president of the 
International Republican Institute and former assistant 
secretary of state for democracy human Rights and labor. And 
rounding off our distinguished panel is Dr. Robert Satloff, who 
is the executive director of the Washington Institute for Near 
East Policy.
    Mr. Abrams, you are recognized for 5 minutes.

 STATEMENT OF THE HONORABLE ELLIOTT ABRAMS, SENIOR FELLOW FOR 
      MIDDLE EASTERN STUDIES, COUNCIL ON FOREIGN RELATIONS

    Mr. Abrams. Thank you, Madam Chairman and members of the 
committee. It is a privilege and an honor to testify at this 
first Foreign Affairs Committee hearing of the new Congress, 
and it is a pleasure to return to this room where I first 
testified to this committee 30 years ago under, if I remember 
right, Chairman Zablocki's chairmanship, your predecessor here.
    There is enough ground here for about a dozen hearings, but 
I want to try to make six points this morning, and I would ask 
that my full statement be submitted for the record.
    Chairman Ros-Lehtinen. Without objection, they all will. 
Thank you.
    Mr. Abrams. First, the uprisings we have seen in Tunisia 
and Egypt are exciting proof that the thirst for freedom is 
indeed universal. The Middle East has lagged behind the rest of 
the world in moving toward democracy. There has been a freedom 
deficit.
    President Bush was right when he adopted a freedom agenda 
for the Middle East. He asked in 2003, ``Are the peoples of the 
Middle East somehow beyond the reach of liberty? Are millions 
of men and women and children condemned by history or culture 
to live in despotism? Are they alone never to know freedom, 
never even to have a choice in the matter?'' And he gave the 
answer, ``Sixty years of Western nations excusing and 
accommodating lack of freedom in the Middle East did nothing to 
make us safe, because in the long run stability cannot be 
purchased at the expense of liberty.''
    Supporting freedom is our best policy in the Middle East as 
it is in Latin America, Africa, Asia, and everywhere else. 
Dictators, Presidents for life, stolen elections, government-
controlled press are all a formula for instability. And we can 
just see in Egypt, after 30 years of Hosni Mubarak, in fact 
there is great instability and the Muslim Brotherhood is 
stronger than ever.
    Second point, American policy in the region should 
accordingly favor democracy and countries that are moving 
toward reform. This means one building block for us should be 
our alliance with Israel, the region's only established 
democracy. We should value and enhance our relations with 
countries such as Jordan and Morocco where reform efforts are 
underway.
    It means that warming up to Syria sends exactly the wrong 
message, that we don't care about human rights and democracy. 
We don't even care when a country is very hostile to the United 
States. That we sent an ambassador to Syria at exactly the 
moment when Hezbollah is taking over the Government of Lebanon 
sends the wrong message. We must actively press for democracy, 
not only in Tunisia and Egypt, but in Iran and Syria as well. 
Democracy promotion cannot be a policy applied to American 
allies while America's enemies are forgotten.
    Third, the events in Tunisia, Egypt, Yemen, Algeria and 
several other countries should persuade us once and for all 
that the linkage argument, that every problem in the Middle 
East is really tied to the Israeli-Palestinian, is false. None 
of those events had to do anything with Israel and the 
Palestinians.
    Fourth, we should use our assistance program, as you said, 
Madam Chairman, to promote democracy. There is often a 
disconnect. I think we should make clear to Egypt's military 
right now that the $1 billion a year they get is not owed to 
them. Their conduct will determine how much aid they get.
    The late Tom Lantos used to ask, ``What do you think Egypt 
actually needs, more tanks or more schools?'' And I think it is 
a question we need to ask today. If the Egyptian military 
blocks reform and democracy in Egypt, those aid dollars can be 
better spent in countries where the military in supporting 
progress.
    Fifth point, this aid question applies to Lebanon as well, 
and I would make the same point about our aid to the Lebanese 
military. If they are in fact fighting terrorism and guarding 
the border with Syria, then they should get our help, but if 
they are not, then that aid it seems to me should be suspended. 
It should be conditional, as in Egypt, on the actual 
performance of the military.
    Finally, how do we support democracy? I urge the committee 
to take a look at the National Endowment for Democracy, for the 
State Department and USAID programs, to the broadcasting that 
we do to see if we can do better and leverage the money that we 
spend more effectively.
    I will stop there, Madam Chairman. We have a number of 
speakers, and I look forward to your questions, and thank you 
again for inviting me here today.
    [The prepared statement of Mr. Abrams follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you so much, Mr. Abrams. Now 
we are pleased to recognize Mr. Craner for 5 minutes.

      STATEMENT OF THE HONORABLE LORNE CRANER, PRESIDENT, 
INTERNATIONAL REPUBLICAN INSTITUTE (FORMER ASSISTANT SECRETARY 
        OF STATE FOR DEMOCRACY, HUMAN RIGHTS, AND LABOR)

    Mr. Craner. Chairman, Congressman Berman, members of the 
committee, thanks for the opportunity to testify today, 
especially at your first hearing.
    As has occurred all too often in the past, the United 
States today stands surprised by foreign revolutions. These 
events will have consequences for the region and, as I will 
argue later, further afield. Although a single wave of reform 
is unlikely, the spread of technology means citizens in Arab 
countries are no longer isolated. Most importantly, especially 
after events in Egypt, the historic center of the Middle East, 
any popular belief that the Arab regimes are too powerful to be 
overthrown should be ending.
    In the region subtle national differences means events will 
take on uniquely local flavors in each country. That said, we 
can categorize the region's nations helps in a way that helps 
us determine which may be the most problematic. 
Counterintuitively, problematic consequences are less likely in 
most of the regions monarchies than in the republics. Beginning 
about 15 years ago almost all the regions monarchies, mostly 
young kings who had been educated abroad, to one degree or 
another began to modernize their countries economically and 
politically.
    A second reason we are less likely to see consequences in 
monarchies is that they all project greater legitimacy by 
virtue of their hereditary, often tribal lineage. In 
combination with the nascent liberalization, this enables them 
to deflect economic and political complaints to new governing 
institutions. This is what we are seeing today in Jordan and 
Kuwait, where the object of protestors' ire is the Prime 
Minister and the government.
    It will be important for the region's monarchies to be able 
to show continued progress in opening up their political and 
economic systems. It is worrisome, for example, that some of 
the Gulf countries has slowed reforms or even backtracked the 
last few years, and of course reforms in Saudi Arabia have been 
so glacial as to make an exception to this rule.
    It is the region's republics that will be most affected by 
recent events. They are run by men who at best have rigged 
elections and now have decreasingly credible claims to 
leadership. The fate of these leaders is more directly 
dependent on their performance, which for most has been sorely 
lacking. The leaders have stalled economic and political 
reforms for decades, and we have already seen demonstrations in 
Yemen, a country run not unlike Egypt but with less stability 
and a serious al-Qaeda element.
    Clearly Israel, which had regarded its security threatened 
more by Iran than by countries with which it shared borders, 
will have to recalculate, and our closest ally in the region 
will require much reassurance and support from Washington.
    When I testified last June before this committee, I noted 
that the administration had not yet begun to implement a 
strategy to advance democracy abroad because it had to 
strategy. Since that time the beginnings of a strategy have 
been rolled out by Secretary Clinton in Krakow and by President 
Obama at the UNGA meeting. The administration is focusing 
democracy work on supportive civil society organizations 
working to achieve change from the bottom up, and Secretary 
Clinton deserves great credit for conceiving and then 
enunciating this policy.
    Despite these pronouncements, however, implementation lags. 
In Egypt, for example, the administration had responded to 
building pressure, not with increased support to civil society. 
Instead, it agreed to the Mubarak government demands for 
signoff on all USAID funded democracy assistance, which 
obviously precluded programmatic support to many of the NGOs 
that represent moderate secular interests committed to reform. 
This played into a decades-long dynamic that made the United 
States choose between Mubarak and the Brotherhood.
    U.S. democracy assistance to Jordan and Lebanon exhibits 
many of the same failings. IRI and our sister organization, 
NDI, constantly struggle to convince USAID of the value of 
assisting Jordan's fledgling political parties resulting in 
minimal assistance. In Lebanon, even as the United States 
pulled closer to Syria, our political party programming for 
March 14th coalition parties, the only counterweight to 
Hezbollah, was cut short.
    Now this failure to cultivate the generation of democratic 
leaders is not new. It was not until the Musharraf regime began 
to crumble in 2007 that the Bush administration scrambled to 
determine who might succeed him and establish relations with 
Pakistani figures they thought would help advance American 
interests. But this case was notable more as an exception. In 
places like Ukraine, Georgia, and Kyrgyzstan the U.S. 
Government had acidulously cultivated democratic successors.
    The Obama administration has already faced this issue in 
Kyrgyzstan last April. As the increasingly authoritarian 
government crumbled, dissidents outside complained that our 
Embassy had refused to meet them for months or years, and we 
feared the loss of our base at Manas. Realism valuing stability 
in our relations abroad gained currency after Iraq, but being 
so closely tied to authoritarians does not serve U.S. interests 
when a repressive government fails. As we are learning yet 
again, when we necessarily have relations with authoritarian 
governments we must plan for the day when they are no longer in 
power.
    [The prepared statement of Mr. Craner follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you, Mr. Craner. Thank you.
    Pleased to yield to Mr. Satloff. For 5 minutes.

  STATEMENT OF ROBERT SATLOFF, PH.D., EXECUTIVE DIRECTOR, THE 
           WASHINGTON INSTITUTE FOR NEAR EAST POLICY

    Mr. Satloff. Madam Chairman, thank you for the opportunity 
today. Yours has been a principled voice in support of 
democracy in Egypt and abroad, and I know that the people in 
Egypt and American interests are better for it. Also, Mr. 
Berman, I would like to congratulate you for your stalwart 
support for change and reform. I had the privilege of escorting 
Mr. Berman to the home of a prominent dissident in Cairo 
several years ago, and I know that had tremors throughout the 
regime. And if I may, would like to congratulate my hometown 
neighbor, Mr. Cicilline, on his election on joining this 
committee.
    To note the obvious, the events in Egypt have enormous 
implications for America's interests and role in the Middle 
East. For now a sober assessment for the Egyptian situation 
leads one to conclude that it is neither the disaster some fear 
nor the dawn of a new day that some hope. That story is not yet 
written. We can affect it only on the margins; it is of course 
the Egyptian people's decision to affect it most of all.
    In its handling of specifics of the Egypt crisis, my 
assessment is that President Obama and his advisers have 
generally adopted a sound approach. This is of course an 
evolving situation. Still the administration recognized early 
on that it was neither wise nor possible for the United States 
to back regime suppression of democracy protestors and that it 
did not serve U.S. interests to have its relationship with 
Egypt personalized by identification with an unflagging support 
for President Mubarak. Instead the administration correctly 
supported the idea of change and the democratic spirit at the 
heart of the protests while operating on the basis of the not 
unreasonable assessment that the Egyptian military was and 
perhaps remains the key to resolving a national crisis that pit 
millions of protesters against an increasingly isolated and 
stubborn President. Hence, the administration's belief, a 
rational belief but still unproven on the ground, that the 
military could be the agent of positive change. As I said, that 
change has not yet happened.
    For all the drama of the past 2 weeks, the regime has so 
far acceded to no major substantive or irrevocable change. 
Indeed, in some areas, the appointment of military men as Vice 
President and Prime Minister without clear and irrevocable 
decisions on the emergency law or other major changes in the 
Egyptian political system, there has been regression.
    Every day that passes in which the military does not 
definitively break from President Mubarak implicates them with 
the regime, which is bad for our interests, and every day that 
passes without that break further erodes an already weakened 
U.S. regional image. If the new leadership does show itself to 
be serious about lifting the emergency law, releasing prisoners 
and implementing constitutional, legal and administrative 
changes, this may suffice to launch Egypt on the path of 
orderly, peaceful, democratic reform. In this context I support 
the maintenance of U.S. aid and align myself with Mr. Berman's 
comment earlier.
    However, in my view United States needs to avoid being in 
the worst of possible situations; namely, a situation in which 
it is perceived to have broken with President Mubarak, which is 
what most of our allies fear is the case. But then to have 
President Mubarak still survive in the face of this only erodes 
the image of U.S. influence. Neither feared nor respected nor 
loved is not a healthy situation for American interests.
    As we approach the transitional period, I do believe deep 
concern should be expressed about the Muslim Brotherhood. The 
Brotherhood is not, as some suggest, simply an Egyptian version 
of the March of Dimes--that is, a social welfare organization 
whose goals are fundamentally humanitarian; it is a political 
organization that seeks to reorder Egyptian society in larger 
Muslim societies in an Islamist fashion. The Brotherhood will 
exploit whatever opportunities it is presented with. It has 
renounced its most ambiguous goals only as a result of regime 
compulsion, not by free choice.
    Therefore, we should express extreme caution in advocating 
for specific reforms that could advantage the Brotherhood at 
the expense of non-Islamist political parties. It would run 
counter to U.S. interests for the United States to advocate, 
for example, in favor of constitutional amendments to lift the 
prohibition of parties based on religion. Should Egyptians opt 
for such a change, that is their choice, but it is not in our 
interest to advance those parties at the expense of liberal or 
anti-Islamist parties.
    Two very specific ideas in the meantime: I urge you to 
discuss with the administration the idea of redirecting an 
appropriate sum to humanitarian and medical assistance to 
assist the thousands of Egyptians that have been hurt, injured, 
or suffered as a result of this oppression of the protests. And 
second, I hope that the administration is working closely with 
NDI and IRI on planning for massive engagement during the 
transition process.
    Madam Chairman, I have a series of telegraphic 
prescriptions on regional issues that are in my written 
testimony about strengthening partnerships, about promoting 
sustained efforts of reform, about directing the winds of 
change elsewhere, and they are in the testimony for your 
review.
    [The prepared statement of Mr. Satloff follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you. We will read those. Thank 
you, Dr. Satloff. And thank you to all of our witnesses for 
excellent testimony.
    I would like to yield my 5 minutes of questioning to 
freshman Congresswoman Renee Ellmers of North Carolina. She is 
recognized for 5 minutes.
    Mrs. Ellmers. Thank you, Madam Chairman.
    Dr. Satloff, in your writing today, one of your issues that 
you wrote about is that our U.S. policy toward Iran has only 
been a tactical success as there so far seems to have been 
little strategic progress in convincing Iran to change its 
behavior in the nuclear file.
    How have these recent events in Egypt, Lebanon, and 
elsewhere throughout the region altered Tehran's strategic 
calculus and cost-benefit analysis? Please elaborate because we 
have got to be watching everything, and this is a big concern.
    Mr. Satloff. Congresswoman, I couldn't agree with you more. 
I fear that the leaders of Iran are misreading our distraction 
on Egypt and are taking this as a moment of opportunity. I fear 
that they are seeing change in Lebanon, the events in Gaza, a 
serious emergence from isolation, and now the events in Egypt, 
I fear they are reading this as a series of body blows to U.S. 
interests and that they may be feeling that they are on a roll.
    I think we should be very careful to keep our eyes vigilant 
about efforts by Iranians to use fifth columnists against other 
American allies in the gulf and elsewhere, and maybe a 
reconsideration by Iran of the pace of its nuclear program, 
believing that perhaps we are distracted elsewhere.
    Now, on our side we do have assets. The administration, in 
my view, lost a great opportunity with the popular protests in 
Iran in the summer of 2009. And if you compare the Obama 
administration approach the summer of 2009 in Iran and January, 
2011, in Egypt, there is a stark contrast. I concur with my 
colleague, Mr. Abrams, that we should do our best to blow the 
winds of change to Tehran and Damascus. Far be it from us that 
we should be more supportive of democracy in countries that 
have historically been partners with us than historically that 
have been adversaries. And I think there is much we can do to 
advance that prospect.
    Mrs. Ellmers. Thank you very much, and I yield back my 
time.
    Chairman Ros-Lehtinen. Thank you, Congresswoman.
    I am pleased to yield 5 minutes to our ranking member, Mr. 
Berman of California.
    Mr. Berman. Thank you very much, Madam Chairman.
    I would like, most particularly, because you addressed one 
issue that Congress is appropriately and directly involved in, 
is this whole issue of assistance to Egypt and how to handle it 
and what we should be calling for and what we should be doing 
and what the administration should be doing. My instinctive 
reaction because of wanting to incentivize the military using 
their authority to make this transition happen--and I agree, it 
is not clear to me that they have made that decision--was to be 
careful about messing around with the military assistance right 
now. Mr. Satloff, you sort of came down on that side, Dr. 
Satloff.
    Elliott, you think we should cut off both military and 
economic assistance--or at least the working group statement 
that you are part of said that. Did you include democracy 
promotion activities in that? But I would like to hear the two 
of you just develop that. You generally see this much the same 
way and disagree on this specific issue. I would like to hear 
more.
    Mr. Abrams. My view is that we need to tell the Egyptian 
military very clearly, Congress needs to tell them very clearly 
we are not going to pay for this suppression of democracy in 
Egypt. I agree, I think the army may not have made up its mind 
yet, so now is the time to signal them, this aid is 
conditional.
    I would agree with Rob Satloff, I wouldn't cut it off 
today. First I would send that message that we are watching, 
and it could be cut off any day if you guys do a Tiananmen 
Square in Cairo, or even much less than that, if you make it 
clear that your goal is to maintain Mubarakism without Mubarak.
    Mr. Satloff. I would say we are in violent agreement now.
    The United States doesn't have so many levers. It would 
seem to me a mistake to preemptively deny us leverage at a 
moment when perhaps that leverage could be determinative. I 
don't want to exaggerate the potential for this to be the case, 
but why we would throw away an arrow before it is absolutely 
apparent that the Egyptian Army has made a choice to suppress 
and refuse change seems to be unwise.
    Mr. Berman. And speak to the issue of how directly the 
administration should address Mubarak leaving office 
immediately, or how would you suggest they handle that issue? 
Any of you? All of you.
    Mr. Satloff. I will offer my view. Once the President, last 
Tuesday, offered the imagery of him appearing on television 2 
hours after President Mubarak had said he was going to stay 8 
months, and the President got on television saying the words 
``now,'' even though there was some ambiguity in that 
statement, the ambiguity did not translate into Arabic. And 
everyone in the Middle East saw that Mubarak said 8 months, the 
President said ``now,'' and every day since then has been a 
victory for Mubarak.
    It is not as though he needs to resign or leave the 
country. There are alternative constitutional arrangements that 
President Mubarak could take advantage of.
    Mr. Berman. He could delegate his authority.
    Mr. Satloff. According to the Egyptian Constitution, he 
could delegate his executive authority to his Vice President, 
which is a major constitutional decision that would send us off 
on a new path. That is what I would hope would be the direction 
in which we head.
    Mr. Craner. I think on all these issues, whether it is 
Mubarak leaving, what do we need to do with the aid? We need to 
think about what we want to see in the end, what is our goal? 
And the goal is decent elections with, hopefully, moderates 
coming out very well in those elections. Then we need to work 
our way back and say, What is the best way to accomplish that?
    So on the issue of aid, I think that is our largest trump 
card. I don't think it is time to play it yet. On the issue of 
military, I would agree with Elliott that we need to be very, 
very clear on what we are expecting.
    On the issue of Mubarak, I think it is fair to ask if 
somebody who has led the kind of fraudulent elections that we 
have seen repeatedly over the last 30 years in Egypt is now 
capable of leading an effort for a fair and free election.
    Mr. Berman. My time is expired.
    Chairman Ros-Lehtinen. Thank you so much. Excellent 
questions, Mr. Berman.
    I am pleased to yield to the chair of the Subcommittee on 
Africa, Global Health, and Human Rights, Mr. Smith of New 
Jersey, for 5 minutes.
    Mr. Smith. Thank you, Madam Chair. And congratulations 
again on your chairmanship. I look forward to serving with you 
and Ranking Member Berman.
    Let me just begin by saying thank you to the three of you. 
I have known you; you are great leaders on behalf of human 
rights for decades.
    The administration seems to find its voice on human rights 
and democracy, it seems to me, only when events portend radical 
change. A few weeks ago President Obama rolled out the red 
carpet for Chinese President Hu Jintao, a brutal dictator whose 
rise to power was initially enabled or advanced by the murder 
of hundreds of people in Tibet in 1989. Many of us were 
frustrated and profoundly disappointed. Even the Washington 
Post editorial said ``President Obama makes Hu Jintao look good 
on rights'' in their January 19 editorial. It was a scathing 
editorial.
    Now that Mubarak is in trouble, this administration is 
making human rights demands--better late than never, but they 
are making them. Yet in its first year, the Obama 
administration cut democracy funding for Egypt by more than 
half. The democracy in governance total was $54.8 million in 
2008; it dropped to $23.5 million in 2009; and the request for 
2011 is $25 million. And the NGOs that are not registered, 
obviously don't even apply--a break with the Bush 
administration policy. As we all know, human rights groups that 
are not registered are usually the cutting edge in the avant-
garde in terms of promoting human rights.
    My question is--a day late and a dollar short, I am glad 
they are making statements--but will this lead to a 
matriculation from bad to worse, as we saw with the Shah of 
Iran? We all know that SAVAK was not a good group, his secret 
police, during the Iranian crisis. But now we have something 
that potentially could be profoundly worse than the Muslim 
Brotherhood.
    Your thoughts on the Muslim Brotherhood. Are people being 
naive, somehow thinking that the Muslim Brotherhood will be 
benign and will have a nonviolent approach to politics?
    Secondly, last month, Frank Wolf chaired a hearing on the 
Coptic Church in response to the violence which killed about 
23, we think, Coptic Christians; 100 were wounded. My question 
is, how will the Coptic Church, about 10 percent of Egypt's 
population, fare going forward, especially with the potential 
ascension of the Muslim Brotherhood?
    And finally, Israel's profound concerns about the rise of 
the Muslim Brotherhood. I remember when President Bush kept 
saying we want free and fair elections, which brought in Hamas. 
Fattah was certainly a corrupt organization and had terrorists 
in its ranks, but it went from bad to worse when there was an 
election.
    Our fear is, I think on both sides of the aisle, that the 
Muslim Brotherhood's animosity toward Israel is well 
documented. Your views on that.
    Mr. Abrams. Thank you.
    A word on the Copts, I would just say I worry a lot about 
that, because as we look through the whole region, the 
situation of Christian communities throughout the region is 
very bad and worsening. On Copts, we should not glamorize how 
great the situation has been in Egypt. As you know, it has been 
impossible to build churches, to repair churches under Hosni 
Mubarak. There has been a lot of discrimination against Copts 
in his Egypt. But I think we do have to worry, in the context 
of the Muslim Brotherhood, about a more Islamic Egypt being 
even more discriminatory against them.
    On the Muslim Brotherhood takeover, that is something that 
has to worry all of us. And I agree with Rob Satloff that I 
think conditions that, for example, forbid religious parties 
are actually potentially quite useful. But I would just say the 
bulwark that keeps this from being Iran is the army, and that 
is why I worry, as he does. Every day that the army is 
associated with Hosni Mubarak today in suppressing these 
demonstrations diminishes the legitimacy and popularity of the 
army. Every day they are complicit with the police and the 
thugs, it makes it a lot harder for them to keep the revered 
position they have had in Egypt, and that is a great worry.
    Mr. Craner. You talked about the elections in the 
Palestinian territories. Some of us would argue it was because 
elections didn't occur for so long--and they were repeatedly 
delayed--that the Palestinian Authority had ample opportunity 
to demonstrate how corrupt and useless it was in terms of 
delivering services. And that only strengthened Hamas. You have 
to ask yourself if over time, if change is delayed in Egypt, if 
that only makes the Muslim Brotherhood stronger over time. I 
think that is a fair question to ask.
    Chairman Ros-Lehtinen. The gentleman's time has expired.
    I am pleased to yield for 5 minutes of questioning to the 
ranking member of the Subcommittee on the Middle East and South 
Asia, Mr. Ackerman of New York.
    Mr. Ackerman. Thank you, Madam Chairman.
    I think it is more frustrating to see you guys in so much 
agreement than if you were disagreeing. At least we would be 
able to figure out where to push or not push our own 
administration. It is frustrating to see that they are not 
moving in the same direction. That, to me, makes great common 
sense with what the entire panel seems to be saying.
    We are not going to have a second chance to make a great 
impression on the people in the street who are at their most 
vulnerable point right now and probably a lot more malleable as 
to what the United States interests are and what our real 
intentions are here.
    While I am not sure I wholly agree with what Mr. Abrams 
said about sending an ambassador to Syria, not sending an 
ambassador I guess is a message in and of itself, but when you 
don't send a messenger, how do you send a second message is the 
question?
    We have messengers in Egypt, and one of the messengers that 
we should be using is the military. We have paid a lot of money 
to help in the formation of the virtues that the military seems 
to possess and the restraint that they have apparently been 
demonstrating in the streets. Should we not be more closely 
using that tie to have a Nixon moment to deliver a message via 
the military to Mr. Mubarak? Should not they be the ones that 
help impact? Because the longer this thing takes, the worse the 
position is for the United States to influence the opinions in 
the street.
    My second question is about the Muslim Brotherhood, which I 
think is critical here; how we deal with that and how we help 
the leadership deal with that and the military. It is my view 
that if you over-pesticide your garden, only the weeds are 
going to survive. And that is what we have here as far as 
looking at who the leaders of the opposition are. We have 
killed all the flowers--he has killed all the flowers, I should 
say, Mubarak--and the Brotherhood is left. They are not the 
March of Dimes--Mr. Satloff is right--neither are they the 
``march of the benign,'' but are they the ``march of demons''? 
How concerned should we be and how do we get the military to 
keep up the bulwark of the opposition to him in the formation 
of any new government?
    Dr. Satloff.
    Mr. Satloff. In terms of the military, I think the thrust 
of your comment is correct. The President, and just yesterday 
Secretary Gates, had very laudatory words for the military. 
What is unclear is whether in private our political and 
military leadership--Secretary Gates, Admiral Mullen, et 
cetera--are being as tough in private as they are being 
complimentary in public. In private, the Egyptian military 
should know very clearly what actions or inactions it takes or 
doesn't take would trigger the end of aid that you spoke about 
earlier. I don't know if that is happening. That is essential.
    In terms of the Muslim Brotherhood, I think we should 
recognize and be vigilant about the danger, not exaggerate the 
danger. There is no inevitability that the Muslim Brotherhood 
is going to come to power in Egypt, and we can't have a self-
fulfilling prophesy here; that would be a mistake. There is a 
huge range of non-Islamist political forces that deserve our 
assistance and support. And indeed, one of the things that we 
should be pressing for urgently is a change in the Egyptian law 
that prevents our direct assistance to so many important 
nongovernmental organizations in that country. Don't 
exaggerate, but also don't be naive. I think that is the right 
approach.
    Mr. Ackerman. Mr. Craner.
    Mr. Craner. Egypt would not be the first military that was 
starting to lose, as Rob noted, is starting to lose its good 
reputation in a country because it was sticking too close to a 
dictator. This happened in Pakistan where the military, which 
was the most revered institution in the country, started 
descending in people's opinions. I think that is something we 
ought to remind them of. I think certainly American assistance 
is something we ought to remind them of. I am sure the Chinese 
would be happy to supply tanks and aircraft, but they are not 
American tanks and aircraft and tactics.
    In terms of the Brotherhood, I would agree with Rob, I am 
afraid to say. I would agree with Rob. We need to stop 
presenting ourselves with the choice that Mubarak gave us and 
understand that there are people in the middle. This is why I 
personally do not favor quick elections; I think some time is 
needed to be able to work with those folks. But we shouldn't 
repeat to ourselves Mubarak's choice.
    Chairman Ros-Lehtinen. The gentleman's time has expired.
    Mr. Burton, chairman of the Subcommittee on Europe and 
Eurasia, is recognized for 5 minutes.
    Mr. Burton. Elliott, it is good seeing you again. You and I 
go back all the way to Central America and the problems back 
there in the early eighties during Reagan's administration, so 
it is good seeing you.
    I would like to broaden the discussion just a little bit. 
The problems in Egypt seem to be manifesting itself in some of 
the other states, not to the degree that you see in Egypt, but 
there is concern about the Persian Gulf area, the Straits of 
Hormuz, the Suez Canal, and what that means for the United 
States of America. And I am very concerned about that. We are 
not moving toward energy independence. Our dependency on 
Venezuela and the Middle East is even greater now than it has 
been in the past. We get about 30 percent of our energy from 
the Middle East and about 20 percent, or thereabouts, from 
Venezuela. We have got some people that don't like us very much 
that we are getting our oil from.
    So my concern is what is likely to happen in these other 
countries, and whether or not there is a possibility that we 
could see a bottling up of the Suez Canal, the Straits of 
Hormuz, and the Persian Gulf, what that means to the United 
States. If we don't drill here in the ANWR and drill off the 
Continental Shelf and in the Gulf of Mexico and use some of the 
300 or 400 years of natural gas and coal shale that we have 
while we are transitioning to these other new technologies, 
windmills and solar and nuclear and so forth, what is going to 
happen in the United States? What is your prognostication on 
whether or not this sort of thing could happen over there and 
how can we deal with that?
    Right now I am sure you all know that there are some 
rumblings going on in the Persian Gulf States, there are some 
minor rumblings going on in Syria; we have already heard some 
minor rumblings in Jordan, as well as Egypt. And also we have 
our good friend, Israel, that is right in the middle of all 
this. And if that thing blows up, they are certainly going to 
defend themselves, which could be a catalyst for a major 
problem.
    So I know this is a very broad question, but I would like 
to know how this affects the United States and our security, 
both economically and militarily.
    Elliott, why don't we start with you?
    Mr. Abrams. Thank you, Mr. Burton. Thank you for the kind 
words. It is great to see you again.
    So far, the Suez Canal is open for business, and it is 
certainly in the interests of the Egyptian military to keep it 
open. I think if we see any sign of Iranian reactions to this, 
taking advantage of this, it would be timely for America's 
military leaders to stop talking about how catastrophic it 
would be if there were ever a strike on Iran, and to start 
saying that if Iran closes the Straits of Hormuz, we will open 
them; we will open them fast, and they will pay the price. I 
think we should make that very, very plain to the Iranians.
    I also would just say I agree with you that we have an 
incredible development in shale gas that gives us an 
opportunity to be independent of Middle Eastern oil, not 
tomorrow morning, but not 50 years from now either. To me it 
seems that we ought to be moving as fast as we can to develop 
that resource and make ourselves energy independent.
    Chairman Ros-Lehtinen. Mr. Craner.
    Mr. Craner. The one allied country in the Persian Gulf that 
I think ought to be of some concern is Bahrain, where they have 
rolled back a lot of the openings that they had made, where you 
have got a heavy Shiite population. Obviously, once you get 
beyond that--Qatar, Oman, et cetera, I think are going to be 
pretty stable. And again, it is Iran that I would worry about. 
I would worry a lot about Iran trying to take advantage of all 
these events far afield from where they are. They have got to 
be happy watching some of these newscasts.
    Mr. Satloff. Just very briefly, not all rumblings are the 
same, not all rumblings are bad news. I would hope that we 
would see more rumblings in Syria and Iran. It advantages our 
interests. And if we could help propel the winds of change to 
Damascus and Tehran, that would be good.
    Secondly, I do think that the situation in Jordan is 
different than what we have seen in Egypt and Tunisia. The 
Jordanians--it is a serious situation, but I don't think that 
it is by any means approaching the crisis point that we saw in 
Egypt and Tunisia. I think in general we have to caution 
against the concept of dominoes falling from one country to 
another. It is a very different situation in some of these 
countries.
    Mr. Burton. Thank you.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Burton.
    I am pleased to yield to our friend from American Samoa, 
Mr. Faleomavaega, for 5 minutes.
    Mr. Faleomavaega. Thank you, Madam Chair. Congratulations 
on your attainment of the chairmanship of this committee. I am 
looking forward to working with you and your colleagues on the 
other side of the aisle.
    I do want to thank the gentlemen for their testimonies this 
morning.
    It is quite obvious that there are so many undercurrents 
and crosscurrents now developing as far as the crisis that we 
are facing in Egypt at this time. Some 350 million Arabs live 
in this part of the world. I wanted to know how difficult the 
problem is now that we are confronted with it.
    Would you agree that our general policy toward Egypt has 
been never mind about democracy as long as there is stability? 
And is there a sense of resentment among the Egyptians that 
say, Oh, now the United States wants to look for another 
Mubarak to continue the policy of stability, more importantly, 
than that of democracy--as I think our good friend, my 
colleague from New York, has given concern as to whether or not 
our Government is going to allow the Egyptian people ultimately 
to make that decision for themselves and to their future. I 
would like your comments on that.
    Mr. Abrams. Thank you. I think you are right. I think that 
except for some brief periods--2004, 2005, especially--we have 
basically been uninterested as a country in democracy in Egypt. 
We have taken--and we have exaggerated, I would also say--the 
benefits we get from President Mubarak, and there are a lot of 
Egyptians who I think do resent it. I think we could overcome 
that resentment if we make it clear right now that we really do 
hope their revolution succeeds. And I think the administration 
has not been clear about that. I think it has been straddling 
the fence. It is time for the United States to make it very 
clear that we think what is going on is really terrific and 
that we hope for nothing more than democracy in Egypt.
    Mr. Faleomavaega. Mr. Craner.
    Mr. Craner. I have no question that what you just said is 
absolutely true. I think we do have a chance to redeem 
ourselves. I think if we look back at our experiences in Chile 
and in the Philippines under President Reagan, they provide 
good guides about how to move.
    Mr. Faleomavaega. Mr. Satloff.
    Mr. Satloff. Sir, over just the last week, my organization 
funded a poll in Egypt through the Pechter Middle East polling 
firm, which is the first polling data to come out of Egypt 
since the crisis. One of the findings is this crisis is not 
anti-American. It is anti-Mubarak, but it is not anti-American. 
That is a good sign, and that gives us a good foundation on 
which to move forward. I don't know if it will last, and we do 
have to make important decisions to ensure that it doesn't fall 
backward, but we have a surprisingly strong foundation on which 
to move forward in Egypt.
    Mr. Faleomavaega. For the past 30 years we have given Egypt 
well over $65 billion in assistance, and $36 billion of that 
went to the military to prop up Egypt's military defense 
forces.
    Would you agree that if this crisis really comes to a 
boiling point where there is going to be riots and all of that, 
that the military definitely will have to step in and take 
control of the government?
    Mr. Satloff. Sir, I think the military has already stepped 
in to take control of the government. We have two military Vice 
Presidents and a military Prime Minister and still a military 
President. What we hope for is a military to chart the 
transition and to take irrevocable decisions toward change.
    Mr. Faleomavaega. And even if we make threats toward the 
military, saying that we are going to cut off your funding, I 
am quite sure that there are going to be other sources out 
there that are more than willing to compensate for whatever 
restrictions or whatever decisions that we make, and say we are 
not going to fund you, they are going to find other sources.
    So isn't it ultimately that this is going to be one of the 
most critical points where the military definitely is going to 
be the real power behind whatever is going to happen in the 
coming weeks and even months as far as Egypt's future is 
concerned?
    Mr. Abrams. It will. And I think they are in charge right 
now. And even if we grant that they could find the money 
someplace else--I am not sure, $1 billion is still a lot of 
money--but even if we grant that, the question is about us more 
than about them: Where do we stand? What do we want our money 
going for? What record will be compiled in this crisis created 
in Egypt? I think that is even more important in a sense.
    Mr. Faleomavaega. I think my time is up.
    Thank you, Madam Chairman. Thank you, gentlemen.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Faleomavaega.
    I now would like to yield 5 minutes to the chairman of the 
Subcommittee on Oversight and Investigation, Mr. Rohrabacher of 
California.
    Mr. Rohrabacher. Thank you very much. These witnesses have 
been excellent witnesses today. I thank each one of you for 
sharing your expertise and also for your service to our country 
in the past years and the service to the cause of democracy.
    I would like to identify myself with this commitment to 
democracy as articulated by our witnesses. I do think that we 
could have been giving advice to the regime and to the military 
and perhaps forcing more democratic reform over the years. That 
certainly is important, not just looking forward but looking 
back.
    However, let me just note where we are today. I find it 
very disturbing that there is such a contrast between the 
administration's muffled and restrained response to the brutal 
repression of demonstrators against the anti-American Mullah 
regime in Tehran as compared--and that is in stark contrast to 
the embracing of the demonstrators against a less than 
democratic friendly government in Egypt. I think that sends 
exactly the wrong message to many people in power.
    This administration's response to events in Egypt has 
basically been responding to these events with a confused and 
unreliable voice that will have, I believe, serious 
consequences, long-term consequences for the cause of freedom 
and stability in this volatile region. And it does a 
disservice, I might add, to American security interests as 
well.
    President Mubarak has been a force for stability, even 
though his rule has been very imperfect and less than 
democratic. Improving that does not mean making decisions that 
could well result in the empowerment of radical Islamic forces 
like the Muslim Brotherhood.
    Specifically, President Mubarak reached out to his people 
and to democratic countries throughout the world with an 
announcement that neither he nor his son would run for 
President and that he would work with those to try to ensure 
free and fair elections. Well, giving the moderates and the 
democratic forces in Egypt 8 months, until September, to 
organize and to participate in a democratic process seems to be 
a responsible strategy and something that we should have 
embraced and worked to make sure that it was indeed ensuring 
free and fair elections. Instead, the Obama administration 
began calling for immediate change, the alternative to 
President Mubarak must be put in place now.
    Well, what would that result in? By immediately installing 
a new government could well mean that we are installing a 
government that has not been elected to anything. And while 
Mubarak is imperfect, the people that we are saying should be 
installed now wouldn't have any legitimacy in terms of 
democratic base work for their power, especially if those 
people who end up--because we are demanding immediate leaving 
power of Mubarak now--end up to be anti-democratic in their 
very nature, or so radically Islamic that they wouldn't permit 
real freedom in their country.
    I would argue that the administration's actions have been 
contrary to the long-term interests of democracy and stability 
in Egypt. So I would hope that we would work with the 
administration, all of us would try to do our part. And I would 
hope that the United States does not in any way compromise our 
long-term commitment to the Egyptian people that we side with 
democracy, but we need to do this in a responsible way that 
will not in the long term result in less democracy and less 
freedom.
    You wonder about some of these young women who are marching 
down the streets complaining about Mubarak, whether or not they 
are going to end up with a regime that forces them to wear 
burqas and cover their face and shut up and not be involved in 
national politics, like we have seen in other radical Islamic 
countries.
    We have been doing more than just throwing Mubarak under 
the bus, we have been throwing him to the wolves. And perhaps 
the future of democracy and freedom in that part of the world 
will be eaten up as well.
    I just went on a rambling rave myself. You have 40 seconds 
to make your comments.
    Mr. Abrams. Just a very quick one. I think it is important 
to distinguish what can be done tomorrow and what can't. There 
can't be elections tomorrow, not anything that we would regard 
as free and fair and reasonable ones. They could lift the 
emergency law tomorrow. After 30 years, it is time. Omar 
Suleiman said, yes, it should be lifted as soon as security 
conditions permit. He has been saying that for 30 years. It is 
time.
    Mr. Craner. I think the best judge is whether they are 
moving forward with the kind of conditions that could lead to 
free and fair elections. When the Vice President says his 
people aren't ready for democracy, that answers the question.
    Chairman Ros-Lehtinen. Thank you so much. The gentleman's 
time has expired.
    I am pleased to yield to Mr. Payne of New Jersey, the 
ranking member on Africa, Global Health and Human Rights, for 5 
minutes.
    Mr. Payne. Thank you very much.
    As you know, we have a history of supporting dictators. 
Usually our foreign policy has very little to do with the 
manner that they treat their people--the Mobutus in Zaire to 
the Savimbis in Angola, the F.W. Botha in South Africa. We can 
go on and on--the Shah of Iran; Marcos in the Philippines.
    How do you see us moving in the future? Are we going to, in 
your opinions, still back bad guys that we know they are bad 
but they are okay to us, or are we going to sort of have 
democracy to try to have a process going in those countries 
where you can have the will of the people expressed? How do you 
see us going in the future? Because this Egypt thing is not 
over. It is not the Obama administration that fouled up 
somewhere. This thing, as you know, goes way back to Britain 
wanting to block up the Suez Canal back in the fifties. So what 
do you think about our relationship to dictators in the future?
    Mr. Craner. Obviously, it is important right now to spend a 
lot of time on Egypt. What happens in Egypt is going to have 
huge consequences for the region. But I hope that this 
experience with Egypt, where the conventional wisdom was it was 
going to be stable--certainly the conventional wisdom was that 
Tunisia was going to be stable--will lead to us look around the 
world at other countries that we think are important to the 
United States where we are currently muting ourselves on 
democracy and human rights. It doesn't mean you have to push 
one or the other; you can have a relationship, if you need to, 
with an authoritarian government. But you can't believe the 
dissidents and the democrats who we have learned time and again 
will one day inevitably come to power on their own, and when 
they do come to power they are looking around and saying, 
``America did nothing for us.''
    So whether it is in Kazakhstan or Azerbaijan or China, we 
need to be looking at these countries and thinking about what 
we are doing whenever change may come to those places.
    Mr. Satloff. Just to add a specific word about where we 
might ensure our focus in the broader Middle East, events in 
Egypt have obscured our attention from Tunisia, and I think we 
need to make sure that the Tunisian example actually leads to a 
good outcome. It is on a positive path, but it is by no means 
assured that Tunisia will lead to the right endgame. I think we 
can't lose focus on that.
    And secondly, sir, I would suggest that in the Palestinian 
Authority, certainly in the West Bank, it is important that our 
partner have greater popular legitimacy, in talking about the 
leadership for the Palestinian Authority, Mahmoud Abass. And 
there is no better way to have popular legitimacy than through 
the popular support of elections.
    And so I think we should consider talking with our friends 
there about ways to enhance their popular legitimacy through 
elections. We don't want the type of change that we have seen 
in Egypt and Tunisia to be the norm of how change happens in 
our friendly countries.
    Mr. Abrams. Yes, I agree with both my friends here, Mr. 
Payne.
    I think one of the things we have learned is that the so-
called ``realism'' that led us to support these dictators is 
not so realistic in the end after all, and a policy of 
supporting democracy may actually turn out to be more 
realistic.
    Mr. Payne. Well, there is a situation going on in Cote 
d'Ivoire, which not much attention of course is being paid to 
right now, but the current President was defeated, everyone 
agrees he has been defeated, but he is refusing to leave. With 
16 elections coming up and after this year, if this person who 
lost the election, Gbagbo, remains to stay in, that simply 
sends a bad message for these 16 elections coming, and also, it 
might even have impact on the police in the Middle East,
    Let me just ask one last question. Both you, Mr. Abrams, 
and you, Dr. Satloff, have different opinions on the support 
from your Egypt group about military support and assistance 
continuing. You both have opposite positions. Could you, in 
about 15 seconds each, tell your position and why?
    Mr. Satloff. My position is that we should use whatever 
leverage we have to try to convince the Egyptian Army to make 
the right decision. Positive conditionality. There is always a 
time in the future that we can cut off aid when it is apparent 
that the Egyptian military has taken the path solely of 
repression and suppression of popular protests.
    Mr. Abrams. I think we actually do agree on that. I 
wouldn't cut it off today, but I would send a very strong 
message today to the Egyptian military that it is in jeopardy.
    Chairman Ros-Lehtinen. Thank you so much. The gentleman's 
time has expired.
    If I could ask Mr. Royce, before I recognize you, if you 
could take over as chair for me. I have to meet some 
constituents. And I will recognize Mr. Royce, the chair of the 
Subcommittee on Terrorism, Nonproliferation, and Trade for 5 
minutes of questioning. Thank you, Mr. Royce.
    Mr. Royce [presiding]. Mr. Craner, I had an opportunity 
over the weekend to meet with seven Egyptians from Cairo and 
Alexandria, who recently traveled here from Egypt. Here is what 
they shared with me. Their observation was that the Muslim 
Brotherhood did not start this uprising, as they called it. It 
came from young professionals. But they said that if the 
Brotherhood gets the upper hand, eventually it would be a 
bloody terror for those who did not subscribe to the 
fundamentalist approach of the Brotherhood. They said if you 
want to see how this will play out, think of what happened to 
the Baha'i in Iran; think of what happened to the students and 
to the young democratic enthusiasts that went to the streets 
against the Shah and then ultimately found themselves in prison 
or shot when the fundamentalist regime came to power. They said 
it is the fate of the guillotine if the revolution goes the 
wrong way afterwards.
    Here was their point: They said the Brotherhood is a group 
that does not believe in pluralism. There is no equality for 
women; there is no equality under their conception of Islam for 
non-Muslims or for Muslims who deviate from their viewpoint. So 
they say they have embraced elections as a means to power, 
basically. And given their past history, in their view, why 
shouldn't there be qualifications on candidates that don't 
support pluralism? Because otherwise it is going to be a 
situation where you are going to have one free election one 
time, because they view this group as hell bent on this path. 
So I was going to ask you about that.
    I was going to ask you, should they not be allowed to 
participate? And maybe you could tell us a little bit about the 
Brotherhood's lack of democratic bona fides.
    Now the other thing that I wanted to ask you about is the 
effort that the United States made some years ago with Hernando 
de Soto. This is the other issue they wanted to share with me, 
the utter corruption in that society. Hernando de Soto, the 
Peruvian economist, went to Egypt in 2004, did a massive study, 
and found that gaining the legal title to a vacant piece of 
land takes 10 years; to open a bakery takes about 500 days. You 
have 56 government agencies you have to go through. They were 
telling me about this process in Egypt, you know, 20 bribes to 
open a small company.
    So they said, ``Look at the consequences of that.'' 
Hernando de Soto brought that plan forward to the Egyptian 
Cabinet to unlock an amount of capital in Egypt 100 times 
more--more than that of what we give Egypt in support, right? 
And they have a Minister in Egypt that supports a reform to 
bring transparency to the legal system, and this guy was 
sacked. And as a consequence, as de Soto said, hidden forces of 
the status quo blocked crucial elements of the reform. You 
cannot get reform under the current system.
    And this is something else I wanted to ask you to respond 
to. In the United States, here we have a U.S.-funded study that 
helps institute crucial legal and institutional reforms that is 
blocked by the government. Do we object, do we protest, do we 
register a complaint, do we threaten to cut off aid? Do 
situations like this even get the Ambassador's attention? What 
do we do about this level of corruption in the regime? If you 
can respond.
    Mr. Craner. In a place that is so corrupt as Egypt, I don't 
think a plan like Hernando de Soto's could move forward. I 
think it would take a different kind of system. Here I would 
point to Georgia, which under Shevardnadze was one of the most 
corrupt countries in the former Soviet Union, which is quite a 
claim. They have moved forward dramatically under their new 
government to end corruption. I think when Saakashvili came 
into power, over 90 percent of the people reported they had had 
to pay a bribe within the previous 3 months. Now it is exactly 
the opposite. But I don't think in a system like Egypt that on 
corruption is rotten to the core you are going to see any kind 
of change. There are too many people that have their hand in 
the till under this system. It is changeable, as Georgia has 
shown, but not under this regime.
    I think on the issue of the Muslim Brotherhood, you and I 
faced this issue in South Africa almost 20 years ago, about 
whether certain parties were going to be allowed to run. At 
that time, the issue was whether or not they were committed to 
nonviolence. I think those kind of conditions are very, very 
fair. It shouldn't be that people who are against pluralism or 
are pro-violence are allowed to be violent on a Tuesday and 
stand for election on a Thursday.
    Mr. Royce. Well, I thank you, Mr. Craner. I am going to go 
to Mr. Satloff for any observations on that as well.
    Mr. Satloff. Two brief observations about the political 
system and its potential evolution vis-a-vis the Muslim 
Brotherhood. There is currently a constitutional clause in 
Egypt that no party based on religion is allowed. It will be 
for the Egyptians to determine whether that gets amended. 
Should they ask the United States or the U.S. Embassy for its 
advice, I would urge that we should not advocate for changing 
that fundamental principle.
    Secondly, there is some discussion about the order of 
elections, Presidential, parliamentary, et cetera. It makes 
much sense that there be a Presidential election before there 
is a new parliamentary election. Under the Egyptian 
Constitution, the chances of a moderate, liberal-minded 
Presidential victor are far greater than a parliamentary 
outcome that would lead similarly to that end.
    Mr. Royce. I would like to yield to Mr. Berman for a point.
    Mr. Berman. I would very much agree, except for one issue. 
Will this Parliament that is in place as a result of a 
manipulated election make the changes that we think are 
necessary to ensure the legalized parties create a process?
    Mr. Satloff. I think the short answer is this Parliament 
will do what the political leadership of the country tells it 
to do. So I would not make changing the composition of this 
Parliament the be-all and end-all of Egyptian political reform.
    Mr. Royce. Thank you, Mr. Satloff.
    I would like to go now to Mr. Engle of New York for your 
questioning.
    Mr. Engel. Thank you. I would like to ask a question about 
Egypt and also do Lebanon as well, because I wrote the Syria 
Accountability Act. And one of the things that we used in that 
act--I did it with the current chair, Ms. Ros-Lehtinen--we 
wanted Syria to get out of Lebanon. And we know that there has 
been a lot of change and uproar in Lebanon. First of all, the 
pro-Western government fell, there is a new Prime Minister 
Designate Mikati.
    I would like to ask anyone who would care to answer, what 
is your assessment of him? Is he qualified for the position? He 
was obviously nominated by Hezbollah, so that makes me worried. 
So I would just like you to answer that.
    I would also like to speak about the Special Tribunal in 
Lebanon. Hezbollah bitterly opposes the Special Tribunal 
because that is the international body investigating the 2005 
assassination of former Lebanese Prime Minister Hariri. It is 
widely expected that the Special Tribunal will indict some 
members of Hezbollah.
    And what should the administration do if that happens and 
the Lebanese Government decides to withdraw its material and 
verbal support from the STL? Should we at that point attempt to 
pick up the financial slack? So let me ask that Lebanese 
question first.
    And then my question on Egypt is: What are the similarities 
that you see between the uprising in Iran and the revolution of 
1979 and this? Many people have said it is very similar, many 
people have said no because of differences. I would like to 
hear your analyses on it. Anybody who would care to answer 
either question, I would be grateful.
    Mr. Abrams. Mr. Engel, I will just start.
    I think that Mr. Mikati is, in the technical sense, 
qualified to be Prime Minister of Lebanon, but as you said, he 
was put there by Hezbollah. This is supposed to be, under their 
Constitution, a Sunni seat, but the Sunni community did not 
choose him. He is a cat's-paw for Hezbollah. This is, in a 
sense, a soft coup by Hezbollah. And I would argue that if 
Prime Minister Mikati does not support this Special Tribunal 
for Lebanon, I hope our relations with him reflect that. I 
would, for example, suggest he not be invited to the United 
States to meet the President, to go to the White House, to come 
up here on the Hill, if that is the position that he is taking.
    Just very quickly, I would draw two distinctions between 
the Iran situation and that of Egypt. One, there is no 
Khomeini. There is no great opposition leader that we have to 
fear, let's say, on the Muslim Brotherhood side; nor is there, 
unfortunately, a Walesa, a Havel, on the democratic side.
    The second difference is the army collapsed in Iran, and of 
course it hasn't collapsed in Egypt. And one of the things that 
we are all saying here today is we don't want it to collapse. 
We want it, however, not to try to maintain the old regime 
forever or people will lose faith in it.
    Mr. Engel. Thank you.
    Mr. Craner. I think that was an important point, that there 
is no central religious figure to fear in Egypt. And I think 
that things have not gotten so rotten and so bad in Egypt that 
you really have people accruing to that religious leader or 
religious party and leaving almost no room for what we used to 
call moderates in Iran.
    Mr. Satloff. First, I think we should remember how fresh 
and new the Egyptian situation is. Less time has passed in 
Egypt than what took Ben Ali to leave in Tunisia, and that was 
so fast. We should not rule out the idea that leaders will 
emerge, whether it is this Google executive, or someone else 
may emerge to be the face of the faceless revolution, and that 
would be important.
    I do concur with the sentiments that were expressed by 
Elliott on Lebanon, Congressman. I would just add that there 
are Security Council requirements, both regarding the Special 
Tribunal on Lebanon and regarding security in the south, that 
the Government of Lebanon is required to maintain. And it would 
be appropriate for the United States not to have to act alone, 
but to act in concert with its Security Council partners to see 
that either this government in Lebanon fulfills its 
requirements or is censured. And that would be a great 
embarrassment to Lebanon, to the Hezbollah-backed government.
    Mr. Engel. I just think, and let me conclude, that the 
violation in Lebanon of the cease-fire in the war with Israel, 
with all these missiles and weapons which were supposed to be 
not allowed to come back in the country, is really alarming and 
it is something we really need to take very seriously.
    Thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Engel.
    I am pleased to yield to the chairman of our Subcommittee 
on the Middle East, Mr. Chabot, for 5 minutes.
    Mr. Chabot. Thank you, Madam Chair.
    Mr. Crane, you stated in your testimony that as a 
democratic form of government slowly begins to take shape in 
Iraq, having similar political developments in Cairo could have 
great consequences for the region. Conversely, given the 
violent birth of and halting steps toward democracy in Iraq, 
chaos or a more repressive government in Egypt will discourage 
and further delay much needed reform in the region.
    Could you elaborate on the implications for our efforts in 
Iraq of the events currently unfolding in Egypt and how will it 
affect U.S. leverage?
    Chairman Ros-Lehtinen. And Mr. Craner, if you could put the 
microphone a little closer to your mouth. Thank you.
    Mr. Craner. I said that, because if you look historically 
over the last 5,000 years, the two centers of learning and 
intellect in the region have been principally Cairo, but also 
Baghdad. And so if you are a Syrian or an Algerian or a Yemeni, 
you have traditionally looked to or you may have gone to school 
in the old days in one of those two places. Today, you may also 
have gone to the American University in Beirut. But those are 
the kind of two traditional intellectual leader cities and 
countries in the region. So if you had democracy in those two 
principle pillars for Arab culture, then it would be difficult, 
if you are in another Arab country, to say democracy is not 
going to work here.
    Alternatively, if things were to go badly in Egypt, you 
would then be in a position in another country to say, is that 
what they mean by democracy? You had all that violence in Iraq 
and look what happened in Egypt. So the stakes are very, very 
high in Egypt, I think.
    Mr. Chabot. Thank you.
    Mr. Abrams, over the past decades, the United States has 
given the Mubarak regime billions of dollars in nonsecurity 
assistance, and such assistance has, unfortunately, not led to 
significant political or economic reforms, as we all know. How 
should the executive branch and Congress going forward leverage 
our economic assistance to encourage real reforms?
    Mr. Abrams. Mr. Chabot, I think there have been changes in 
the Egyptian economy, and the rich have gotten a lot richer. 
There are now Egyptian billionaires on the Forbes list, but 
there has not been much trickle down and the poor remain 
desperately poor.
    I would hope that what we would try to do in our economic 
assistance is, first of all, help those who are poorest. And 
secondly, see if we can encourage the new government that is 
going to be coming in to adopt economic reforms that are not 
simply about increasing foreign direct investment or getting 
the stock market to rise, but about helping people in the lower 
middle class, working class, and the poorest people.
    One of the problems we have with our aid program in Egypt 
is Egyptians don't know it exists. Some other countries have 
built stadiums and things like that that are very visible, but 
an awful lot of Egyptians don't know that we have given 
billions of dollars in aid to Egypt.
    Mr. Chabot. Thank you very much.
    Dr. Satloff, I was struck by your comment that you made 
that basically the worst of all worlds for the United States to 
be in was to be neither feared, nor respected, nor loved. I 
would invite yours, and if there is any time left, the other 
members--how can we avoid that hereon?
    Mr. Satloff. Generally, the rule in the Middle East is 
reward your friends and punish your adversaries, and it is 
usually a smart policy to follow. The Egyptian case cuts 
through the middle of it because we have a partner who is both 
friend to us and adversary to us in different respects. Clarity 
here is important. I think, as I said earlier, that the longer 
that there is no visible change at the top, the more our 
influence wanes.
    If I could add just one brief comment, sir, about the 
economic question, I suspect that the leaders of Egypt view it 
a bit differently. They probably see that all these protestors 
have cell phones, Facebook pages, access to computers; they 
can't be so poor. And they are probably saying to themselves, 
my gosh, all that work that we did to advance the Egyptian 
economy only led to popular protests, only led to more 
opposition. I think we should be wary elsewhere that leaders 
will find ways to limit the sort of growth that led to the 
popular protest. Egypt has had 5 percent growth for years, and 
this is an outcome that authoritarians will be fearful of in 
the future.
    Mr. Chabot. Thank you. I have 15 seconds, if either one of 
the other gentlemen would like to--okay. I yield back, Madam 
Chair. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Chabot.
    I am pleased to yield 5 minutes to Mr. Meeks of New York, 
the ranking member on the Subcommittee on Europe and Eurasia.
    Mr. Meeks. Thank you, Madam Chairman. And congratulations 
to you, also.
    Let me just say this and throw out a question. I, too, over 
the weekend have had the opportunity to sit down with some 
young people, some who just came back from Egypt who reside in 
my district, et cetera. And I have got to tell you, I have come 
away tremendously impressed in all of the conversation that we 
have been having today.
    I have confidence in the Egyptian people. They have gone to 
the streets and said what they want and what they don't want. 
They clearly want to move into a more free society, something 
that I don't think anybody could have ever done for them. They 
did it for themselves. And as a result of that, I know we can 
talk and we have our interests, of course, but ultimately they 
are going to decide their own Constitution. And I think that to 
the degree that we try to say, well, this should be in there or 
this should not be in there, then--it is not anti-American now, 
but if we try to tell them what should or should not happen, 
just as they are revolting against Mubarak, that then I think 
becomes the danger that we have because they are clear.
    Now, one of the things that they were not as clear on when 
I asked them, is who could rise from among them to be a leader, 
who could be the candidate; because clearly there is no clear 
leader within the opposition. And my question to them was then, 
in all of this, in doing a new Constitution, et cetera, it 
takes individuals to sit down, to talk, to negotiate. I 
referenced our Constitution, our men at that time, and 
hopefully now men and women will be sitting down and talking.
    Have you any idea who is in that group that will be talking 
to help rewrite the Constitution so that whoever comes up, we 
will then have an entree to try to continue the kind of 
relationship that we have had in the past but in a democratic 
forum?
    Mr. Satloff. Congressman, yesterday the Egyptian Government 
appointed a panel of constitutional experts--judges, lawyers, 
et cetera--many of whom are very loyal to President Mubarak, 
some have been vocal opponents of the President over the last 
number of years. It is not clear that this group will have 
popular legitimacy.
    There are other groups that are out there as well. There is 
a group called the Wise Men, public figures, both businessmen 
and civic leaders. There are the leaders of the youth. They 
have tried to organize themselves into an important coalition 
of leaders. There are the traditional parties that the regime 
has tolerated; they are small, they have been around for many 
years. They don't have much popular support. But they do 
understand the Constitution and they do understand Egyptian 
law.
    There is no coalescing yet, they don't all agree, except 
almost all of them seem to agree on the idea that the 
President, either in his person or in his authorities, must go. 
That important, visible, irrevocable change seems to be a 
common feature of the opposition.
    Mr. Craner. I think there are leaders out there. You have 
El Baradei, you have Ayman Nour, you have others. There are 
many people whose names are not household words in the United 
States or maybe even in Egypt because of the repression all 
these years. I think what will be important is to note, number 
one, if you have an election soon nobody is going to know those 
leaders' names. And number two, if the good people in the 
middle are not able to come together to form a coalition and 
perhaps to come up with a common candidate, then you could have 
things going badly.
    Mr. Meeks. What--go ahead.
    Mr. Abrams. I agree with that, and I think there are people 
who will come to the fore, because like Ayman Nour, who ran 
against Mubarak in 2005, they are known to be opponents of the 
old regime.
    Mr. Meeks. And within those groups what are you hearing in 
regards because when we do talk about U.S. interests I am also 
concerned about our ally, Israel. Is there any kind of 
consensus because at least there have been a peace, might have 
been a cold peace, and you talk about the Suez Canal, you talk 
about--and I know that President Netanyahu is concerned. Is 
there any conversation that you have heard on the ground in 
regards to Israel?
    Mr. Satloff. There is no doubt that the Muslim Brotherhood 
has gone on record as seeking the cancelation of the peace 
treaty. They have opposed it from the beginning, and they will 
oppose it to the very end. Other organizations have publicly 
said this isn't about Israel. Thankfully this is not about 
Israel. This is what Elliott said earlier; this is not about 
America even giving our support. This is about their desire for 
change.
    We have to be vigilant that a situation doesn't come, that 
it becomes about Israel and America. And I think we should all 
be quite worried that elements of the regime just last week 
tried to play the Israel card and the Jewish card, putting on 
Egyptian national television so-called Israeli spies, that 
evidently were provocateurs in the protest, or protestors that 
admitted to being trained by American Jewish organizations to 
overthrow Mubarak. This is all obviously poppycock, but it 
plays to the conspiratorial mindset, which many may have, and 
it is a sign of desperation on the part of the regime.
    Chairman Ros-Lehtinen. Thank you very much. The gentleman's 
time has expired. I am pleased to yield 5 minutes to Mr. 
Fortenberry, the vice chair of Africa, Global Health, and Human 
Rights Subcommittee.
    Mr. Fortenberry. Thank you, Madam Chair, and thank you 
gentlemen for coming today. I believe it is very important that 
we stand by any people who are pursuing their highest 
aspirations. Now with that said, the doorway to a vibrant and 
sustainable democracy rests really on two pillars 
fundamentally. First is an inculturated understanding of the 
dignity and therefore rights of every person and secondly an 
understanding of the nature of responsible citizenship as it 
seeks to uphold the rule of law. Then from there flow the 
institutions of society that give rise to civil capacity and 
can sustain things like freedom of speech and freedom of 
religion and freedom of assembly and a vibrant democracy with 
free and fair elections.
    The delicate question that is before us is, where is Egypt 
on that spectrum? Because without sufficiently developed 
institutions the danger or probability increases that this 
situation is exploitable by those who would use democracy to 
undermine it to pursue other ends. We had a discussion earlier 
as to what happened in Gaza. I heard your point, Mr. Craner, 
but at the same time, if you are allowing democracy to be used 
by those who are going to act antithetically to it, you may end 
up in a situation which is much worse off.
    With that said, again we want to stand by people as they 
are pursuing their highest aspirations, but I think that is the 
narrow issue here. Where is Egypt in terms of civil capacity so 
that we increase the probability that this type of hopeful and 
good outcome can occur.
    Mr. Abrams. Just one brief comment, Mr. Fortenberry, this 
is the measure of a terrible legacy of Hosni Mubarak, who had 
30 years to slowly, steadily build this civic culture and 
instead built a culture of suspicion and suppression and leaves 
soon, even on his own timetable, with having done none of it.
    Clearly Tunisia is in a better situation. Tunisia, with 
$8,500 per capita income and roughly 85-80 percent literacy. 
But I guess I would say we are who we are. I mean the people of 
Egypt are rising up and demanding this. And what perhaps we can 
help advise with is the kind of institutional protections that 
after all our own founders put in because they wondered whether 
we had the civic culture to do this yet and they were very 
mistrustful of majorities. So maybe we can help as they think 
through what a new Constitution would look like.
    Mr. Craner. In terms of civil capacity, there are many 
countries less developed that have become democratic. And I 
always use the example of Mongolia, quite an isolated place, 
with not a lot of civil capacity, Mali in Africa. The list--I 
could cite you a long list, but in terms of civil capacity----
    Mr. Fortenberry. Are a comparable in terms of----
    Mr. Craner. Much less, much less, what would you call civil 
capacity in terms of the understanding of the issues you were 
talking about that have been able to come to the fore and 
become democratic. I think one of the issues in Egypt is from 
where we sit it is going to be hard to slow what is going on in 
Egypt. I think we can help shape it as it moves forward. We can 
even hasten it moving forward. But at the least we can do is 
shape it. But I think it will be very, very hard for us to slow 
it.
    Mr. Fortenberry. One of the problems with analogies and 
this is clear is that perhaps you didn't have entities as well 
organized as the Muslim Brotherhood is going to reject 
fundamental aspects of what are going to provide the foundation 
for vibrant democracy as we project on it. I think that is 
where it falls short, but I understand your point.
    Mr. Craner. I would also point you, however, to some of 
the--Muslim Brotherhood is unique certainly in Egypt, but there 
have been other countries where there have been well organized 
entities that went into elections and were defeated. And I 
think here of the former communist parties.
    Mr. Fortenberry. I just picked up your language when you 
said hopefully moderates will come out well. Again that points 
to this delicate situation that we are now in and we don't 
exactly know where we are.
    Mr. Craner. But we need to get in and shape it and not just 
be passive spectators, which is essentially what we are doing 
right now.
    Mr. Satloff. Just one brief analytical distinction. 
Egyptians are generally religiously conservative, but we should 
not equate that with membership in the Muslim Brotherhood, 
which is an ideological party with political goals. We 
shouldn't believe that all Egyptians if they are not liberals 
they are necessarily Brotherhood members. We would fall into 
their trap.
    Chairman Ros-Lehtinen. Thank you. The gentleman's time has 
expired. I am pleased to yield 5 minutes to my Florida 
colleague, Mr. Deutch, for his questions.
    Mr. Deutch. Thank you, Madam Chair. Dr. Satloff, you said 
just a couple minutes ago that this is not about Israel or 
America, this is about what is happening in Egypt. But I would 
like to focus on what is happening in Egypt as it relates to 
the two, particularly for people, for Egyptian citizens. If you 
could discuss the implications on the ground, not just with 
regard to the border with Egypt, but the broader implications 
should the next government choose to abrogate that peace treaty 
with Israel. What does it means in terms of trade, what does it 
mean in terms of exports and qualifying industrial zones? If 
you could speak to that so that we have a better sense of what 
the thinking is and how it might play out.
    Mr. Satloff. Thank you, Congressman. I think we have gotten 
quite used to the idea of Egypt and Israel linked in peace, 
even if it is a cold peace, and the world in which we live is 
shaped by that. But to take that out and change that is huge. 
Israel for the last 30 years has operated on the assumption it 
didn't need to deploy a single soldier on the Egyptian border. 
That has opened up huge opportunities for Israel. It has 
enabled them to lower their defense spending, enabled them to 
move elsewhere, take other risks for peace. A change such as 
this, if it convinces the Israelis they have to rethink border 
security with Egypt, if they have to worry that the Egyptians 
are goings to militarize the Sinai, if they have to worry that 
the Gaza border is now going to become free flow for weapons 
with the Egyptian connivance instead of against Egypt's 
efforts, this changes everything that is possible for peace and 
security in this region.
    Egypt obviously will lose its American support if it severs 
its relationship. It will look for other partners, probably 
more nefarious partners than the United States. The Suez Canal 
becomes subject to possible closure or selective opening to 
various partners. The Egyptians, for example, have permitted 
the Israelis to transit their own submarines through the Suez 
Canal. The idea that in an era beyond peace that this would be 
possible is difficult to imagine.
    So there is a longer list, I could go on.
    Mr. Deutch. Well, if could you speak first to the nefarious 
partners that might be out there should this decision be made 
and secondly to the specific statement by the Muslim 
Brotherhood over the weekend that they recognize why it is in 
Egypt's interest to continue the peace treaty. Do we take them 
at their word as well? If not, again speak to who else might be 
out there that would be looking for this opportunity?
    Mr. Satloff. The statements I have seen by representatives 
of the Muslim Brotherhood are not supportive of the peace 
treaty. Actually I think the official position is they want the 
peace treaty to be up for a new vote by a new Parliament and a 
national referendum on whether it should be sustained.
    In terms of more nefarious possible partners for Egypt, 
well, there are plenty of candidates of countries that wouldn't 
have our conditionality, wouldn't have our desire for popular, 
for civic rights. Whether they are--they may be friends of ours 
even, like the Saudis and others, but they are not going to 
have democracy as part of their portfolio. And then there are 
more nefarious characters, whether it is the Chinese, the 
Venezuelans or other, that would come up with $1 billion to 
pluck the prize of Egypt from us, and I think it would be a 
price for them well spent.
    Mr. Deutch. Mr. Craner, you are nodding. Other thoughts, if 
you could broaden that discussion.
    Mr. Craner. I think Rob was very, very comprehensive in his 
answer to you. I think the other thing Egyptians would have to 
think about as they move that is their own economy. Nobody is 
going to want to invest in an area that looks like a war zone, 
which that may if that happens.
    The second thing the Egyptian military has to think about 
is whatever else you can say about the United States economy 
versus China and all this stuff, we continue to have the 
world's best military, and they would have to decide if they 
wanted to take Iranian weapons, Russian weapons, Chinese 
weapons, and Chinese-Russian training and then try to go to war 
with Israel.
    Mr. Deutch. And then finally, Mr. Abrams, if you could just 
speak again to the Muslim Brotherhood and the relationship with 
Hamas, funding for Hamas, those direct ties and our concerns as 
this goes forward.
    Mr. Abrams. Hamas is part of the Muslim Brotherhood 
internationally and the Mubarak regime has always been quite 
afraid of the link between the two. The question would really 
be about the Hamas border with Egypt, which is the Sinai-Gaza 
border. The Egyptian Government has done a mixed job. I mean, 
if you ask Israelis, there are tons of weapons that float in 
through those tunnels. It is hard to say the Egyptian 
Government couldn't have stopped more of them had it really 
been trying to. So it isn't as if we go from a golden age now 
to an age of trouble. But there is no question that one of the 
questions that the Muslim Brotherhood is going to have to 
answer is what do you want the relationship between the new 
Government of Egypt and Hamas to be?
    Chairman Ros-Lehtinen. Thank you so much, Mr. Deutch. Thank 
you, Mr. Abrams.
    Mr. Rivera, my Florida colleague, is recognized for 5 
minutes.
    Mr. Rivera. Thank you so much, Madam Chair. One of my 
concerns or one of my main concerns in this crisis is the 
impact on U.S. interests vis-a-vis Israel. I have one question 
first for Dr. Satloff and Secretary Abrams. Obviously the 
situation in Egypt is very much in flux, but regardless of what 
emerges American interests remain constant. It is imperative 
that Egypt today and throughout any political transition 
continues to honor its international obligations and play a 
positive role in the region. Specifically, Egypt must honor its 
commitment to peace with Israel as enshrined in the Camp David 
Accords and ensure the integrity of the Egyptian-Israel and 
Egyptian-Gaza borders.
    So for Dr. Satloff, my question, what message should the 
United States be delivering to the parties regarding Egypt's 
peace with Israel?
    Mr. Satloff. Very simply, Congressman, the United States 
should be public and private in saying the type of Egypt that 
we can support is only the type of Egypt that fulfills its 
international commitments, that we cannot support an Egypt that 
flouts or violates its fundamental international commitments. 
That applies to the military, it applies to economic. This is 
the foundation of our relationship.
    With the Israelis, we need to begin serious security 
conversations now about upgrading the United States-Israel 
strategic partnership. There are many things that we can do in 
concert in terms of border security, in terms of intelligence, 
and in terms of other items, and it should be seen that we are 
doing this so that the region understands that we recognize the 
shock to the Israeli security system and that we can do what we 
can to help cushion and assist the Israelis through the shock.
    Mr. Rivera. And for Secretary Abrams, over the years the 
United States has sold a great deal of military equipment to 
Egypt. At the same time we are deeply committed to Israel's 
qualitative military edge, essentially Israel's ability to 
defend itself against any combination of conventional threats. 
Part of the calculus in providing weapons to Egypt was that it 
was committed to peace with Israel.
    If Egypt's commitment toward peace with Israel changes, how 
should that affect future decisions about the sale and 
maintenance of weapon systems to the Egyptians?
    Mr. Abrams. Mr. Rivera, I think we should be very clear 
with the new Government of Egypt that the building block for us 
is their international obligation, their support of peace in 
the region, and if they move away from that, our aid program is 
impossible. I think that we can do that privately at first, 
rather than browbeating them, but I think we need to make it 
very, very clear and make sure that the Egyptian army 
understands that it has been obligation to tell the civilians, 
to persuade the civilians, to talk to the new Parliament so 
that the national debate shows that it is in Egypt's interest, 
they are not doing this as a favor to us, not doing this as a 
favor to Israel. It is in Egypt's interest to keep those 
commitments.
    Mr. Rivera. Mr. Craner, anything to add on either front?
    Mr. Craner. Just that this large assistance package began 
with the Camp David Accords. If the Camp David Accords are no 
longer going to be operative, there is no need for the 
assistance.
    Mr. Rivera. Thank you so much, Madam Chair. I yield back 
the remainder of my time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Rivera. Mr. 
Cicilline of Rhode Island is recognized for 5 minutes. Welcome.
    Mr. Cicilline. Thank you, Madam Chairman, and 
congratulations to you and thank you to the panel for a great 
presentation. A special welcome to Dr. Satloff; it is wonderful 
to see you.
    I have really two issues that I would ask the panel to 
address. The first is just yesterday in the Providence Journal 
there was a headline, Egypt's Unrest Raises Oil Prices. And 
this seems to be another example of where our national security 
interests and our ability to wean ourselves from dependence on 
foreign oil intersect. And so my first question is really is 
there any reason to believe in the short term that there will 
be consequences to the oil supply here in this country, knowing 
that Egypt is not a big producer, but that lots of oil is 
transported.
    Chairman Ros-Lehtinen. Mr. Cicilline, can I interrupt you 
for 1 second?
    Mr. Cicilline. Certainly.
    Chairman Ros-Lehtinen. Thank you, and we won't take away 
from your time. Mr. Berman and I have to go to the floor to 
handle the debate. And I will ask Mr. McCaul of Texas to take 
over the chair. And if we could start Mr. Cicilline's time 
again. Thank you very much.
    Mr. Cicilline. So in light of this uncertainty in the 
region in the short term, is there likely to be any impact, and 
then add to that that 40 percent of natural gas consumed by 
Israel comes from Egypt, which I know the Muslim Brotherhood 
has already spoken out against, what are the implications in 
terms of energy? And I hope there will be a call to action on 
behalf of our country to develop a comprehensive energy policy 
that is serious about investing in clean energy and the 
development and production of renewable energy.
    The second area I would like to hear your thoughts on is 
the issue of leadership of the revolution. It seems as if it is 
really organic and it is really the people of Egypt that are 
leading this revolution. And I think we have to be careful that 
even if we could identify the emerging leaders we have to walk 
this tightrope where we want to be sure that this is a decision 
of the Egyptian people, and so we can't be seen to have 
selected or endorsed new leadership.
    On the other hand, it sounds like investments in democracy 
promotion would be a useful tool to help fuel that kind of 
development. The question really is, is it too late for this 
country in terms of our playing in that area because they are 
now in the midst of the revolution, or are there some 
strategies that can support the emerging democratic leadership, 
whoever that is?
    Mr. Abrams. To say a word about energy, Mr. Cicilline, so 
far no, obviously the prices have risen because of uncertainty. 
But so far the Canal is intact and the Egyptian army seems to 
want to keep it that way.
    There was a terrorist attack on the gas pipeline to Israel, 
and it is not working right now. It will take several more days 
to get it back online. The Israelis I think need to worry that 
Egyptian domestic politics may interfere in the medium term 
with their supplies. They do have supplies offshore and one of 
the things that has happened is it has changed a little bit the 
debate within Israel about the importance of those supplies and 
the need to get them online a lot faster.
    I yield to my colleagues on the question of how we can help 
this democratic transition.
    Mr. Satloff. Just a word about energy before that, 
Congressman, I think that now is the moment when we need to be 
talking very clearly with the Saudis and our Gulf partners 
about their excess capacity, which is significant and would be 
quite helpful right now to help ensure that oil prices, which 
is really speculation on the sense of fear and uncertainty, 
that oil prices don't take a dynamic of their own. Those 
governments are very angry at the United States for their 
perception that we threw Mubarak under the bus, which I think 
is incorrect, but so be it. We need to have a real serious 
strategic conversation with the Saudis and their partners about 
their use of excess capacity.
    Mr. Craner. On the question----
    Mr. Cicilline. And Dr. Satloff, on the balance of the 
question is it too late for us to implement some strategies to 
support emerging democratic leadership in Egypt?
    Mr. Satloff. I will let my colleague Lorne comment in just 
a moment. I don't think it is ever too late for us to do what 
we can. And we have great institutions, such as the one Lorne 
directs and others, that have people on the ground that have 
been working quietly for years. Now is the moment really where 
we should be more active and do what we can to help liberals, 
moderates, anti-Islamists capture the political space which is 
beginning to open for them.
    Mr. Craner. I wish we had more time on this before 
elections occur. The one good thing is that we and other 
groups, the National Democratic Institute included, have been 
able to have contact with folks there for a couple of years, 
less lately because our budgets were cut. So I don't think it 
is too late. One of the things I always tell folks to address 
the delicacy issue you are talking about is we have to 
understand it is their country and it is their fight. We cannot 
be leading them.
    What we can do when we do this kind of work is to talk 
about how coalitions are formed without saying and here is your 
leader or what issues do you need to address without saying 
these are the issues and here are the solutions. One of the 
interesting things that has happened in the last 10 years is 
that many new democracies are interested in doing this kind of 
work. So, for example, the Tunisians are very interested in 
having people from Portugal, which began its democracy in 1975, 
and Serbia, which began its democracy in 1998. So it is not so 
much regarded as an American thing anymore when you are 
bringing in people from all over the world. It can be done. We 
can't do it passively, we need to get in there and start doing 
it.
    The final thing I would say is for the opposition to 
understand what issues it is that the Egyptian people want 
addressed. I think if you go out there and say let's be more 
aggressive toward Israel or you go out there and say let's fix 
this economy, you are going to get different reactions.
    Mr. Cicilline. Thank you very much. I yield back the 
balance of my time.
    Mr. McCaul [presiding]. The Chair now recognizes himself 
for 5 minutes. We all support democracy. I think the concern a 
lot of us have is a power vacuum and who is going to fill that 
void in that power vacuum. There is also a great concern I know 
from other nations in the Middle East of what is going to 
happen to them and what ripple effect could potentially take 
place across the Middle East. Certainly countries like Jordan, 
Saudi Arabia, Yemen.
    When you look at the history of who is to fill this void I 
think obviously the young intellectual, secular model is what 
we want, but then there is, as we have discussed the Muslim 
Brotherhood. When you look at the history, Mr. Qutb, the 
literary scholar, trained in the United States but then 
advocating violence. Mr. Zawahiri, the number two man to bin 
Ladin. Those are the elements that we are talking about. That 
raises great concern to me in terms of--I think we know the 
answer to this question, how it is going to play out, but that 
is a great cautionary concern I think that all of us have.
    Dr. Satloff, you talked about Iran as well with the vacuum. 
So I have got a couple more questions. I just want to throw 
that out and see what response or commentaries you had on that.
    Mr. Satloff. Congressman, in the current environment no one 
is suggesting that any other institution but the army fill that 
void. Actually our hope is that the army separates itself from 
the President and then fills the void and then opened up a 
transition, an irrevocable transition. But no responsible 
person is suggesting to hand over the keys of the country to a 
leaderless, amorphous group. Everyone hopes for an 
institutional change, and that is why if this does happen, if 
the army makes the choice, which it so far has been reluctant 
to do, then we may be on the right path.
    Mr. McCaul. Any other comments? Mr. Abrams.
    Mr. Abrams. You asked about the ripple effects. I would say 
about that is there have been some good ones in the sense that 
the Governor of Algeria announced that after 19 years the 
emergency law would be ended. The Government of Jordan, the 
King, announced that he has appointed a new Prime Minister with 
a mandate for reform. In Yemen the President announces he won't 
run again. So they are not going have a President for life, 
which is what they feared.
    So to the extent that people can get ahead of the curve 
this will prove to be positive.
    Mr. McCaul. Mr. Craner.
    Mr. Craner. I think you are not yet seeing negative effects 
in any of the countries. I noted earlier if you are going to 
see effects it will probably be in the republics, not the 
monarchies for a variety of reasons. But I think these events 
drive home the point that President Bush made and that 
Secretary Clinton made in a speech in UAE and another one in 
Munich, that not only do they need to get ahead of the events, 
but we need to get ahead of these events.
    Mr. McCaul. I agree with that. Is there something to learn 
from that? When we look the Turkey they have a secular model of 
government. Do we have--is there any benefit to examine that 
model in terms of applying it to Egypt?
    Mr. Abrams. I would say it is a mixed model in the sense 
that for years and years it looked like the right model, the AK 
Party, democratic, moderate, but we have seen in the last year 
real steps by the Prime Minister against freedom of the press 
in Turkey. And so I think Turkey now becomes a worrying model 
for the direction of Egypt.
    Mr. McCaul. And last question, El Baradei has been, and I 
was at a meeting with him in Vienna. He is a very impressive 
man and he seems to be the type that could be a consensus 
builder. What are your thoughts in terms of him emerging as a 
potential leader in Egypt?
    Mr. Satloff. In the polling that we did just last week in 
Cairo, El Baradei came up quite negligible in public opinion 
support. The top ranked person was for better or for worse the 
current Secretary General of the Arab League, Amr Moussa, who 
supports peace but isn't always such a friend of American 
interests in the broader Middle East.
    Mr. McCaul. Mr. Craner.
    Mr. Craner. Mr. El Baradei would be a transitional figure 
at best.
    Mr. McCaul. The Chair now recognizes the gentleman from 
Virginia, Mr. Connolly.
    Mr. Connolly. I thank my friend. And welcome. I know it has 
been a long morning, and thank you all for being patient.
    I have two questions. First, Mr. Abrams, to you. You quoted 
Tom Lantos: ``Does Egypt need more tanks or more schools?'' 
Obviously a rhetorical question. You sound like a liberal 
Democrat. Thank you, in raising the question. But you also 
bemoaned a little bit the fact that other donors have visible 
projects they can point to, and the people can see the 
assistance is helping and we don't have so much of that.
    The administration in which you served and the Senate in 
which I served actually consciously moved a lot of project-tied 
aid in Egypt to cash transfer because it made the client 
happier, but we paid a political price. I wonder if you want to 
comment on that in terms of in retrospect, did we make a 
mistake? And moving forward do we need to resist the temptation 
even though it takes long and it is clunky and it requires more 
people at USAID, but we pay a political price every time 
someone doesn't see the tangible benefit, in this case of the 
peace dividend.
    Mr. Abrams. I agree and I think it was a mistake to do 
this. And we almost made an even larger mistake. The Mubarak 
regime has been pushing for probably 3 or 4 years now for 
some--sort of an endowment where the aid would be put into a 
giant pot where you and the Congress would lose all control 
going forward and for a while that was a popular proposal. I 
think it was blocked here on the Hill.
    But I think what we see now is the error of having been so 
supportive of the Mubarak government. I would only add the 
usual statement is they were such great allies. Yes and no, you 
know there are Emirati forces fighting alongside us in 
Afghanistan. There are no Egyptian forces. There are others in 
the Arab world who have been much more helpful about bringing 
peace and democracy to Iraq after the war. President Mubarak 
was not helpful, and of course it is a very cold peace with 
Israel, under a regime, his regime, that propagated, not just 
anti-Israel, but terrible anti-Semitic feelings in Egypt.
    Mr. Connolly. Thank you. Mr. Craner, you talked about the 
consequences of in a sense the vacuum. When you have an 
autocratic regime and you don't allow political space to be 
created for legitimate opposition that is capable of governing, 
this is what happens. And we aided and abetted that, maybe 
through circumstances, whatever. I would argue clearly it is 
also a legacy of the Cold War where we saw the world in such 
stark bipolar terms, we kind of lost a lot of stuff in the 
antithesis.
    But moving forward, it is easier said than done, isn't it? 
I mean, you have got a friendly allied government, it may be 
autocratic, and here you are, whether it is the Republican 
Institute or the Democratic Institute or the U.S. State 
Department, mucking around with the opposition that they don't 
want you mucking around with. How do we forge a coherent policy 
that allows us to help create political space, especially when 
the governing regime does not want us to?
    Mr. Craner. Because with every country, with every 
government there is what I would call an equation of relations 
with the United States. You have an X, Y, Z quotients. If X is 
the trade relationship, if Y the military relationship, you 
want to insert another quotient called democracy and human 
rights. And we shouldn't underestimate the power and how much 
attention people pay to us. And when they understand that the 
President and the Secretary of State highly value a particular 
quotient in the equation then they will pay attention to it. 
And skilled diplomats are able to use that. This is something I 
saw repeatedly in both the Bush-Baker and the Bush-Powell State 
Departments. Skilled diplomats can do both quite easily.
    Mr. Connolly. Mr. Satloff, did you want to comment?
    Mr. Satloff. No, I defer.
    Mr. Connolly. Oh my gosh, I have 50 seconds left.
    Elliot, I hope I see you at the synagogue. Thank you very 
much. You go to the synagogue in my neighborhood. Thank you all 
very much, and I yield back, Mr. Chairman.
    Mr. McCaul. The Chair now recognizes the gentleman from New 
York, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    I think the Egyptian experience of the past several weeks 
raises a number of questions, a lot of contradictions. But also 
I don't know that enough has been made out of the generational 
influence, not only in Egypt but throughout the Middle East and 
North Africa, and I think in Egypt 25 or 50 percent of the 
population is under the age of 25. What is different today is 
that these regimes have been very good at repression. And there 
are now tools of collaboration, of organization that have are 
available to everybody in the world in this Web enabled world, 
and it is interesting that the Egyptian Government shut down 
the Internet, but so much information was out there before they 
did it, it essentially drove people into the streets, because 
that level of curiosity had been raised to a point where it was 
uncontrollable. I supposed that is both a good thing and a bad 
thing.
    Mr. Satloff, you had indicated that the Muslim Brotherhood, 
you talk about contradictions, is an ideological party with 
very specific goals. Could you elaborate a little bit?
    Mr. Satloff. Yes, Congressman. The Muslim Brotherhood was 
founded and retains its intention to Islamize society, to make 
Egyptian society first and other Muslim majority countries 
second, governed under Sharia law, Sharia law being the 
codified Muslim legal code. Now in some places the Muslim 
Brotherhood has spread. It started out in Egypt, it has spread 
in countries around the world. It takes different names in 
different places, like Hamas in the Palestinian arena, but it 
retains that ultimate goal. It has a variety of means toward 
that goal. At times it has used direct violence trying to 
assassinate Presidents and Prime Ministers. At other times it 
uses electoral politics, at other times is uses social welfare 
efforts to promote popularity, but it has never given up the 
goal. And the goal has only been compromised because of actions 
of the state. Namely, the state has repressed, thrown in jail 
its leaders, and it has been forced to give up certain aspects 
of its goal publicly and certain aspects of its means publicly. 
But I would argue that there is no fundamental change in the 
objective of the Muslim Brotherhood and we should be quite 
clear eyed about what that goal is, and it is very antithetical 
to our strategic interests and to our human rights and 
democracy interests.
    Mr. Higgins. Is it possible to gauge the support for the 
Muslim Brotherhood in Egypt itself amongst the population? Is 
there a percentage that could be accurately applied relative to 
support amongst the popular----
    Mr. Satloff. There is a common view among experts that it 
is somewhere about 20 or 30 percent. But none of us really know 
because the government has set up an electoral system which 
deprives all options other than supporting the brotherhood or 
supporting the regime. So we don't really know what the 
Brotherhood support is. I suspect it is in that ballpark, but 
it is certainly not a majority support among the Egyptian 
population. Here I just want to reaffirm the point I made 
earlier, we need to make a distinction between religiosity, 
people who pray and people who ascribe to a political ideology 
of compelling their compatriots to live under Islamic law. That 
is a very different approach.
    Mr. Higgins. It seems like one of the reasons Egypt has 
historically supported the blockade of Gaza is because they 
wanted to ensure that Hamas remains Israel's problem and not 
their problem, which is indicative of a history of fearing, I 
presume, the Muslim Brotherhood which makes up Hamas.
    This power vacuum, where do we suspect this thing is going 
to--how is this going to be filled? Anybody?
    Mr. Abrams. The power vacuum in Cairo of course none of us 
know, and this is a key question as to whether the army can 
lead a steady but real transition to a new democratic system or 
not.
    I do think one thing about Gaza: Initially the Egyptians 
wanted to have a lot more influence in Gaza and prevent a Hamas 
takeover. Once Hamas took over, they were very much afraid of a 
kind of infection between the Muslim Brotherhood in Egypt and 
the Muslim Brotherhood in Gaza, Hamas. And they then began to 
enforce somewhat, haphazardly, they began to enforce a border. 
And there were some incidents where they arrested Hamas people 
and pushed them back over the border. But Mubarak I think was 
quite afraid of what the Hamas-Muslim Brotherhood cooperation 
could do.
    Mr. Higgins. My time is up. Thank you, gentlemen.
    Mr. McCaul. The Chair recognizes the gentleman from 
Arkansas, Mr. Griffin.
    Mr. Griffin. Thank you, Mr. Chairman. Secretary Abrams, my 
understanding is that the movement in Egypt is an organic one 
for the most part and there is potentially a power vacuum there 
and that Egypt historically has done a good job in dealing with 
some of the extreme groups, fringe groups. With all of that in 
mind, looking forward to the intermediate term, 5 years or so 
down the road, what do you see al-Qaeda trying to do, if 
anything? And I mention this, I know there hasn't been a lot of 
discussion of al-Qaeda, but clearly some critical people in the 
al-Qaeda organization have ties to Egypt. And then I see this 
Wall Street Journal editorial, could al-Qaeda hijack Egypt's 
revolution? And I know it is all sort of speculation, but I 
would like for you to comment on how credible that speculation 
is. It seems to me if we did have incomplete knowledge, looking 
in hindsight, that this was coming and it did sort of 
organically bubble up, if you will, looking forward, what do we 
know about al-Qaeda and their interests? And I would assume 
that there is no question they would have a desire to 
capitalize and exploit this, but there may be structural 
resource limitations on their ability to do that. Do you want 
to comment on that? I don't know if you've seen this article 
but just on the general premise.
    Mr. Abrams. Mr. Griffin, I think it is something we should 
be worrying about because al-Qaeda tends to thrive when there 
is an ungoverned space, Somalia, Yemen, or when the hand that 
suppresses it is lifted. I am sure they are looking at Egypt 
and wondering whether the security forces that have been 
fighting them will start being--will start pulling back, and 
that could happen now. It can happen in the medium term if you 
get new governments of Egypt where it is not so popular to 
suppress al-Qaeda, where the people who are running the country 
are telling the security forces don't be so tough or make 
trouble, I don't want any incidents. Because if they move back 
and I am thinking about things like guarding their borders or 
airports and seaports, if they lessen or lower their guard 
against al-Qaeda, we know enough of al-Qaeda to know that they 
are constantly looking around and they will move into Egypt.
    So I think it is something to worry about. It is one of the 
reasons that I think it is so important the army not sacrifice 
its position in Egypt to save Hosni Mubarak and get him a few 
more months, because we will need them to prevent exactly what 
you are I think rightly worried about.
    Mr. Griffin. What I would also be interested in is to hear 
your comment on if al-Qaeda is looking at northern Africa as a 
whole and not just Egypt as a potential opportunity. Are they 
looking to recruit there for their fights elsewhere or do you 
believe they would be looking to infiltrate there and establish 
themselves? It seems to me we have done such a good job, the 
United States has, in fighting them, particularly in terms of 
depleting their operational resources that they may not have 
the ability to do everything that they might like to do. Would 
they be recruiting there for fights in Afghanistan and Iraq or 
would they be trying to move into these countries?
    Mr. Abrams. I think the answer is both. There is now a 
thing called al-Qaeda in the Maghreb, and I think we have seen 
or we have seen arrests in Morocco or arrests in Algeria. And 
they are both trying to recruit there and clearly have tried 
and succeeded in some cases in doing terrorist attacks in North 
Africa. So this is very much on their radar screen.
    Mr. Griffin. I see that I am about out of time. I have 
about 30 seconds, if there is anything you would like to add.
    Mr. Satloff. A couple of quick points. One, al-Qaeda has 
proved quite opportunistic. I am sure they are seeing the 
situation in Tunisia and Egypt as the fall of their enemies, 
not so much a rise of democracy, and this will invite their 
activity in these countries.
    Secondly, we should note that even such people as the 
assassin of Sadat up at Zamur escaped from jail in Egypt over 
the last 2 weeks, and I think we should be quite concerned 
about the potential for these fringe movements taking hold 
again.
    Mr. Griffin. Thank you.
    Mr. McCaul. I want to thank the witnesses for their 
excellent testimony here today. Our members may have additional 
questions, and we ask that our witnesses consider follow-up 
answers to any questions that may be forwarded. Without 
objection, by unanimous consent members will have 5 days to 
submit questions in writing, which the committee will then 
forward to our witnesses.
    Again, thank you, and this hearing is adjourned.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]


RECENT DEVELOPMENTS IN EGYPT AND LEBANON: IMPLICATIONS FOR U.S. POLICY 
             AND ALLIES IN THE BROADER MIDDLE EAST, PART 2

                              ----------                              


                      THURSDAY, FEBRUARY 10, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. We thank the folks in the audience 
with the yellow T-shirts. They have loved ones or relatives or 
interested folks about what is going on in Camp Ashraf and the 
many violations against the freedom-loving Iranians there. And 
we certainly will keep working so that they get the protection 
they deserve from the Iraqi Government and from our U.S. 
Government as well. So we welcome you today.
    After recognizing myself and the ranking member, Mr. 
Berman, for 7 minutes each for our opening statements, I will 
recognize the chairman and the ranking member of our 
Subcommittee on Middle East and South Asia for 3\1/2\ minutes 
each for their statements.
    We will then hear from our witness Deputy Secretary 
Steinberg. Thank you, sir, for joining us.
    Following Mr. Steinberg's testimony, we will move to 
questions and answers from members under the 5-minute rule.
    Without objection, the witness' prepared statement will be 
made a part of the record, and members may have 5 days to 
insert statements and questions for the record subject to 
length limitations of the rules. Thank you very much. So if we 
could have the clock begin now.
    Yesterday, as you know, we heard from a distinguished panel 
of experts and former administration officials on the dramatic 
transformation that is currently taking place in Cairo, in 
Beirut, and beyond. There was general agreement on the need for 
the United States to send a clear signal of support to those 
freedom-loving Egyptians who renounce violence, who are 
committed to democratic governance, who respect the security 
and the sovereignty of all Egypt's neighbors. There were echoes 
of statements by former Secretary of State Henry Kissinger from 
this past weekend that the U.S. relationship is not just with 
one person, but rather with all of the Egyptian people as a 
whole.
    Former Deputy National Secretary Advisor Elliot Abrams 
reiterated that Mubarak created the very situation that Israel 
and the United States now fear, and that Mubarak's statements 
that he will not run in Egypt's scheduled elections is too late 
to enable a smooth transition.
    America's role should be to facilitate a post-Mubarak 
transition in order to avert future violence, and restore calm, 
and guard against the use of the transition process by 
nefarious elements such as the Muslim Brotherhood to directly 
or indirectly undermine Egypt's evolution to a democratic 
republic.
    There is no evidence that a well-thought-out contingency 
plan existed in the event that Mubarak's government became 
unstable or collapsed. The Wall Street Journal reported that 
Middle East experts at a January 31 meeting asked National 
Security Council officials, ``Please tell me that you have 
contingencies in case Mubarak's regime collapses.'' The 
National Security Council reportedly admitted there were no 
such plans.
    A February 2 report by foreignpolicy.com cites a senior 
administration official telling ABC that the administration was 
being compelled to change its strategy ``every 12 hours. First 
it was negotiate with the opposition. Then events overtook 
that. Then it was orderly transition. Then it was, you, 
Mubarak, and your son can't run, and now it is the process has 
to begin now.''
    Turning to the Muslim Brotherhood, the New York Times 
reported on February 2 that ``White House staff members made 
clear that they did not rule out engagement with the Muslim 
Brotherhood as part of an orderly process according to one 
attendee.''
    Engaging the Muslim Brotherhood must not be on the table. 
This also has implications for U.S. policy toward Lebanon, 
given statements last year by John Brennan, assistant to the 
secretary for homeland security and counterterrorism, 
describing Hezbollah's evolution from ``purely a terrorist 
organization'' to a militia, to what Mr. Brennan refers to as 
an organization that now has members within the Parliament and 
the Cabinet.
    Has the State Department evaluated whether Lebanon now 
meets the statutory definition of a state sponsor of terrorism 
or a terrorist strength sanctuary, given Hezbollah control of 
that government? And what is the administration's stance on 
continuing to provide assistance to such a Lebanese Government? 
From Lebanon to Egypt, what is the administration's stance on 
the Muslim Brotherhood? Beyond the general parameters 
referenced in Deputy Secretary Steinberg's written statement 
that is in our packet, what are the specific components and 
contingencies of the U.S. strategy toward Egypt and for aiding 
in the transitional process? If a key U.S. goal is to prevent 
the Muslim Brotherhood from taking over, and the Muslim 
Brotherhood is well funded, then shouldn't U.S. policy seek to 
shift economic aid away from the Mubarak government and focus 
it on strengthening responsible, peaceful democratic voices?
    The administration's initial approach to Egypt was clearly 
not keeping up with the priorities in its first years. While 
driving increases in the international affairs budget, the 
administration made significant cuts to total bilateral funding 
for democracy and governance programming. USAID even reportedly 
adopted a policy of only funding those organizations officially 
approved as NGOs by the Mubarak government. Repeated U.S. 
failure to enforce its own conditions and requirements on 
nonsecurity assistance to Egypt has compounded the problem.
    So, Mr. Steinberg, what tangible economic or democratic 
reforms has the Government of Egypt undertaken as a result of 
the billions of dollars that we have provided in nonsecurity 
assistance throughout the last decades? What have we received 
in exchange?
    This brings to mind two lessons on the Lebanese debacle 
that we are currently facing. The first is that the elections 
themselves are meaningless unless they are supplemented with 
democratic institutions. Hezbollah's ascendance in Lebanon was 
facilitated by the failure of responsible nations to insist on 
changing a Syrian-dictated electoral law and subsequent 
regulation prior to holding elections in the aftermath of the 
2005 Cedar Revolution. Clearer standards for participation in 
elections and institutions must be both articulated and 
implemented to ensure that destructive actors are not afforded 
the opportunity to hijack an incipient democratic process.
    The second lesson is we cannot afford to continue to pursue 
a myopic, personality-based policy that relies on stability 
over institutional reform. In Lebanon, we had a short-term 
policy based on maintaining stability, and we vested 
significant political capital with both Rafiq Hariri and, in 
the wake of his assassination and ascendance of the pro-Western 
March 14 bloc, his son Saad Hariri. Basing the next round of 
elections on existing Egyptian law and regulations without 
clear standards for participation and a democratic 
institutional framework is a recipe for disaster.
    And turning lastly to the role of the Egyptian Army, it has 
been reported that the United States is working behind the 
scenes to impress upon the Egyptian military the need to 
protect protestors and support a peaceful government 
transition. And I will be asking you questions on the 
administration's view on the security assistance to Egypt.
    So thank you very much for being here.
    And I am so proud and pleased to turn to my ranking member, 
Mr. Berman of California.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Berman. Thank you very much, Madam Chairman.
    I am just getting word that probably a lot of people are 
getting that--except possibly the Deputy Secretary of State--
that according to NBC News and a number of other sources, 
including quotes from the new Prime Minister of Egypt, that 
Hosni Mubarak is to step down following an all-day meeting of 
the country's Supreme Military Council. The army said all of 
the protestors demands would be met and a further statement was 
expected to be made later Thursday clarifying the situation. 
Mubarak was also due to address the nation.
    Chairman Ros-Lehtinen. If I can interrupt. We will start 
your time again.
    The Chair would like to remind the audience members that no 
disturbance of the committee proceedings are allowed, and if 
there is no order, we will ask for you to be removed from the 
room according to House rules.
    Mr. Berman's time will now begin.
    Mr. Berman. Thank you, Madam Chair.
    Yesterday I made a fairly detailed opening statement on the 
rapidly evolving events in Egypt as well as developments in 
Lebanon. Today I would like to focus on just one aspect, the 
most immediately relevant aspect of the democratic transition 
in Egypt, and that is the issue of when that transition will 
actually begin. We may have just had an answer on that.
    But on February 1, President Obama said that a transition 
in Egypt must be meaningful, peaceful and begin now. At this 
point, however, prior to my reading about this, I felt that we 
were still waiting for that beginning. There have been some 
important announcements, the decision that neither Hosni 
Mubarak, Gamal Mubarak, nor Omar Suleiman would run for the 
Presidency in September, but nothing meaningful up until now 
has actually happened, nothing that could be considered a break 
with business as usual as seen by the Egyptian regime.
    Madam Chairman, the transition needs substance. If current 
Egyptian leaders are reluctant to give it that substance, then 
the administration needs to give it a major push by setting out 
its own timetables and targets. The transition needs to be 
orderly, to be sure, but foremost it actually needs to happen.
    Both the regime and the opposition need to see defining 
actions so that each begins to make what President Obama called 
the psychological break from the past. Any number of tangible 
actions would serve that purpose, whether it be ending the 
emergency law, the decision by President Mubarak to hand over 
effective power to his Vice President, a decision by the regime 
to bring credible opposition members into a transition 
government, clear indications that a new Constitution will be 
written and implemented and will ensure the provision of free 
and fair elections, the ability of secular parties to organize, 
the presence of monitors, the presence of international 
observers, and the kind of both print and television freedom 
that allows all parties and all voices to be heard during that 
kind of a campaign.
    This type of concrete action needs to happen for many 
reasons, but primarily for the benefit of the Egyptian people. 
The Egyptian regime needs to know that it cannot dawdle or 
simply go through the motions of democratic change without any 
intention of genuinely transitioning to democracy. If delay is 
its tactic, it will reap a whirlwind at home, and it will leave 
Congress little choice but to take action. In other words, no 
slow walking.
    When this crisis broke out, I emphasized that I favored 
continuing our security assistance program, but the duration of 
that program depended on whether the military played a 
constructive role in the democratic transition. That is still 
my position. But our patience, mine, that of my colleagues, has 
limits. Given the military's influence over the regime, a 
regime that was born in the military and whose entire 
leadership is composed of military men, the democratic 
transition will happen if and only if the military plays that 
constructive role.
    So, Mr. Secretary, we are very glad to see you here. We 
have great respect for what you have been doing in a number of 
areas, but I am hoping when we finish this hearing, we will 
have a sense from you of when you think the democratic 
transition in Egypt will begin--it may have been helped by some 
of this news--and how we know it has begun, and what our 
administration intends to do to make sure that it begins if not 
now, then very, very soon.
    Thank you.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    And I am pleased to yield 3\1/2\ minutes to the chairman of 
our Middle East Subcommittee, Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chairman. Thank you for 
holding these timely and important hearings again today.
    I look forward to hearing from our distinguished guest 
Secretary Steinberg about the situation in the Middle East, 
which continues to unfold even as we speak, as the ranking 
member indicated, with the news on Mubarak today.
    I think it is safe to say that the developments that 
continue to sweep across the Middle East and North Africa 
really did surprise many, but for years analysts had called 
attention to the ills of the region--a lack of respect for even 
the most basic human rights in many instances, like freedom of 
speech, freedom of assembly, and fair and free elections--as a 
potentially dangerous source of discontent, but it was ignored. 
They pointed to the widespread poverty and the aggressive 
economic policies instituted by dictators who were out of touch 
with the plights of their respective populations.
    They did not, however, predict that one 26-year-old street 
vendor's desperate act of defiance would initiate a wave of 
antiregime protests that are shaking the very foundations of 
the political order in the Middle East. Even those countries in 
which protests have not yet erupted look at countries like 
Egypt, Tunisia and Jordan, nervously wondering if they 
themselves will be next.
    For years we have also been told something else. We have 
been told that the Middle East is a region that is not ready 
for democracy. Indeed, save a handful of exceptions, the 
democracy deficit in the region had all become but a permanent 
assumption upon which far too much U.S. policy was based. I say 
``had'' because over the past weeks, the people of the Middle 
East by taking to the streets, have proclaimed loudly to the 
leaders and to the world that they share the same principles 
that we cherish. They have told us that the right to life, 
liberty, and the pursuit of happiness does not stop at the 
water's edge.
    While these developments are very exciting, there is a dark 
side, which is a cause for concern. The specter of radical 
Islamist groups which exploit every opportunity to seize power 
is lost on no one. In Egypt, for over 30 years President 
Mubarak has crushed every moderate secular political party that 
could pose a challenge to his party, the National Democratic 
Party. The only movement which managed to survive is the Muslim 
Brotherhood, which, among other aspirations, has declared its 
desire to reconsider Egypt's peace treaty with Israel as well 
as its desire to impose Sharia law on the Egyptian population.
    President Mubarak, however repressive he may have been, was 
a close ally to the United States in the region and was 
especially helpful to us in fighting the global war on terror. 
In his absence, and as Egypt enters a period of transition, we 
must do all that we can to ensure that Egypt emerges from its 
current crisis with strong and democratic institutions of 
government, institutions that will respect the rights of women, 
uphold past treaties and agreements like those with our ally 
Israel, and not exploit the pillars of democratic governments 
like elections to assume the power only to abolish those very 
pillars. We must do all we can to help support the development 
of these institutions and to avoid one man, one vote, one time.
    Preventing the Muslim Brotherhood from coming to power must 
be a leading priority as we revisit our policy toward Egypt. 
The quiet diplomacy that the United States has been engaging in 
so far may be helpful in dealing with the Mubarak regime, but 
it does nothing to assure the people of Egypt that we 
sympathize with their cause. As one of our witnesses yesterday 
pointed out, many Egyptians are totally unaware of the 
nonmilitary aid that we have given them.
    So again, I commend you, Madam Chair, for holding this 
hearing. We obviously want to avoid a situation in which the 
Egyptian population looks at us as having bankrolled President 
Mubarak while completely ignoring them.
    Chairman Ros-Lehtinen. Thank you so much.
    And the ranking member, Mr. Ackerman, for 3\1/2\ minutes.
    Mr. Ackerman. Thank you, Madam Chair.
    Until recently, and unlike its Arab neighbors, Lebanon had 
a democratically elected government that should have had a 
mandate to govern, but like all of its regional neighbors 
except Israel, Lebanon has suffered from a powerful and 
unaccountable element of its society acting above and beyond 
the law.
    What was different in the Lebanese case was that this 
unaccountable few didn't occupy or use the institutions of the 
state in order to coerce, in order to repress, in order to 
dominate their political opponents. Instead, they just 
threatened them and then killed them.
    No one should forget that before the current crisis, before 
the insurrection of May 2008, before the Presidential 
succession crisis and the lockout of Parliament, Hezbollah and 
its Iranian and Syrian allies engaged in a campaign of 
assassinations against Lebanese parliamentarians and 
journalists that began in 2005 with the murder of former Prime 
Minister Rafiq Hariri.
    Long before the recent backroom coup, Hezbollah set itself 
above the law and outside the reach of the government. 
Hezbollah has for years systematically weakened Lebanon's 
Government and continually undermined Lebanon's sovereignty. It 
has made Lebanon a regional time bomb by deploying more than 
40,000 Syrian and Iranian artillery rockets and advanced 
surface-to-surface missiles all aimed at Israel and all in 
order to shield Iran's illicit nuclear weapons program.
    Tragically, the people of Lebanon are now hostages. Like 
the captive nations of Eastern Europe during the Cold War, 
their hearts are free, but their government has colluded with a 
foreign power to put them in chains.
    The United States must continue to advocate for Lebanon's 
sovereignty and for the restoration of a legitimate government. 
We must continue to support and sustain the Special Tribunal 
for Lebanon and keep faith with all of the Lebanese people who 
want justice for their murdered countrymen and their former 
Prime Minister. America must continue to insist on the 
implementation of all relevant U.N. Security Council 
resolutions, and we must speak out clearly against the flood of 
illegal and destabilizing Syrian and Iranian arms going into 
Lebanon.
    And finally, we need to be clear with the Government of 
Lebanon that it bears the burden of demonstrating that it truly 
serves the people of Lebanon, and that it will keep peace 
inside Lebanon and on Lebanon's borders, and that it is not and 
will not either be a flunky for the ayatollahs in Tehran or for 
the dictator in Damascus. Until there is clear evidence that 
Beirut has made these choices, I believe we have no other 
alternative but to suspend all of our assistance programs to 
Lebanon. We have many urgent priorities in the Middle East. 
Helping Iran, helping Syria, and helping Hezbollah maintain a 
facade of Lebanese independence is not one of them.
    Thank you, Madam Chair. I yield back the balance.
    Chairman Ros-Lehtinen. Thank you, Mr. Ackerman.
    The Chair is now pleased to welcome our witness. James B. 
Steinberg is the Deputy Secretary of State, serving as the 
principal deputy to Secretary Clinton. Appointed by President 
Obama, he was confirmed by the Senate on January 28, 2009, and 
sworn in by the Secretary the next day.
    Prior to his appointment in the Obama administration, Mr. 
Steinberg served as the dean of the Lyndon B. Johnson School of 
Public Affairs and the vice president and director of the 
foreign policy studies at the Brookings Institute.
    From December 1996 to August 2000, Mr. Steinberg served as 
Deputy National Security Advisor to President Bill Clinton. Mr. 
Steinberg also has held numerous other posts in the State 
Department and on Capitol Hill.
    Deputy Secretary Steinberg, thank you for attending, and I 
would kindly remind you to keep your oral testimony to no more 
than 5 minutes. And without objection, your written statement 
will be inserted into the record.
    Welcome.

     STATEMENT OF THE HONORABLE JAMES B. STEINBERG, DEPUTY 
              SECRETARY, U.S. DEPARTMENT OF STATE

    Mr. Steinberg. Thank you, Madam Chairman. And let me begin 
on behalf of Secretary Clinton to congratulate you on taking 
the gavel here and to express how much we look forward to 
working with you and Ranking Member Berman and all of the 
members of the committee, and express appreciation for holding 
this timely hearing.
    Last month in Doha, Secretary Clinton challenged the 
leaders of the Middle East to give greater voice to their 
people. As the region confronts a potent combination of 
demographic and technological changes, rampant unemployment, 
and in too many cases the denial of universal rights and 
freedoms, she warned the status quo was unsustainable.
    In recent weeks this dynamic has given rise to 
demonstrations across the region and changes in Tunisia, 
Jordan, and Yemen, and, of course, sparked the dramatic 
developments in Egypt that, along with the events in Lebanon, 
are the focus of today's hearing.
    In such an environment, it is more important than ever that 
America works both with the people and the governments to 
democratize and open up political systems, economies, and 
societies. As the Secretary said just a few days ago in Munich, 
these are her words, ``This is not simply a matter of idealism. 
This is strategic necessity.''
    Change will emerge differently in response to different 
circumstances across the region, but our policies and our 
partnerships are guided by a few consistent principles. We 
stand for universal values, including freedom of association, 
assembly, and speech. We oppose violence as a tool for 
political coercion, and we have spoken out on the need for 
meaningful change in response to the demands of the people.
    American administrations of both parties have been 
conveying this message to Arab leaders publicly and privately 
for many years, and have also sought cooperation on crucial 
priorities such as counterterrorism, Iran's nuclear program, 
and the peace process. But these are not mutually exclusive or 
even contradictory. Recent events have reinforced the fact that 
absent freedom and democratic progress, the public support 
needed to sustain progress on common goals cannot be achieved. 
Changes must come, but we must be mindful the transitions can 
lead to chaos and new forms of intolerance or backslide into 
authoritarianism.
    We are working wherever we can to ensure that political 
transitions are deliberate, inclusive and transparent, and we 
expect all who take part to honor certain basic commitments, 
because, as President Obama said in his Cairo speech, elections 
alone do not make true democracy.
    One constant in a changing region is unwavering support for 
Israel's security. We continue to believe that the best path to 
long-term security for Israel and the region is the committed 
pursuit of comprehensive peace. By working for orderly 
transitions, we believe we can help ensure Israel's long-term 
security, and we will be vigilant against attempts to hijack 
the legitimate impetus for domestic reform to advance 
extremism.
    Egypt today is undergoing a remarkable transition, and 
given Egypt's leadership and influence, its peace with Israel, 
and our long-standing partnership, the stakes are high. We have 
all been transfixed by the heroic images from Tahrir Square of 
young and old, rich and poor, Muslim and Christian, gathering 
to lay claim to universal rights enjoyed in democratic 
societies around the world. And as the President has said, 
Egypt is not going back to the way it was.
    We have declared publicly and privately that a peaceful, 
orderly, and prompt transition must begin without delay, and it 
must make immediate, irreversible progress toward free and fair 
elections.
    We set out key principles to ensure that the transition 
remains peaceful. We made clear our support for human rights, 
including expression, association and assembly, freedom of the 
press. We have condemned violence against peaceful protestors, 
reporters and human rights activists, and we have underlined 
the need for Egypt's military to remain a force for stability. 
We are urging Egypt's Government and opposition to engage in 
serious, inclusive negotiations to arrive at a timetable, game 
plan, and path to constitutional political reforms. And as they 
do, we will support principles, processes, and institutions, 
not personalities. The desire for an orderly transition may not 
be a pretext for backsliding and stalling.
    Another vital message we are sending to all who take part 
in Egypt's political future is the fundamental need to honor 
Egypt's historic peace treaty with Israel. As Egypt builds 
democratic institutions after the recent unrest and also 
contends with the economic challenges that helped to cause it, 
we will continue to extend a hand in partnership and friendship 
to the American people, and we will act now, as we have done in 
the past, to support civil society, nongovernmental 
organizations, democracy groups, and economic recovery. As the 
transition unfolds, we will tailor our support to engage and 
nurture it.
    In Lebanon, a very different situation is unfolding. Last 
month Hezbollah, backed by Syria, used threats of violence to 
undermine the collapse of the Lebanese Government. We have 
worked with the international community with one voice to urge 
the next Lebanese Government to support the Special Tribunal, 
to honor its international obligations, and refrain from 
retribution against former officials.
    We intend to judge the next Lebanese Government by its 
deeds, mindful of the circumstances that brought it about. We 
will be watching Prime Minister Mikati to see whether he makes 
good on his public pledge to build a broad-based government 
that represents all sections of Lebanese society. The Lebanese 
people deserve better than a false choice between justice for 
the murder of their Prime Minister and stability for their 
country.
    If I could just conclude, Madam Chairman, by observing, 
without commenting specifically on the recent reports that you 
have referenced, that what is critical as we see this unfolding 
dynamic is that we remain consistent in our principles and the 
values of interest that we bring forward, while remaining 
nimble to adapt to emerging circumstances. It is a little bit 
like having a good game plan for the game, but also knowing 
when to call an audible. And I think that is what we are seeing 
as we go forward here, a consistent approach that identifies 
U.S. interests and values, but adapts to the circumstances and 
preserves our long-term interests.
    And I look forward to your questions.
    [The prepared statement of Mr. Steinberg follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you so very much, sir.
    And before yielding my time to Congresswoman Buerkle, I 
wanted to bring to your attention, sir, a problem that we had 
regarding the YouCut debate on the floor yesterday not related 
to the subject of this morning's hearing.
    But yesterday morning, less than 2 hours before floor 
consideration, we received a letter from the State Department 
opposing the YouCut proposal to instruct the U.N. to return 
$179 million to the United States because of overpayments we 
had made to the U.N. Tax Equalization Fund, a surplus that the 
U.N. itself admitted that was payable to the United States.
    Your Department's letter stated for the first time ever 
that the current TEF surplus is now approximately 80 million, 
so there is a discrepancy there. So if it is true, that means 
the Department of State had already given away $100 million 
owed back to the U.S. taxpayers. And we have been asking for 
this information for the past 3 months and have been 
stonewalled by the State Department. The U.N. cannot redirect 
this surplus fund without instructions from the United States.
    So I have some questions that I would like to get written 
responses from you by Thursday, February 17, about how this was 
handled, because the way that this matter was handled raises 
serious concerns in my mind about the management and the candor 
of the Department of State. So I would appreciate it when my 
staff hands you that letter, if we could get that written 
response.
    Mr. Steinberg. I would be happy to provide that.
    Chairman Ros-Lehtinen. Thank you, sir.
    I am so pleased to yield to Congresswoman Buerkle of New 
York, who serves on the Subcommittee on Terrorism, 
Nonproliferation, and Trade as the vice chair.
    Ms. Buerkle. Thank you, Madam Chairman, and thank you for 
the opportunity this morning to address Mr. Steinberg.
    Mr. Steinberg, thank you for being here this morning.
    Throughout the course of the opening statements, we have 
heard from many of the members talking about the concern that 
the Muslim Brotherhood will step in if and when President 
Mubarak steps down. And really the key being is this something 
that the administration is making a priority of, preventing the 
Muslim Brotherhood from stepping in when that void occurs? And 
then beyond that, if it is a priority, what is the strategy of 
this administration to prevent that from happening?
    Mr. Steinberg. Thank you very much for the question.
    I think that what we have focused on is some set of 
principles that we apply to what we expect to happen during 
this transition, because as I said, we recognize that these 
transitions can be difficult, and they can lead to 
unpredictable results. And so by focusing on those expectations 
and conditions, the need for an inclusive process that respects 
not only the need for elections, but also the institutions that 
protects the rights of minorities, that makes sure that, as 
things move forward, that individuals of different religions, 
of different perspectives are allowed to be part of the process 
is quite critical. And we want to make sure that the process is 
not hijacked by extremists or those who do not deeply believe 
in the open and tolerant and democratic process that we want.
    The process itself is one for the Egyptians to decide, but 
as we engage with whatever government emerges there, we will be 
guided by those principles.
    Ms. Buerkle. If you could, Mr. Steinberg, can you elaborate 
a little bit on this inclusive process, some of the specifics, 
the strategy that the administration will put forward?
    Mr. Steinberg. Again, I think what is important is that 
this be a process that is driven by the Egyptians themselves. 
But what we made clear to the Government of Egypt is that we 
expect that the full range of voices, not ones that are simply 
friendly to the government itself, are allowed to participate, 
and particularly the voices of the individuals who have been 
protesting peacefully on the street and are asking for 
democratic change are brought in and that different voices are 
heard, that legitimate perspectives from civil society 
participate in these discussions. The format is one that the 
Egyptian people themselves have to develop. But that is the 
kind of approach that we support.
    Ms. Buerkle. And if I may just follow up with that. How do 
you anticipate the United States of America being engaged in 
that process? How do you see that unfolding? Where will you be 
involved in the process?
    Mr. Steinberg. I think our first role has been to support 
those voices, and we have done that through our assistance 
programs. I think that it is important to recognize, as a 
number of others have raised this question, that we have a 
variety of ways of being involved in supporting civil society 
voices, and that while there has been a focus on some of our 
assistance programs under the ESF, there are other programs 
through our democracy programs and through our Middle East 
Peace Initiative and metric programs that we have other ways of 
supporting these democratic voices, which we have done.
    So we want to support them and give them the capacity to 
participate effectively, and then we want to make clear in our 
advocacy with the Egyptian Government that these are voices 
that need to be heard. But I think it is not for the United 
States to be in the meetings themselves. We want this to be a 
process that is driven by the Egyptian people, by the 
legitimate forces in Egyptian society.
    Ms. Buerkle. One last question. Do you believe if you 
follow this process that you just outlined for us that that 
will be sufficient for the United States--or to keep the Muslim 
Brotherhood from stepping in? Is that going to be a sufficient 
strategy to prevent that from happening?
    Mr. Steinberg. I think the key here, as I said in my 
opening remarks, is to have a clear set of principles which 
says what we expect and what, from our perspective, is an 
acceptable outcome for a new government moving forward, not 
just for our interests, although our interests are critical 
here, but also for the interests of the Egyptian people, and 
then to judge that as events emerge. And I think we need to, 
rather than trying to anticipate potential outcomes, be 
adaptive enough and responsive enough so we recognize, as we 
say, so we can identify concerns as they emerge, be vigilant, 
and make sure there we flag potentially dangerous emerging 
trends.
    And I think that is what we have tried to do here, which is 
part of the reason why we focused on the need for an orderly 
process, to make sure that it is not hijacked by voices which 
in the name of democracy are going to set up an intolerant 
regime.
    Ms. Buerkle. Thank you, Mr. Steinberg.
    I yield back, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you so much, Congressman.
    I am pleased to yield to my friend, the ranking member, Mr. 
Berman of California.
    Mr. Berman. Thank you, Madam Chairman.
    And thank you, Secretary Steinberg, for your testimony and 
your leadership here.
    I would like to follow up on Ms. Buerkle's initial 
question: What is the administration's position regarding the 
participation of the Muslim Brotherhood in the transition and 
then subsequent governance? I certainly agree that in the end 
the Egyptian people are going to decide this question.
    There is an article in the current Egyptian Constitution 
requiring that religion be kept out of politics. Turkey has had 
a similar provision in its Constitution.
    Does the administration have a view as to whether Egypt 
should retain that principle in the next phase of its 
governance?
    Mr. Steinberg. Mr. Berman, I think what is important is 
that the next government respect the kind of democratic 
principles that we talked about, which is a commitment to 
democracy, but not just for one election, but for all of the 
fabric of democracy. Open institutions. Open debate. Tolerance 
of diversity and religious minorities. An ability of people to 
pursue different paths free of harassment. A recognition that 
you have to have a vibrant civil society.
    There are different ways the Constitutions can embody that, 
different ways in which countries allow religion to play a role 
in our lives. We know, for example, even in our friends and 
allies in Europe, some have roles for religion in societies.
    So I think you can't have an absolute rule about exactly 
how that applies, but it is very clear that we need to have--
and we will be clear in our own mind that allowing this to 
become a state or a government that is intolerant, that does 
not provide an opportunity for the free, full expression of 
religious rights, of minority rights, or freedom for all of the 
different voices in Egyptian society is very important.
    And what is encouraging is if you look at the people who 
are out in Tahrir Square, what you are seeing is exactly that, 
Christians and Muslims, people from different religions and 
backgrounds and different viewpoints on the role of Islam in 
society. And that is what needs to be preserved, and that is 
something that we feel would be important in any Constitution 
that would be adopted by a future government.
    Mr. Berman. I have supported the administration's decision 
not to suspend the assistance program up until now, but I 
noticed that White House Press Secretary Robert Gibbs back on 
January 28 said the United States will be reviewing our Egypt 
assistance posture based on events that take place in the 
coming days.
    Is that review ongoing, and what is the nature of that 
review? Under what circumstances would the administration 
consider suspending aid to Egypt?
    And then just an observation that I would recommend that 
the administration look toward the whole issue of export 
controls on things like tear gas canisters, items that are 
mostly relevant to the suppression of peaceful protestors. I 
think there would be some value in reviewing and perhaps 
eliminating licenses on those kinds of items for the interim 
period.
    Mr. Steinberg. Mr. Berman, I think you would expect and we 
do always keep under constant review our assistance programs 
not just for Egypt, but elsewhere. Congressman Ackerman raised 
concerns about Lebanon, and I want to assure him that we do the 
same there because we have to be able to be responsive to 
ongoing events. And I won't suggest that there aren't some 
circumstances where events may arrive where we would have to 
change our approach, but what we have focused on here as events 
have been emerging in Egypt is how to encourage this 
transition, how to use our influence to try to move the process 
in a direction that we would like to see it go and it meets the 
needs and wishes of the Egyptian people. And I think we have to 
be prepared to deal with events as they emerge, but we don't 
want to try to anticipate bad outcomes in a way that would make 
it less likely to achieve.
    Mr. Berman. I agree with that. I just in the end don't want 
the notion of the ensurance of that assistance become a basis 
for the slow walking of the orderly transition.
    One last question. With all of the focus on Egypt, I just 
want--I would like you to take one moment to sort of discuss 
how the situation may be affecting situations outside of Egypt, 
such as Iran. And my specific question is whether the State 
Department is on track to make determinations on their 
investigations for those violating CISADA, our Iran sanctions 
legislation, next month.
    Mr. Steinberg. Congressman, as you know, this is an issue 
that I spent a lot of time on. And the Secretary has asked me 
to put a lot of specific attention to make sure that we have a 
very vigorous implementation of CISADA. We think it has been an 
enormously helpful tool, and it has had enormous impact in 
helping us to galvanize the international community to take 
steps to put additional pressure on Iran, and I think we have 
had enormous success. This continues in a comprehensive way to 
affect Iran, the Iranian economy, and also keep in the sense of 
isolation.
    So we understand the importance of making sure we have full 
enforcement on that. We have an ongoing effort that is looking 
at activities as they emerge, and I continue to pledge to you 
that we will do everything that we need to do both to enforce 
it, but also to use the statute in a broader way to engage with 
other countries to make clear that we need to remain vigilant 
not only about the letter of the law, but also the broader 
desire to make sure that we don't have companies trying to 
skirt those provisions.
    Chairman Ros-Lehtinen. Thank you so much.
    Now for the next round of questions. Mr. Smith, the 
chairman of the Subcommittee on Africa, Global Health, and 
Human Rights.
    Mr. Smith. Madam Chair, thank you very much.
    Mr. Steinberg, welcome to the committee.
    You know, he is the administration dictator until his 
utility and usefulness erodes or evaporates or diminishes, and 
then the administration finds its public voice on human rights 
and democracy and calls on the former friend to get out of 
town.
    You mentioned, Mr. Steinberg, a moment ago about the 
consistency of principles, and I frankly have some concerns 
about that.
    A few weeks ago, President Obama rolled out the red carpet 
as President Hu Jintao came into Washington, a brutal dictator 
who has murdered, tortured, and repressed countless Chinese, 
Tibetans, and Uighurs. The press conference with Hu Jintao was 
so disturbing--I watched it, and I couldn't believe my ears--
and even the Washington Post wrote an editorial on January 19. 
It said, ``President Obama makes Hu Jintao look good on 
rights.''
    The President defended his friend, his dictator friend, and 
said the Chinese had a ``different culture,'' which I found to 
be an absolute insult to the Chinese people, especially those 
who are suffering in Lao Gai, who are being tortured for 
demanding their fundamental human rights.
    He also said he had a different political system, as if 
that was a defense, and that is what the Washington Post picked 
up on. Yeah. It is a different system. It is a dictatorship.
    My question is--you know, so I think we need to be very 
cautious, and I would respectfully submit to you be cautious 
when you talk about consistency and principles. Even Liu Xiaobo 
is languishing in prison, as we all know, right now. And then 
something was said behind the scenes. But we need public 
statements, not when it is--when that dictatorship is in its 
final hour, but consistently, and in a very transparent 
fashion, to let them know that we know.
    I read all of the Chinese press after the fact on the 
People's Daily, at least what was carried there. They called Hu 
Jintao's trip to Washington a tour de force, that he just took 
over Washington, and we were sitting there enfeebled by the 
effort that we showed. So I am very concerned when you talk 
about consistency.
    I do have a question about freedom of press and reporters 
in particular. Reporters Without Borders suggests that as many 
as 79 journalists have been attacked in Egypt, 76 detained, 1 
has been killed. Do we know how high up in the command, whether 
or not the Army, whether or not the military, whether or not 
Mubarak, ordered that, or did it come from the Muslim 
Brotherhood, or was it just an outgrowth of the chaos of the 
day each day?
    And secondly, I would like to ask about a very disturbing 
report that an American company, Narus, has sold the Egyptian 
Government what is called deep packet inspection technology, 
highly advanced technology that allows the purchaser to search 
the content of e-mails as they pass through the Internet 
routers. The report is from an NGO called Free Press, and it is 
based on information Narus itself has revealed about its 
business.
    Now, there is no way of knowing whether the information the 
Egyptian Government gleaned from its Narus technology enabled 
it to identify, track down, and harass or detain some of the 
journalists or anybody else in Egypt.
    I would like to know what we know about this company. And 
it is part of Boeing. It was recently bought. And what can you 
tell us about Narus and this invasion of privacy on the 
Internet?
    Mr. Steinberg. Thank you, Congressman.
    Obviously we had an extended conversation about China, 
which I would welcome the chance to discuss with you. But I 
just would make one point that in addition to the very public 
remarks that President Obama made, my boss, Secretary Clinton, 
made an extensive speech the week before President Hu came here 
in which she specifically identified our concerns about Liu 
Xiaobo and other specific dissidents and, I think, gave a very 
clear and very unequivocal statement about the importance that 
we attach to human rights in China.
    So I certainly appreciate the importance of consistency, 
and I think it is something that we have made a part of our 
engagement with China.
    With respect to the journalists, we have made clear we have 
many priorities that we are focusing on as this transition goes 
forward. But we have been explicitly very clear about the 
unacceptability about the way the journalists have been 
treated, the harassment, the imprisonment and the like.
    I think it is difficult to know--to answer fully your 
question about who is behind it. What is encouraging, though, 
is that because of the intervention of us and others, the 
journalists have been released, and it is important that we 
keep a focus on that because it has been the critical voice 
that has kept public eyes and ears on that.
    On your second question, obviously I am unfamiliar with the 
company that you identified, but I will be happy to see what we 
know about that.
    Mr. Smith. Could you dig into that and get back to the 
committee, because it is very important. It goes to the whole 
issue of increasingly that U.S. corporations are enabling 
dictatorships. We saw it in Iran with a German corporation. We 
have seen it in China. We have seen it in Belarus where the 
Internet was used and is used to track down dissidents, to 
invade their e-mails, find out who they are talking to. It is 
an awful tool of repression, and Narus, according to these 
reports, has been enabling that kind of invasion of privacy.
    So thank you very much.
    Chairman Ros-Lehtinen. Thank you. We would appreciate 
answers to that.
    Mr. Ackerman, the ranking member of the Middle East 
Subcommittee.
    Mr. Ackerman. Thank you very much.
    Good to see you, Mr. Secretary.
    Consistency is important, especially in foreign policy. A 
foolish consistency is something much to be avoided.
    There is a question that keeps asking itself, and some of 
us are asking it, and it demands a real answer. We can agree on 
the principle of freedom of speech and freedom of 
communication, and we can agree how important it is to 
democratic and civil societies. But when you pose a question, 
that there is information out there that is in a virus, would 
you say that that would be welcome in your computer if the 
purpose of the virus was to bring down the system?
    My question is about the Muslim Brotherhood. They are an 
element of society for sure, and we have principles that all 
elements of societies are welcome, and everybody has a right to 
freedom of religion, and et cetera.
    Now, I believe in treating my neighbor as myself, but that 
doesn't tell me that I should invite Jeffrey Dahmer to my house 
for dinner. Nothing good will come of that.
    How do you form a government and welcome in as an element 
of it a party that would destroy the government itself and 
expect stability? This is a tough question, and we really have 
to think about it. In being civil and democratic and welcoming, 
we also have to avoid being foolish.
    Mr. Steinberg. Thank you, Mr. Ackerman.
    Obviously, this is an important question, and I will just 
make two observations. Which is, one, some of you know I am a 
lapsed lawyer, but I do remember from my constitutional law 
that even for free speech, there are limits to free speech. And 
we know we can't cry ``fire'' in a crowded theater and the 
like. Even in our own system, we recognize that speech has to 
support civil society and be part of that.
    Mr. Ackerman. Are you saying that the Muslim Brotherhood is 
an exception?
    Mr. Steinberg. No. What I am saying is that if there were 
actual acts that were threatening to people, that that would 
not be acceptable. I want to make clear that we don't think 
that threatening acts of violence would be an acceptable form 
of speech. And I think that is why we made an important 
statement about the need for lack of violence.
    But even more important, I think what we are focused on and 
you have raised the question is not so much the dialogue that 
is going on now, but what kind of government emerges once this 
transition takes place. And I think we have had a consistent 
record in saying that there are circumstances in which parties 
fail to respect democracy, fail to be an acceptable participant 
in government, that we could not be supportive of that 
happening. Obviously a very clear case of that is the Hamas and 
the Palestinian Authority. We made our position very clear on 
that.
    I don't want to try to anticipate what is going to be the 
outcome of this process of democratization in Egypt, but I do 
think we will bring those same sets of principles together, 
which is that a government that will have our support is one 
that respects open society.
    Mr. Ackerman. My concern is that we be as wise as we could 
be considering the alternatives.
    Lebanon. What happens if the new Government of Lebanon 
rejects whatever the results of the tribunal might indicate?
    Mr. Steinberg. I think two points about this, which is, 
one, we attach enormous importance to the continuation of the 
tribunal, and we will do what we can to sustain that effort 
irrespective of what the decisions are of the Lebanese 
Government. It is our clear expectation that whatever 
government is formed, it meet its international obligations 
with respect to the tribunal, and that is what we will expect 
to hold them to. I think we----
    Mr. Ackerman. If Lebanon pulls its financial support for 
the tribunals, some think it would collapse. Are we considering 
withholding aid from Lebanon?
    Mr. Steinberg. As I mentioned earlier in response to Mr. 
Berman's question, I think we obviously keep questions of 
assistance under review. Right now we are focusing on trying to 
encourage all of the parties, including the Prime Minister 
designate, to make sure we have an inclusive government that 
meets its obligations. So long as that continues, and at least 
up until now the tribunal has not been undermined, we are 
continuing our assistance. But obviously we will have to keep 
that under review and look at the circumstances as they emerge.
    Mr. Ackerman. I thank the chair for the extension of time.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Ackerman. 
Great questions.
    So pleased to yield 5 minutes to the chair of the 
Subcommittee on Middle East and South Asia, Mr. Chabot, for 5 
minutes.
    Mr. Chabot. Thank you, Madam Chair.
    Secretary, I have a number of questions. Some of them have 
already been talked about to some degree. But clearly we all 
want democracy. We want the people of Egypt to improve their 
conditions and their freedoms. Our overriding concern is that 
what we all want is going to end up with the folks that we--and 
I don't think the Egyptians themselves, the vast majority, want 
to be in control--and that is the Muslim Brotherhood or Islamic 
Jihadists or whatever terminology one wants to use.
    They said a lot of things, and they are, I think, trying to 
portray themselves to some degree as being, well, we are more 
moderate now. And could you talk a little bit about Sharia law 
and what they said and what you really think their position is 
on that with respect to Egypt if they would gain control?
    Mr. Steinberg. I think there is a lot of speculation as to 
what their goals or objectives are, and I think I would prefer 
to leave that to the analysts.
    What I would say from the perspective of the policymakers' 
point of view is that we have to be clear about what anybody 
joining the government would be expected to be committed to, 
and that commitment is to an open, tolerant society that allows 
for religious diversity, for differences of opinion; that 
doesn't undermine civil society; that supports an open 
discourse among all elements of society; and, rather than 
trying to anticipate what any particular member organization 
is, that we hold to those principles, and we certainly make 
clear to anybody who is joining a future government must commit 
themselves to those principles, and if they do not, then we 
would be clear about what our position is.
    Mr. Chabot. Do you know what they are saying about Sharia 
law at this point in time?
    Mr. Steinberg. I am familiar with their writings, and I 
think what we know is that there are different instances in 
which Sharia law has been used in different societies. Some 
have been tolerant; some have been very intolerant. And what we 
need to focus on is what will protect basic civil liberties, 
and will this next government, and if this organization cannot 
support and subscribe to those things, we believe that it would 
be inconsistent with the very efforts that are going on right 
now.
    Mr. Chabot. You said some of them tolerant and some of them 
intolerant. Can you give me an example of tolerant Sharia law?
    Mr. Steinberg. What I am saying, Mr. Chairman, is that 
there are examples of where in domestic law like Sharia law has 
been a part of societies. But what we are focusing on is what 
political law is and what are the political circumstances under 
which a government should govern. And that government has to 
meet these basic principles that we are identifying.
    So I think that is what we want to focus on: What are the 
political rights? What are the opportunities for the society? 
What are the opportunities for citizens to exercise their 
rights? What are the opportunities for religious minorities?
    One of the strengths of Egyptian society is the fact that 
Christians play such an important role, and that there is a 
small Jewish community there and other religious minorities. So 
if Sharia law means no tolerance for that, then that would not 
be something that we support.
    Mr. Chabot. Let me ask you this on a different topic. 
Relative to the Turkish model, there are obviously some 
parallels and some differences between Turkey and Egypt, 
obviously, but in Turkey the military plays a particularly 
important stabilizing historic role there. What are the 
comparisons with that in Egypt, and are there differences?
    Mr. Steinberg. I think what has been encouraging, and I 
think it has been a positive aspect of our engagement, is that 
thus far as events have unfolded in Egypt, that the military 
has respected the right for peaceful assembly, and it has not 
tried to suppress the legitimate rights of people to express 
their views, to assemble and the like. And we would hope that 
in any society, any government that emerges in Egypt, that we 
would have the same commitment from the role of the military, 
which is to support legitimate constitutional human rights. And 
that is something that we would look to in any society to see 
that as the role of the military.
    Mr. Chabot. I have only got a short period of time. Let me 
comment on something that is kind of frustrating to the 
policymakers here in Washington, I am sure to the American 
people to some degree, and that is with the considerable 
resources that we have invested in those two countries, Egypt 
and Turkey, when you do public opinion polls of the people of 
those countries, the United States isn't particularly well 
thought of or popular. I don't know if you want to comment on 
that. I have been told that is because we are so close, that 
they expect more, et cetera, et cetera. Do you have any comment 
on that?
    Mr. Steinberg. I think it is a challenge to us, and I think 
it is an important challenge to us, because I think that it is 
critical as we go forward that we find ways to understand why 
that is and, to the extent that we can be consistent with our 
own principles and values, that we try to do that.
    Now, obviously there may be circumstances in which we are 
unpopular for things that we believe in, and we will stand up 
for them. But I think if we can do a better job of 
communicating and indicating that we do share the aspirations 
of people all around the world for a better life and better 
opportunity, that that is important, and it has been a major 
purpose of what Secretary Clinton has tried to do with the 
State Department.
    Chairman Ros-Lehtinen. Thank you very much.
    And I would like to recognize Mr. Gregory Meeks of New York 
for the next round of 5 minutes.
    Thank you, Gregory.
    Mr. Meeks. Thank you, Madam Chairman.
    Good to see you, Mr. Secretary.
    Let me ask this question. One of the things that I do get 
concerned about, and I know a lot of my colleagues, et cetera, 
and I talk about the Muslim Brotherhood, et cetera. However, 
if, in fact, we seem too heavy-handed, sometimes it is like the 
kid, the child; you tell them don't date this person, don't 
date that person, and they date the person just to spite you at 
times. I want to make sure that we don't get into that 
scenario. And I have tremendous faith in the Egyptian people 
from what I have seen thus far. They want freedom. They want to 
make sure that they have democracy, which they have been denied 
for 30 years.
    That being said, what you don't want to happen is there to 
be a vacuum so that someone like the Brotherhood steps up. And 
what concerns me is with the opposition, and I don't know what 
leaders can evolve or will evolve because it seems as though 
they are leaderless. And when you begin these negotiations and 
conversations, you know, there has to be someone that is 
talking.
    So I was just wondering, and I had asked this question 
yesterday, who are the leaders that we can expect to emerge, 
and is there anything that you can tell us about them, and can 
the protesters achieve their goals basically without a leader?
    And so and I want to tie that in as quickly as I could to 
the fact that there was a lack of a clear leadership in the 
Tunisia revolution also. And how that is going because I am 
concerned about this--going to Tunisia real quickly about the 
assessments of a security situation there. There was some more 
violence this weekend, a protest, and in your view, what course 
of action toward holding the formal regimes internal security 
services accountable for past abuses would be conducive to a 
greater political openness without contributing to greater 
destabilization.
    Mr. Steinberg. Thank you, Congressman. I think there are--
and we shouldn't underestimate a lot of important and we well-
respected civil society voices in Egypt from the NGOs, from 
legal professionals and the like who may well form a part of 
the future Egyptian Government. I think it is both difficult to 
prevent and not on a roll to sort of anoint individuals to be 
the ones. But I do think that that is why we so much have 
focused on urging Egyptian Government to create a process to 
allow these voices to come together, the wise men's group that 
is meeting and others, which do include a variety of well 
respected voices in the society, but also to make sure that the 
younger people who are on the streets also have a chance to 
express their views and to have those perspectives heard.
    I think the nature of democratic process is not to try to 
preselect the leaders, but to establish some institutions and 
processes that then will allow for good, free and fair 
competition elections where individuals will stand for 
election, and the Egyptian people will pick. And I think we 
have a real belief that that process can take place. And that 
what needs to happen now is to take the institutional decisions 
to repeal the emergency law, to take the steps to allow for 
parties to register, for there to be a full debate, and to have 
an election, and to have those very important voices that are 
being heard throughout Egyptian society now, have a chance to 
put their views forward in their candidacy.
    On Tunisia, I would just say that we do think 
accountability is very important. Different societies have 
different ways of doing it, and different conflict situations, 
that has been done. But I think it is something that the 
interim government is focusing on is to establish an approach 
to accountability and understanding both of what happened 
during the past regime and during the transition, and we would 
certainly support that.
    Mr. Meeks. Are we dealing with, Tunisia again, is the 
administration reviewing Tunisia's aid package which is 
currently focused on military assistance. And is it more 
assistance needed by Tunisia for democratic institutional 
building as Tunisia's new government requested technical 
assistance from the United States for the purpose of supporting 
the reform agenda? And will the continuation of military 
assistance programs be contingent upon human rights benchmarks 
or other benchmarks?
    Mr. Steinberg. Well, clearly on the last, we are under a 
mandate from you to make sure that it does. And so that would 
be an important part of what we do. More broadly, we have been 
engaged in conversations with the interim government in terms 
of how we can support and help that transition. And I think 
that is, as I say, part of the flexibility and adaptability 
that we are trying to show now is to look for opportunities to 
support that process going forward.
    Mr. Meeks. And finally, let me just ask, what level of 
electoral success would you anticipate from the Tunisian 
Islamic groups, if they are allowed to compete in the national 
elections that they had promised within the next 6 months?
    Mr. Steinberg. Again, Congressman, we have basic a 
principle that guides us, which is that we will support and 
encourage governments that meet the basic tests of tolerance, 
inclusiveness and openness. And rather than trying to prejudge 
what these groups will do, we will judge them by their deeds.
    Chairman Ros-Lehtinen. Thank you so much. And before 
yielding 5 minutes to my Florida colleague, Mr. Rivera, I would 
like, without objection, the ranking member to be recognized 
for an announcement.
    Mr. Berman. We have just learned that, and I think on 
behalf of the chair and the entire committee wants to extend 
our condolences and the condolences of the entire committee to 
the loved ones and friends of Khairy Ramadan Aly. This is a 
fellow who was a U.S. Embassy Cairo staff employee for 18 
years. He went missing from his home on January 28th and just 
today has been confirmed as dead. And so on behalf of all of 
us----
    Mr. Steinberg. Thank you, Mr. Berman. It is obviously a 
tribute to the dedicated, locally employed staff and the risks 
that they take, and I appreciate that. And on behalf of all of 
us, we appreciate that.
    Chairman Ros-Lehtinen. Thank you, Mr. Steinberg. Mr. 
Rivera.
    Mr. Rivera. Thank you, Madam Chair. Mr. Secretary, thank 
you so much for being here. I am heartened by your testimony 
regarding the impact of the crisis in Egypt, vis-a-vis Israel. 
I am glad you agree that irrespective of whatever emerges out 
of the uncertain circumstances in Egypt that U.S. interests 
remain constant. And specifically that Egypt continue to honor 
its commitment to peace with Israel.
    So I am wondering if you can elaborate, and please be as 
specific as possible, as to what exact message the United 
States is delivering, has been delivering, will be delivering 
to all the parties regarding Egypt's commitment to peace with 
Israel?
    Mr. Steinberg. I thank you, Congressman. The message has 
been very clear, which is the peace treaty between Israel and 
Egypt is not just in the interest of Israel, it is in the 
interest of Egypt and the region as a whole. And therefore, we 
would expect any government to honor its international 
commitments, and to honor a treaty that was signed by that 
government, and to remain committed to it not just in letter 
but in spirit.
    This is a foundation for Egypt's future success. The 
prospect of the conflict with Israel would serve no interest of 
Egypt's, and it would certainly not be consistent with our 
interests. So I think we are very unequivocal about both our 
own position but also making fair that this is not a favor to 
anybody else. That if Egypt should continue it and the reason 
we would expect Egypt to continue it is because it is in 
Egypt's interest.
    Mr. Rivera. Over the years, Mr. Secretary, the United 
States has sold a great deal of military equipment to Egypt, 
and at the same time, we have been deeply committed to Israel's 
qualitative military edge, and essentially, Israel's ability to 
defend it. And part of that calculus in providing weapons to 
Egypt was that it was committed to peace with Israel. If 
Egypt's commitment toward peace with Israel changes, how will 
that effect future decisions about the sale and maintenance of 
weapon systems to the Egyptians?
    Mr. Steinberg. Congressman, any time there would be a 
dramatic change in circumstances, we would have to take that 
into account in making our decisions, but I think our focus now 
on the positive message, which is the benefits of engagement 
that we have had with Egypt and the Egyptian military, and 
therefore would expect them to see the benefits of continuing 
this and continuing that basic process, which has led to this 
long period of peace between Israel and Egypt.
    Mr. Rivera. Based on your experience and developments that 
you are seeing occurring right now, do you see Egypt continuing 
to play a positive role on issues in general regional 
stability, for example, opposition to Iran's nuclear program, 
standing up to Islamic radicalism, et cetera?
    Mr. Steinberg. I would have every reason to expect that a 
more democratic Egypt would be at least as much committed to 
those principles, because in a democratic society, all the 
things that you have talked about are inimical to a democratic 
society. And some of the kind of intolerance, the support for 
terrorism and the things that we would be concerned about are 
something that a strong and vibrant democratic government in 
Egypt would also share. I think that has been our experience.
    If you look around the world, who are our strong partners 
on all of these global challenges? Not just the shared values, 
but the shared interest. When we are dealing with Iran, who are 
our strong partners? Our strong partners in Europe, the 
democratic societies there. We are working with Japan, we are 
working with Korea. So I think we believe very strongly that in 
terms of the interests, whether it is sustaining peace in the 
Middle East, dealing with terrorism, dealing with Iran's 
nuclear program. That an open vibrant Egyptian Government would 
be very much in sync with those views and those perspectives.
    Mr. Rivera. And up to this moment here today, you see no 
indications whether that be from any elements of Egyptian 
society, the military or otherwise, civil society, other 
elements of the government that any of these prospects could 
change in the negative fashion?
    Mr. Steinberg. Congressman, we have to be vigilant. 
Obviously, we have seen events sometimes not fully predictable. 
But I think what we need to do is encourage and support those 
forces to reduce the chances of those things happening. And our 
whole strategy is to try to do that by engaging in supporting 
this process to reduce the risks that these dangers which you 
rightfully identify, and which we do have to be alert to, don't 
emerge.
    Mr. Rivera. Thank you, Madam Chair. And I yield back the 
remainder of my time.
    Chairman Ros-Lehtinen. Thank you so much. And now I would 
like to yield to another Florida colleague, Congressman Deutch 
for 5 minutes of questioning.
    Mr. Deutch. Thank you, Madam Chair. I would like to pick up 
where my colleague from Florida left off and broaden from 
there. Starting with the issue of aid, not just to Egypt but 
aid to Israel as well. It gives us a good jumping off point for 
a broader debate that is taking place right now on Capitol 
Hill, and that has to do with foreign aid more generally.
    There are proposals that have been floating around that 
have suggested that State Department and foreign aid requests 
should be lumped in with non security spending and as such, 
should be subject to cuts, reductions anywhere between 10 and 
30 percent. Given the State Department's role in Pakistan, and 
in Afghanistan, and in the war on terror, given the national 
security concerns that we have, and further, given the role 
that foreign aid plays not just in the Middle East, not just in 
helping Israel to ensure that Israel has a qualitative military 
edge, but in the role that foreign aid plays in global health 
and maternal care, children's health, the role that foreign aid 
plays fighting global hunger. The role of foreign aid in 
fighting narcotraffickers in Latin America and in continuing 
President Bush's signature achievement in combating AIDS in 
Africa.
    Reconstruction, counterterrorism. And finally, given some 
of the suggestions that have been made on the Hill to eliminate 
foreign aid altogether, and suggestions from some outside, some 
prominent outside groups that all foreign aid should be on the 
table, is it appropriate, do you believe, Mr. Secretary, for us 
to look to what is 1 percent or less of the Federal budget in 
finding ways to balance the budget by eliminating foreign 
assistance altogether? And wouldn't the elimination of foreign 
aid put our Nation at greater risk?
    Mr. Steinberg. Well, thank you, Congressman. As you can 
well imagine the Secretary and all of us feel very strongly, 
and the President that this is a critical part of assuring our 
national interest. Our ability to engage in the world, to 
support democratic institutions, to build economic opportunity, 
to deal with the problems of health and hunger are all critical 
questions we asked earlier about how the world looks at 
America. This is part of the positive engagement of American 
that allows us to build friends and to have support on our 
interests and they touch our national interests ourselves. If 
we don't deal with the problem of global public health, those 
things could come home to us.
    It is having a strong, balanced strategy of smart power of 
engagement in the world, that has a strong defense, but also 
supports development and diplomacy that allows the United 
States to pursue its interests over the long term, and to have 
the kind of partners that we need to move forward.
    We have had important successes in Iraq, we need to sustain 
that. It would be a tragedy right now with all that has been 
achieved and the sacrifice that has taken place not to be able 
to continue the progress they are creating, a good example of a 
democratic tolerant society in Iraq, which is a very powerful 
signal throughout this region, including to Egypt, to continue 
to make sure that the extremists don't come back in 
Afghanistan.
    We know what had happened before and we have a critical 
issue that, again, echoes so much of what you all have been 
discussing this morning about how do we assure that extremism 
doesn't come back? It is by supporting tolerant, more open 
political societies and good governance and the rule of law. 
These are the things we do with our assistance programs, with 
our engagement with civil society. They are critically 
important to our national interests and this is, as we think 
about our long-term future and the role of the United States in 
the world, this is an absolutely indispensable part.
    And so, we do hope that as we understand the fiscal 
challenges, but this is a very small part of the budget, but it 
is a critically important one for fundamental national security 
interests of United States.
    Mr. Deutch. And just again, Mr. Secretary, am I correct 
that the foreign assistance budget is about 1 percent of the 
overall budget?
    Mr. Steinberg. That is about right.
    Mr. Deutch. And if you could speak to what a cut of 10 to 
30 percent across the board might mean? How would that impact 
American foreign policy?
    Mr. Steinberg. I think it would affect us across the board. 
It would mean that we would not be able to sustain our 
engagement on the civilian side in Iraq because it's so 
important that we make sure that this transition moves forward, 
that the reconciliation that is taking place through these two 
elections continues.
    It would affect our ability to support civil society and 
democracy. It would affect our ability to deal with the 
problems of hunger and creating sustainable agriculture. It 
would affect our ability to deal with the problem of global 
public health. It would affect our ability to support the kind 
of work that we need to do around the world to build strong 
institutions.
    And we are, right now, having good opportunities where we 
are engaged. But the opportunities are even greater if we see 
and smartly apply those resources.
    We have an obligation to you to make sure that they are 
well-targeted, that they are well-conceived, and that they are 
well-managed. But in return, we think we deliver a benefit, and 
I think no one more articulate than Secretary Gates has made 
clear about how important that is to our national security.
    Mr. Deutch. And finally, Mr. Secretary, to those who 
suggest that we ought to eliminate foreign aid all together, I 
suggest to them that they would be putting our Nation at risk. 
Would you agree with that?
    Mr. Steinberg. I think, as I say, it is a critical part of 
our smart power engagement of the world. The three legs of that 
stool that all the present survivors recognized are critical to 
our national security. And over our history, we go back to the 
Marshall Plan and so many other examples of how we sustained 
our long-term influence and protected our interest by the wise 
use of our resources in this area.
    Our military cannot protect our national interest alone. We 
have seen that in Iraq, and we see it in Afghanistan. It has to 
be a balanced effort. And our contribution, the part that goes 
to the State Department and assistance is very small compared 
to Defense. But has a huge multiplier effect, it has a huge 
positive impact on the well-being of the American people.
    Also on the economic side it helps open up economic 
opportunities. It creates opportunities for American jobs and 
American exports. That is what our diplomats do every day, 
advocating for American interests, opening markets and the 
like. So there are many ways in which U.S. interests are being 
protected by this rather modest investment.
    Mr. Deutch. Thank you, Mr. Secretary. And I yield back, 
Madam Chair.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Mr. Rohrabacher, the chairman of the Subcommittee on 
Oversight and Investigations.
    Mr. Rohrabacher. Now following up on my last colleague's 
line of questioning, putting America in jeopardy, let me just 
note putting us at a risk at a much greater level than what we 
are talking about is $1.5 trillion worth of deficit spending a 
year that we have to borrow from China. And we cannot maintain 
that. And if we continue to do that, our economy will collapse 
under a burden of debt that we have never experienced before.
    So this is not, Oh boy, we would love to do this, we would 
love to do that. No, there are certain things that we are going 
have to come to grips with and be serious about. And I will 
tell you, borrowing more money from China in order to give it 
to other people in different countries is not something that I 
consider to be a positive option. It is crazy, it is insane.
    We have been providing aid to Egypt over all of these 
years. And now we have people who seem to be high and mighty 
about how bad Mr. Mubarak is, but have supported this aid 
program to Egypt all of these years.
    It seems to me that American foreign policy is not based on 
principle, as you have suggested today, it should be or has 
been, but instead it is based on juggling. What can we do for 
the moment not to create a crisis, rather than have a long-term 
principled policy and a policy aimed not at what we can do for 
the world but what is best for the people of the United States 
of America? And let me get to----
    Mr. Ackerman. Would the gentleman yield?
    Mr. Rohrabacher. No, I won't. I have got a line of 
questioning I would like to ask. I have got a very fine 
diplomat. Let me just note, we have so much juggling going on, 
that we can't have someone like yourself answer a straight 
question about the nature of Sharia law. Now, if we can't do 
that, how do we expect to have the American people and the 
people of the world understand where we draw the line?
    Yeah. We can have people jump up and applaud that Mr. 
Mubarak is gone, yeah. But what is going to happen 2 years down 
the road when we have an administration in Egypt that puts 
women in jail, much less permitting them to participate in the 
system, if they try to go on the street without wearing a veil? 
Is that what we are going to end up with Mubarak gone? We are 
trying not to end up with that.
    Let me just note that I have been dismayed that for all of 
these years, we have taken an administration in Egypt, which is 
less than democratic, less than honest, we have known that, but 
we have treated them well, and then as soon as--but they have 
been basically a pro-stability and a pro-Western government. 
And as soon as they are vulnerable, we turn on them with a 
vengeance, as compared to an anti democratic regime in Iran 
when there are demonstrators in the streets against them, we 
have sort of a muffled response. Well, we can't really go in 
and side with the demonstrators against this anti-American 
Mullah regime dictatorship in Iran.
    We can't do that because that would be just too intrusive. 
But in Egypt where you have a friendly regime--as I say, we 
don't just toss Mubarak, a guy who has tried to be a force for 
stability, we don't just toss him under the boss, we toss him 
to the wolves, and then we are surprised when the wolves end up 
eating our lunch.
    Let's get to some basics here. The administration Mubarak--
President Mubarak offered to say that he would not be a 
candidate, and his son would not be a candidate and he would 
oversee a basically a caretaker regime until the September 
elections were held, and the people of Egypt were permitted to 
make their decision as to what direction their country should 
go. What was wrong with that?
    Mr. Steinberg. Congressman, let me just briefly comment on 
your first point first, and then I'll----
    Mr. Rohrabacher. Sure.
    Chairman Ros-Lehtinen. You have 30 seconds.
    Mr. Steinberg. I understand.
    Mr. Rohrabacher. Pardon me.
    Mr. Steinberg. But having had it raised, I think our 
position on Sharia law is very clear. And it was illustrated 
very dramatically in the case of a proposal for the institution 
of Sharia law in Afghanistan, which would have deprived women 
of their rights and which would have been unacceptable to the 
United States. And we made clear to President Karzai in the 
Afghan Parliament that that was unacceptable to us.
    So I don't think there was any lack of clarity or lack of 
understanding on our part about where the red lines are and our 
principals are. So I understand your question, but I want to 
make clear from our perspective that we do understand that 
point. And we do understand----
    Mr. Rohrabacher. It did seem that you were dodging the 
question earlier.
    Mr. Steinberg. I apologize if I appeared to be dodging, but 
I hope----
    Chairman Ros-Lehtinen. Thank you very much. That was a good 
exchange. Thank you for those excellent questions.
    Mr. Keating is recognized for 5 minutes.
    Mr. Keating. Thank you, Madam Chair, and thank you for 
being here, Secretary Steinberg. During the Iranian protest 2 
years ago, Americans saw how the Iranian people used the social 
media, it is no longer in dispute, the effect of the Internet 
on the Egyptian uprising. And they use Twitter, Facebook, 
texting, YouTube, to gain a following in the country. And 
exacting admiration in much of the world process.
    However, many American people were shocked to know years 
ago that the Iranians were using the social media, you know, to 
monitor protests and to down opposition leaders and even worse, 
we discovered that companies, as was mentioned by Congressman 
Smith, with the presence in the United States were helping the 
Iranian regime exploit technology and turn innovation into 
violence.
    So when the Egyptian Government commenced its cyber 
crackdown, frankly no one was surprised. I don't think they 
followed that. But it seems that American company is involved 
in this instance as well. A company in California sold the 
Egyptian state-run Internet provider the technology to monitor 
the Internet, allowing the Egyptian Government to crack down in 
dissent. And I also understand that the Pakistani Government, a 
telecom company and the Saudi Government's telecom company have 
this technology. It is no secret, I think, to anyone, that 
neither has a glowing record on human rights.
    I would like to know what the Department is doing to work 
with American companies that are selling their technology and 
these products around the world to ensure that these products 
are not an obstacle to human rights at best or a tool of 
violence at worst. When we sell weapons to other countries, we 
require an end-use monitoring agreement. Do you think that such 
an agreement to make sure that U.S. technology is not abused is 
in order at all? Is that being considered, thank you.
    Mr. Steinberg. Congressman, as I mentioned to Congressman 
Smith, I am not familiar with the specific case, but we will 
get back to you on that. I think, more generally, one of the 
things that we have tried to do as we work with civil society 
is both to promote openness and to support their access to 
alternative media when it has been deprived. But frankly, also, 
to help them understand the dangers and the risk to them too. 
And I think it is two sides to the coin, and that we have to be 
alert to the dangers that will be used by people for the wrong 
reasons.
    So part of our educational effort in our work with them is 
to help groups in civil society protect themselves and to take 
measures to be sensitive to these things.
    In terms of the specific technologies, again, without 
knowing the specifics, it is hard to make a general 
observation, but I think it is something we should take under 
advisement.
    Mr. Keating. I would ask if there is any discussion along 
those lines, I would like to know myself, and I am sure that 
many members of the committee would like to know that because, 
indeed, people are losing their lives based on this technology. 
And it is not a stretch to say it is being used as a weapons by 
some of these other countries, and as such, should be treated 
that way in end-use monitoring agreements so it would be 
curious to know anything on that. Thank you.
    Chairman Ros-Lehtinen. Thank you, do get back to us on 
that.
    Mr. Keating. I yield the rest of my time.
    Chairman Ros-Lehtinen. Without objection, I would just like 
to yield myself 30 seconds of time to welcome back and 
congratulate and say thank you to a member of our Foreign 
Affairs family, a member of our majority staff, Matt Zweig, who 
has just returned from a year of military service in Kandahar, 
Afghanistan. So thank you, Matt. Good to have you back.
    And with that, I would like to yield 5 minutes of 
questioning to our subcommittee chairman on Europe and Eurasia, 
Mr. Burton.
    Mr. Burton. I thank the gentlelady for yielding, and I 
appreciate you being here, Mr. Steinberg. My big concern is the 
United States first, and our very close ally, Israel in the 
Middle East, and toward that end, it appears to me there is 
still a great deal of uncertainty right now. We are getting all 
kinds of reports on what is going on and nobody knows for sure 
what is happening. But we do know there has been upheaval, not 
only in Egypt, but in other countries over there. And we get 
about 30 percent of our energy from that part of the world.
    And although the decision on exploring for energy here in 
the United States will not rest with the State Department, the 
State Department does have a role to play in deciding where our 
national security interests lie.
    And right now if we have problems over there in the Suez 
Canal, and Egypt is the Suez Canal, or if things get bad over 
in the Persian Gulf states, or if, and we see some people 
concerned about things in Iraq. If things go awry in Iraq 
because of Iran, we can see our supply of energy diminished 
dramatically. And I think the State Department's obligation is 
that they need to start expressing that to the administration. 
The administration has--and we get about 30 percent of our 
energy from the Persian Gulf region. We get about 20 percent 
from Venezuela who is in league with Tehran right now.
    So there is half of our energy. And we can't get permits to 
drill in the Gulf now. We can't drill off the Continental 
Shelf, we can drill in the ANWR. We can't drill for natural 
gas. We had T. Boone Pickens here the last couple of days 
talking about that.
    And we have the ability to be energy independent within a 
decade. There is no question about it. We have more energy in 
this country collectively, including gas and oil, coal shale 
that can be converted into oil, that any place in the world, 
there is no question about it. But we are not moving in that 
direction, so we are still dependent on the Middle East and 
they have a life and death grip on us if everything goes awry.
    And so I would like for you to answer the question, why is 
it there is not more attention being paid by this 
administration and the State Department to the security of this 
Nation, both economically and militarily, because we are not 
moving toward energy independence? Not only that, but if you 
talk to the average person who is paying $3.50 a gallon for 
gasoline knowing it is going to go to $5 or $6 if things get 
out of control in a little bit, they are saying, you know, if 
we have that ability, why don't we do something about it?
    So where is the State Department on this issue? And why 
isn't the State Department and Secretary Clinton talking to the 
President about the long-term issue of what happens if things 
go in the wrong direction in that part of the world?
    And make no mistake about it, if you look at history and 
there is a book from 1776 to now, which I hope you read and the 
people at the State Department, you will see upheaval in that 
part of the world is a constant, and our security depends on 
it. So while we are concerned about that area and democracy and 
everything else, why in the world isn't State and 
administration talking about moving toward energy independence.
    Mr. Steinberg. Mr. Chairman, it is a complex issue for the 
whole administration.
    Mr. Burton. It is not that complex.
    Mr. Steinberg. In terms of the other parts of the 
administration that are engaged. And I am not the spokesman 
from that respect, but I can talk about some other things.
    Mr. Burton. Before you go to other things. What I would 
really like for you to do is go back to the State Department 
and tell them to talk to the administration about our national 
security. We are supposed to work with other nations in the 
world, to bring about stability and we use foreign policy and 
foreign aid to do all that. But the number 1 responsibility of 
government, according to the Constitution of the United States, 
is to protect this country, economically and, militarily. And 
we are risking that right now, all you have to do is look at 
what is going on not only in Egypt, but in other countries in 
the Middle East.
    Mr. Steinberg. I think if you look at our energy strategy, 
one, the President has indicated the importance of developing 
domestic sources. Two, we have talked about, in addition to oil 
and gas, there are other energy sources like the efforts we are 
doing to revive nuclear energy. We also are working to 
diversify so that we are not dependent on these dangerous 
areas. For example, a new agreement that we are negotiating 
with Mexico to have access to activities on the boundary in the 
Gulf. I was just in Africa and looking at opportunities to have 
access with Ghana, a democracy in Africa which has----
    Mr. Burton. I am talking about energy we have here in the 
United States.
    Chairman Ros-Lehtinen. Thank you, Mr. Steinberg. Your time 
has run out. Mr. Burton, I think you have made your point clear 
and we would appreciate it if you would get back to Mr. Burton 
about energy independence and the administration's plan.
    Mr. Steinberg. Certainly.
    Chairman Ros-Lehtinen. Mr. Cicilline of Rhode Island is 
recognized for 5 minutes.
    Mr. Cicilline. Thank you, Madam Chairman. I too want to 
welcome our guest and thank you for being here. And thank you 
Mr. Secretary for being here. The first question I have is a 
follow up on Mr. Berman's question, is it the administration's 
position that with respect to the constitutional provision in 
the Egyptian Constitution with respect to religious parties 
that it is possible to repeal that provision, but have a 
sufficiently--a government which is sufficiently tolerant to 
satisfy you or satisfy the Department that it will protect the 
interest of the Egyptian people and our international 
interests, or is it the administration's position that that 
prohibition ought to remain as part of the Egyptian 
Constitution? It sounded as if you weren't committed or the 
administration was not committed--at least to advocating for 
the preservation of that.
    Mr. Steinberg. I think we are committed to advocating for 
the principle. I think it would be a bit perilous for us to try 
to write the Constitution in the context they are doing it. 
There may be other formulations that are consistent with that 
principle, but I don't want to have any ambiguity about the 
importance of the principle.
    Again, that is why, in our conversation earlier, I 
mentioned some cases where we have advocated very vigorously 
where that principle was inconsistent with basic values. And so 
that is what we will focus on going forward, is it consistent, 
that would be a way we would judge.
    Mr. Cicilline. Also, would you tell me, it seems as if 
there is tremendous concern from everyone that has spoken 
really to us about the role of the Muslim Brotherhood in a 
future Egyptian Government. And I am just wondering what your 
impression is with respect to the likelihood of that happening. 
Interestingly, of course, when President Mubarak met, he had 
met first with them really in response to the protest which 
suggested to those of us from the outside that they may have a 
more significant role in a future government in Egypt than we 
might have first thought. So what do you think is a likely role 
they would play? And then second, do we have strategies or an 
approach which would help to ensure that funding doesn't go 
from the Muslim Brotherhood to Hamas moving forward?
    Mr. Steinberg. Well, we are very focused and we are very 
vigilant because of the risk that this process become hijacked 
by extremists, by individualist groups that don't reflect or 
respect the very principles that we think people are 
demonstrating for. And we are obviously going to have to judge 
that by what emerges. There are an infinite number of 
possibilities that might come forward. But what we have to be 
clear on is that we expect the next Egyptian Government to have 
and advance the values of openness, tolerance, allowing people 
to pursue an open life with their human rights respected, with 
diversity respected, particularly on issues like religious 
freedom, on women's rights, on a right to have freedom of 
expression, of the press, of assembly. And we will apply those 
criteria with a real recognition from the history that we have 
seen in this region of the dangers that a process which might 
begin with good impulse might not end up that way.
    So I think our challenge right now is rather than trying to 
say specifically now what will happen if it goes wrong, is to 
focus on what we can do to help it go right, and to support 
that process, and to be prepared to deal with it, and be clear 
that there would be consequences if the outcome is one that is 
not consistent with our values and our interest.
    But right now, I think what it is critical is for us to 
talk about what we are for. And I think by articulating those 
principles and by identifying what we expect and what we 
believe is in the interest of the Egyptian people and what we 
think they are out there on the streets for. I think that 
creates a positive engagement for us, not one of--again being 
vigilant, but not based on the fear of the worst, but also an 
opportunity to achieve this good result.
    Again, we must remain vigilant and have seen this go awry. 
And we will be prepared to both make clear what we are going to 
do and to deal with those circumstances.
    Mr. Cicilline. Thank you. And I wanted to say finally, 
thank you for your very articulate testimony with respect to 
our responsibility to really approach our foreign policy in a 
very balanced way. It is clear to me that it is in the national 
security interest of our country to make the kind of 
investments that we are making around the world, both to avoid 
greater costs for our failure to become fully engaged. But also 
to retain our moral authority so that we can do the work on 
behalf of the American people, both in supporting our economy 
and supporting our security.
    And so I think this question about foreign aid is an 
important one, but it is not simply done to help other nations, 
but it is really done principally to help the United States 
maintain its position internationally and to protect our 
economy and to protect our national security and I thank you 
particularly for those comments as well. I yield back the 
balance of my time.
    Chairman Ros-Lehtinen. Thank you very much. And now we 
would like to hear from Chairman Ed Royce, the chair of the 
Foreign Affairs' Subcommittee on Terrorism, Nonproliferation, 
and Trade.
    Mr. Royce. Mr. Steinberg, I met with a group of seven 
Egyptians from Cairo and Alexandria who had recently came to 
the United States, many of them young professionals, and I 
asked them to give me their opinions on what needs to be done. 
I would like to share with you sort of their list from the 
front lines.
    The first observation they made is they shared with me that 
we need strict implementation of international human rights 
laws in this country and that there should be some discussion 
of this in the United States. A guarantee of basic freedoms by 
holding accountable those who violate international human 
rights laws.
    The second thing they see missing from the discussion is an 
end to all discriminatory acts that are based on ethnicity and 
sex and religion throughout all sectors of society. And most 
important, some kind of discipline for those who violate that 
prohibition.
    They asked for eradication of all ideologies in the 
education system because those installed discrimination and 
hatred among students starting at the preschool level and all 
the way up to the university level. This is partly because they 
say the Muslim Brotherhood has gotten control in the 
educational system and it is using it for that purpose.
    The fourth thing, these are the young students that were in 
the streets--they want awareness of the imminent danger of 
radical religious groups in Egypt, such as the Muslim 
Brotherhood, which, to some extent, they say is funded by Iran. 
And one of the things they report is there is walking around 
money, and food, that has been provided by the Iranians, and it 
is annoying to those that are leading the charge to have on the 
streets a foreign influence, and they would like that known.
    They say that this group has already infiltrated the 
backbone of some Egyptian society. They also ask for a 
reformation to the judicial system, a reformation to a system 
which currently supports a corrupt regime and does not provide 
justice to the citizens through the implementation of the laws.
    They say bribery and corruption are the norm within most of 
the judicial branch and report--the young professionals told me 
they pay as much as 25 bribes in order get a little business 
going or in order to be professionals. We heard it from 
Hernando de Soto's report, right? The Finance Minister or 
former Finance Minister, I think it was of Egypt, supported 
Hernando's work. Hernando does his study, shows how you can 
unleash all of this potential growth in Egypt because you only 
know who owns 10 percent of the property. Nobody can start a 
business without doing payoffs.
    So he lays out the reforms and the first thing the 
government does is sack their Minister who supported these 
reforms. That shows us how much has to be done here. So I would 
just add to your talking points when you talk about this, a 
government that respects its people, that is what we want from 
Egypt. A government that respects its people and isn't corrupt; 
let's add that to our talking points about what we want done. I 
just wanted your opinion about what the students and the young 
professionals had told me.
    Mr. Steinberg. Congressman, I think that is an enormously 
constructive agenda. I think it is an important one that should 
be a shared agenda of all of us. I think the issues that you 
have raised are issues that should be of concern and that are 
important to the long-term success of Egypt. So if we haven't 
been clear enough that that is what we hope to see, we will do 
a better job. But it is one of the things. Especially, I want 
to agree especially with you on the point of rule of law and 
corruption, which is a big concern and it is really critical to 
the future. So thank you for those suggestions.
    Mr. Royce. Well, there is one other point that they wanted 
to make. They said there are a lot of good voices such as the 
Council of the Wise, which was formed after January 25th 
revolution, as well as many other voices in Egyptian society 
that are well-known, that are admired by the people and are not 
part of the Muslim Brotherhood. And every one of them was 
absolutely in terror of what might happen if we end up 
negotiating and help putting the Muslim Brotherhood in 
positions of responsibility because, as they shared with me, 
that is an organization that only exists to take power, put in 
place an Islamic society and then carry out of the rest of the 
agenda, which, as one of them told me, the next thing you know 
we will be at war with Israel if they get control of the 
government. If you talk to young people in the Muslim 
Brotherhood, that is where they are driving the cadres on the 
street, that is the ideology.
    So can you keep them out of the equation? I know we 
discussed this earlier, but can you do something to help those 
voices in Egypt that are so frightened of that consequence?
    Mr. Steinberg. I think that should be our objective and 
that is what we are trying to do.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Steinberg. As I said, we have a program to address this 
and we can and will do more.
    Chairman Ros-Lehtinen. Thank you so much. Thank you, Mr. 
Chairman.
    Mr. Royce. Thank you.
    Chairman Ros-Lehtinen. My colleague from New York. It is 
good to see you, Elliot, recognized for 5 minutes.
    Mr. Engel. Thank you, Madam Chair, and I want to first of 
all welcome the Secretary. I was here for his remarks and I 
have known him for many years and we are lucky to have him. He 
does a great job. Thank you for the job you are doing.
    As you know, for the past 4 years, I chaired the Western 
Hemisphere Subcommittee on this committee, and now I am the 
ranking member. And one of the things that has been irking me, 
and I am sure irking you and a lot of us, is that a lot of the 
South American governments are recognizing Palestine. And why 
it especially irks me is that the Palestinians are refusing to 
sit down with the Israelis and negotiate without all these 
ridiculous preconditions which actually shouldn't be 
preconditions at all. That is what you negotiate about.
    And I look at it, it is rewarding the Palestinians for 
their intransigence. And I think that is the wrong thing to do, 
because rather than tell them they should go to the negotiating 
table, it sort of rewards them for not going to the negotiating 
table. Now we have this resolution before the Security Council 
which condemns Israel for the settlements, and makes it seem 
that the settlements are the reason why there is no peace, 
which I think is a bunch of nonsense. I think that if the 
Palestinians would negotiate with the Israelis that the 
settlement issue, along with other issues would be taken care 
of.
    I would hope that if that happens, the administration would 
strongly and forcefully veto such a resolution as we have in 
the past. And I believe that the administration so far has not 
yet unequivocally indicated that it would do so. So I would 
like to ask you is that a fact, and if it is, I would strongly 
urge the administration to veto this resolution of the Security 
Council if it comes up.
    Mr. Steinberg. I thank you, Congressman Engel. First just, 
if I comment on your first point about your recognitions we 
have made very clear to a lot of countries, including in the 
region that you talked about that you have had and continue to 
have responsibility for that we think this is 
counterproductive. I am disappointed frankly that we haven't 
had more success, but it has been in our engagement at the 
highest levels with each those governments. I, myself, have had 
several of those conversations. And so our position is well-
known on that.
    With respect to the Security Council, we have made very 
clear we do not think the Security Council is the right place 
to engage on these issues. I have had some success, at least 
for the moment, in not having that arise there. We will 
continue to employ the tools that we have to make sure that 
that continues to not happen. And we made clear both to the 
Palestinians and our key partners that there are other venues 
to discuss these issues, but the most important one of which is 
the one that you identified, which is the only way that this is 
going to be resolved is through engagement between the two 
parties, and that is our clear consistent position.
    Mr. Engel. Thank you. Yesterday I asked the two questions 
to our panelists and I want to ask you the same two questions 
and so what your answer is vis-a-vis what they said to me. And 
I know some of this has been discussed in the past hour or so. 
But what are the differences you see between 1979 Iran 
revolution and 2011 Egypt? What are some of the differences 
that make us hopeful that perhaps the results that we saw in 
Iran wouldn't happen in Egypt?
    And then, I know that another question I asked yesterday 
which I understand Mr. Ackerman touched upon is what do we do 
if Lebanon rejects the special tribunal? Mikati--the answer 
from the panelists yesterday from that question of mine is that 
Mikati should be shunned. He should not be invited to the 
United States, he should be told that this is unacceptable, and 
we should shun him.
    As you know, I wrote the Syria Accountability Act, passed 
in 2004, and with our now chairman, she and I were on a crusade 
for many years to do this. And now Syria is still doing the 
same kind of nasty things it has always been doing in the 
region. We now have an ambassador there, but I don't see any 
positive things from their side. I would like to you comment on 
those three things if you could.
    Mr. Steinberg. Thank you. Both obviously complicated 
questions, especially the first. I got my start in government 
working on the Iranian hostage crisis in 1979. And so I 
reflected a lot on that. I would simply say, first no two 
circumstances are identical. But also our engagement in Iran 
prior to the revolution was very different. The revolution of 
Iran was much more associated with our engagement with the 
prior regime.
    Here I think we are seen as a positive force on the 
Egyptian side, so I think we can have a positive influence and 
I would be happy to go into more detail with you in less than 5 
seconds.
    With respect to Lebanon, let me just say that we believe 
the continuation of the tribunal is essential, we made clear to 
Mikati in direct conversations that we had through the Embassy 
that that is our expectation. Again, I don't want to assume the 
worst now and say the precise consequences of it not going 
forward. But we have made clear that is what our expectation 
is, it is the international obligation of any government in 
Lebanon to meet those obligations. And we have made clear to 
Mr. Mikati that we expect him to do so as well.
    Mr. Engel. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Engel.
    I am pleased to recognize Mr. Manzullo, the chairman of the 
Subcommittee on Asia and the Pacific, for 5 minutes.
    Mr. Manzullo. Thank you, Madam Chair. In the summer of 
2009, many of us in this country were very dismayed over the 
fact that when the demonstrations broke out in Iran in the 
streets on day 1, our President said nothing. On day 2, our 
President said nothing. Finally, on day 3 he said something to 
the effect that we need a continued dialogue with the clerics. 
That was extraordinarily disappointing.
    When the people started marching in Egypt, it didn't take 
the President that long to undermine President Mubarak and say 
he has got to go. I would like to know what the basis of the 
President's decision making was. At that time, you were Deputy 
Secretary of State and doing nothing in Iran 1\1/2\ years ago. 
Why didn't he do something?
    Mr. Steinberg. Congressman, I obviously have a different 
view on what took place both in terms of the statements that we 
made in support of the people in the streets in Iran, and the 
support that we have continued to give for that, as well as our 
continued focus on the problem of the depravation of human 
rights in Iran.
    Mr. Manzullo. No, I am talking about the response, not the 
focus. Don't tell me that the people in the streets were 
supported by the U.S. Government because they were not.
    Mr. Steinberg. We made clear our strong support for them, 
but at the same time----
    Mr. Manzullo. But you didn't, that is not correct. They 
were not supported.
    Mr. Steinberg. I think we gave the support that the 
President articulated and the Secretary articulated about our 
strong commitment to their rights to peacefully demonstrate and 
to assemble, the need for the government there to engage with 
them.
    Mr. Manzullo. Nothing on the order that was given to the 
people in Egypt specifically saying that Mubarak has got to go.
    Mr. Steinberg. Congressman, I also do not--on that side, we 
have not used that expression.
    Mr. Manzullo. Wait a second, wait a second. You are telling 
me that President Obama has not said in one way or the other 
that Mubarak must go? Is that what you are telling this 
committee?
    Mr. Steinberg. What the President has said and what the 
Secretary has said is that change has to come, that a 
transition has to come.
    Mr. Manzullo. Can you give me a yes or no answer to my 
question?
    Mr. Steinberg. We have not used the expression that you 
identified, sir.
    Mr. Manzullo. So you said events must go into action and--
--
    Mr. Steinberg. Correct.
    Mr. Manzullo. Everybody in the world understands that 
President Obama's position is to push Mubarak out of office. 
And I am just really astonished that you think that that is an 
amazing statement. So, why didn't we do anything more in Iran?
    Mr. Steinberg. Again, I think our position has been clearly 
to support of the rights of the people to demonstrate. We have 
made clear that we thought that the election was not conducted 
fairly, openly, that we spoke out against the oppression, we 
spoke out against the violence.
    Mr. Manzullo. It was clearly not enough. I mean, I don't 
think anybody in this country was interested in Iran turning 
around, was satisfied with the statement of the President of 
the United States. So, what are you going to do now in light of 
the President's involvement in Egypt? What happens if 
demonstrations break out in Tehran? What are you going to do 
now?
    Mr. Steinberg. We will do as we have done. We have said 
about demonstrations whether they are in Syria or in Iran.
    Mr. Manzullo. You see, that is the problem, the answer that 
you gave, that you are giving, I know it is well-intended and 
it is obviously factual, but it is weak. And it is the message 
of weakness that gets sent abroad as to what the United States 
is doing. President Obama and the Secretary of State have been 
very clear about what is going on in Egypt, granted the 
demonstrations there have lasted longer than in Tehran. And 
either they said directly or inferentially that Mubarak has to 
leave. And apparently that is going on right now. But it was so 
weak in Iran. Don't you think that the President's statements 
go a lot toward formulating public policy when people take to 
the streets such as they did in Tehran?
    Mr. Steinberg. Again, I think the President spoke clearly 
to this. But I also think there are other things that we did, 
and partially using tools that you give us, we have identified 
members of the Iranian Government who are human rights abusers 
and imposed sanctions on them. We have taken measures to work 
to appoint a special human rights rapporteur in Iran.
    Mr. Manzullo. Well, they put three hikers on trial for 
treason.
    Mr. Steinberg. As we have made very clear and worked very 
hard, including----
    Mr. Manzullo. Well, nothing is working, so are you going to 
change something in Iran?
    Mr. Steinberg. We have a very comprehensive strategy in 
Iran which not only deals with the human rights abuses there 
which are substantial, but also the Iranian nuclear program, 
which has led us with the leadership of the Congress working 
together with us to impose the most comprehensive sanctions on 
Iran that have ever been imposed. And have led us to help 
mobilize the international community. And I think the two have 
gone together because the fact of the democratic repression----
    Mr. Manzullo. Well, in my remaining time, I just want to 
let you know how disappointed we were with the President and 
the very weak response to the people demonstrating for 
democracy in the streets of Tehran back in the summer of 2009.
    Chairman Ros-Lehtinen. Thank, you Mr. Manzullo. And I very 
much agree with you. Mr. Murphy of Connecticut is recognized 
for 5 minutes.
    Mr. Murphy. Thank you very much, Madam Chair. And thank 
you, Mr. Steinberg, for sticking around with us. I know we are 
jumping all over the map a bit here, but I want to bring us 
back to one of the subjects at hand today. We are obviously 
continuing to monitor the events as they play out today in 
Egypt. But if what we believe is happening is happening today, 
as you hint at in your testimony, one of the stories of success 
will be the potentially very positive role that a secular, 
independent, well-respected military has played in this ongoing 
transitional process in Egypt.
    And I mention that as a segue to talk about Lebanon. The 
LAF is at a very different point in its military developmental 
history. We still have members of the Armed Forces there 
communicating via cell phones with each other across the 
Nation. And I want to ask you about how the United States 
continues to play a constructive role in what is really the 
nascent developmental stages of the LAF, and how we make sure 
that our assistance to the Lebanese army continues in the 
tradition of achieving both our goals and the Lebanese 
military's goal going forward in that nation?
    Mr. Steinberg. Thank you, Congressman. I think you have 
identified obviously an enormously important issue because we 
have seen the possibility and the prospect of development of a 
professional LAF that is responsive to a constitutional 
democratic government as critical to the success of Lebanon and 
particularly to deal with the challenge of Hezbollah and armed 
groups in that society.
    We want to see a professional civilianly controlled 
military that can exert control over the country on the behalf 
of a democratic government. And we have been encouraged by some 
of the progress that the LAF has made. So we would like to 
sustain with that, and yet we recognize the situation is fluid 
in Lebanon. And we are very vigilant to the possibility that a 
change in the political circumstances might undermine that 
objective.
    So we focused on two things, which is one, a very vigorous 
commitment to end use monitoring to make sure that none of our 
assistance to the LAF falls into inappropriate hands other than 
the LAF itself. And the record is very strong on that in terms 
of the LAF's ability to monitor and implement that.
    Also, as we see the political developments move forward, to 
make sure that the independence and the role of the LAF is not 
compromised and that any implication that that might have for 
our assistance.
    We would hope that we would see a continuation of the 
strong support for the LAF. It is a critical component of the 
sovereignty and the integrity of the country as long as it is 
associated with a democratic transparent open, a government 
that is not the products of outside interference.
    Mr. Murphy. Can you talk a little bit more about benchmarks 
and milestones? How do we moving forward--I understand that our 
military aid there is obviously interdependent with the 
political developments in Lebanon. You talk a little bit about 
how we make sure that the military and the LAF are hitting 
benchmarks and milestones that assure that we are making a wise 
investment?
    Mr. Steinberg. Well, we have a very robust engagement with 
the leadership. I believe it was just 2 or 3 weeks ago that 
General Mattis of CENTCOM was out there meeting with the 
Lebanese leadership. And I think that is that engagement. The 
training that we do with them, the professional development 
that we do with them that allows us to watch their progress, to 
identify programs that continue to help develop their 
professionalization. And clearly, it is linked to the political 
developments because their ability to do this requires the 
strong support of the political institutions that allow them to 
not only develop their professional capabilities and to use 
this equipment but also to have the mandate to extend their 
authority throughout the country.
    Mr. Murphy. And just finally, to the Prime Minister 
designate, you talk about, in your testimony, making sure that 
he makes good on his pledge to build an inclusive government. 
How do we judge that inclusiveness? What do we look to as the 
keys to know whether we have an inclusive government that 
continues to be a recipient of U.S. economic and military aid?
    Mr. Steinberg. I think we look both to the 
representativeness of that government to make sure that no 
important constituency in the Lebanese society is cut out, 
particularly obviously a concern with the evolution that the 
Sunni population is appropriately represented. But also to make 
sure across the political spectrum, that we have an inclusive 
government that includes the March 14th coalition, and it 
includes the voices that have been the progressive voices in 
Lebanon, and which, I think, it will be something that we 
supported strongly. So we believe that those voices need to be 
included in any government going forward.
    Mr. Murphy. Thank you.
    Chairman Ros-Lehtinen. Thank you very much.
    So pleased to yield 5 minutes to the vice chair on the 
Subcommittee on the Middle East and South Asia, Mr. Pence of 
Indiana.
    Mr. Pence. Thank you, Madam Chairman. I want to thank you 
for calling this, what turns out to be extraordinarily timely 
hearing. I always want to make a point, I want to thank the 
Secretary for his service to the country, for his distinguished 
career, it is an honor to you have back before the committee.
    For some reason, this feels a little bit like deja vu all 
over again, I am sure it does to you, Mr. Secretary, with your 
long career in these matters. And frankly, with word of the 
potential eminent and historic change that could take place in 
Egypt before the turn of the clock today, on that part of the 
world, this conversation is extremely important.
    I must say, as the ranking member knows, as we partnered 
together in the summer of 2009 to author a resolution that 
passed this Chamber nearly unanimously and passed the Senate 
unanimously, my first inclination is to stand with the people, 
to stand with those who are clamoring for basic human rights, 
for freedoms, for more access to the democratic process. And I 
carry that bias into this conversation.
    I support those who continue to call for democratic 
reforms, I am grateful for the State Department and for the 
administration broadly, expressions of support for an orderly 
transition and the recognition of universal human rights.
    Let me, though, by way of raising an issue to you, let me, 
though, express a word of caution. One of the first things that 
I learned as a member of this committee traveling into that 
part of the world was the enormous importance of Egypt, and to 
the history of the region, not just at this time, but obviously 
through the millennium. The developments in Egypt are of 
enormous consequence to U.S. strategic interest, and I would 
say, most especially, to the interest of what I like to refer 
to fondly as our most cherished ally, Israel.
    And so while I know the folks at the administration has 
largely been and your remarks have largely been on insuring an 
orderly transition, I am concerned about an orderly transition 
to what, or an orderly transition to whom? And specifically, I 
find my mind drifting back to history, and to lessons of 
history. Edmund Burke, famously a member of Parliament, one of 
the strongest supporters of the revolution that took place in 
the colonies, here in the United States, but also one of the 
harshest critics of what happened in France. Edmund Burke 
warned that different from the American Revolution, which was 
largely born on a reach for democracy and a foundation of 
respect for the rule of law, the French Revolution was 
something different. And he warned of nefarious factions which 
could have opportunity, his words now, ``to become master of 
your assembly and the master of your whole republic.''
    And with the news the CIA Director, I am told just moments 
ago told a public meeting of the House Intelligence Committee 
that he expects President Hosni Mubarak to step down this 
evening.
    I guess my question to you, Mr. Secretary, very sincerely 
is where is that leading us? Who is that leading us to? I know 
that the new Vice President has expressed and demonstrating a 
willingness to engage the Muslim Brotherhood in a dialogue, an 
organization that has largely outlawed in Egypt for decades. 
But I guess my first question is, do you expect President 
Mubarak to step down, does the State Department anticipate 
that?
    And secondly, what is the effect of that? Where is that 
leading us? And thirdly, can you speak to are we sending a 
message sufficiently to this transition authority dominated as 
it is by the military in Egypt, that we expect not only an 
orderly transition, but we expect order at the end of it. We 
expect, if we are to continue that nearly a minimum of $1 
billion a year in foreign aid that goes directly to Egypt, the 
military coordination support that we provide, that we expect a 
successor government to respect the treaties and the alliances 
and the allies and the interests of the United States if we are 
to continue to go forward with that foreign aid and with the 
nature of the alliance that we have had with Egypt.
    So I would love your responses in whatever time the 
chairman will allow.
    Chairman Ros-Lehtinen. 7 seconds. Plenty of time.
    Mr. Steinberg. ``Yes'' is probably a good answer. But to 
the last question, the answer is yes. We made clear what we do 
expect--and I think that is the way we tried to engage 
throughout this process is to set down a set of principles that 
we expect the process to embody and the outcome to embody, and 
that that is what we will judge it by.
    Chairman Ros-Lehtinen. Thank you, Mr. Pence.
    Mr. Faleomavaega, our colleague from American Samoa.
    Mr. Faleomavaega. Thank you, Madam Chair.
    And, Mr. Secretary, I do personally want to welcome you 
before the committee. And I also want to express my deepest 
appreciation to the service that you have given to our country.
    And I want to offer my personal welcome to one of our 
committee staffers who have just returned from his tour in the 
military. I wish I had the same reception when I came back from 
Vietnam, Madam Chair. That wasn't my experience, for those of 
us who had the unfortunate experience of having served in 
Vietnam.
    Mr. Secretary, I have often heard people say how important 
the Golden Rule is; the Golden Rule, meaning that treat your 
fellow men as you would like to be treated. I have also heard 
another interpretation of the Golden Rule, and that is, he who 
has the gold makes the rule.
    What I am getting at, Mr. Secretary, for some 30 years 
now--and it has been one way of keeping the peace especially 
and what took place historically between Israel and Egypt, and 
for the 30-year period we have given well over $65 billion in 
financial assistance to Egypt, and $36 billion of that went to 
Egypt's military defense system.
    I am curious if--and I suspected from what my friend from 
Indiana has just given his concerns for which I share that same 
concern with Mr. Pence, but it seems that more and more that it 
is coming out in the current crisis in Egypt is that the 
military and the Muslim Brotherhood seem to be the two main 
factions that are going to have a lot of influence and impact 
on the future of where Egypt is going as far as its future is 
concerned.
    Now, I have noticed that you have given in your statement 
that has been part of the administration's policy we want the 
people of Egypt to determine their own future. But would it be 
correct for me to say that in that mix, the military and the 
Muslim Brotherhood definitely are going to be very important 
factors in determining Egypt's future.
    Mr. Steinberg. Congressman, I think what is important is 
that the military play the kind of role we expect the military 
to play in a democratic society, which is to support democratic 
governance and to respect the rights of the people. And I think 
we have been encouraged over the past several weeks that the 
military has played a constructive role. But it is not for the 
military to make the government, it is for the people to make 
the government, and that is what we would expect. And we would 
expect as we move forward with the democratic, inclusive 
government that the military would be in service of that.
    We have obviously talked a lot today about the Muslim 
Brotherhood. I can only reiterate the critical view that we 
have, which is that we will look to what government is formed, 
and we will hold it to a set of principles, and we will expect 
the members of the government to uphold those principles, and 
we will expect that they are responsive to what we believe is 
the yearnings of the people on the street. And that is the way 
we will judge our relationship going forward.
    I don't think we want to be naive, but I think we are 
hopeful that what we have seen is a strong sense that there is 
elements of civil society of the people, the Council of Wise 
Men and others, the people that Congressman Royce talked about, 
that can form a strong, stable, democratic government there, 
and we need to do everything we can to support them.
    Mr. Faleomavaega. I know my time is running, but I just 
wanted to share another irksome situation as I want with my 
friend from New York. The fact that 350 million people in the 
Arab community's future rests on the fact that these two 
countries, Saudi Arabia and Egypt--that if these two countries 
falter, there is definitely going to be some very serious 
problems coming out of that.
    I say irksome to the fact that one of the main issues that 
always seems to come into the equation when we talk about the 
Middle East is oil. My sense of irksome is the fact that we 
have spent almost $1 trillion in getting rid of Saddam Hussein, 
and expenditures of lives of our own soldiers, and the amount 
of energy and resources, and yet when it came time to divvy up 
the fortunes, some 30 major oil companies that conducted 
biddings of the contracting and the oil to be extracted from 
Iraq, to my surprise China was the winner of the bidding 
process.
    Now, correct me if I am wrong on this, but the fact that it 
was our blood, our money, our resources, and supposedly having 
some sense of benefit as well for our country, but as it turned 
out, China was the beneficiary. Am I correct on this?
    Mr. Steinberg. Congressman, there are a number of American 
firms who are there. Exxon for sure, and Shell probably. We 
have worked with them to encourage them to participate. We have 
worked with the Iraqi Government to create the conditions that 
would make this attractive to American firms.
    One of the problems, and it is an ongoing problem with the 
Iraqi Government, is that they haven't really opened this up to 
the kind of investment that we would like to see. It is a big 
priority of the engagement, and as the new government is formed 
there, we will continue to push this to make it because we 
think American firms have a lot to contribute to the economic 
and energy future of Iraq.
    Chairman Ros-Lehtinen. Thank you so much.
    I am pleased to yield to Mr. Duncan of South Carolina for 5 
minutes.
    Mr. Duncan. Thank you, Madam Chairman. I hope that I have 
more than 30 seconds than you gave me the other day.
    Thank you so much, Mr. Steinberg, for being here. A lot of 
great questions have been asked today, and you all have really 
delved into a lot of the subjects that are concerning for me. 
So I am just going to piggyback on Mr. Burton's comments 
earlier about energy independence.
    Instability in the Middle East. When I was a young boy, I 
remember the gas shortages. I remember the crisis that we had 
in Iran. I remember countries around the world where you had 
revolutionary factions, and you had groups that weren't 
friendly to the United States step into the void. So it is very 
concerning to me and the folks that I represent back in the 
State of South Carolina that we have stability in the Middle 
East.
    We have a port in Charleston that receives shipments that 
come through the Suez and the Panama, so it is important that 
for trade and economic prosperity in this country that 
stability in the Suez region is maintained, stability in not 
only the North Africa and Middle East, but also East Africa. So 
there are a lot of different things that are concerning here.
    So who steps into the void in this process is interesting. 
And you stated that the administration would adhere to 
consistent principles regardless of who was in power. And the 
question I have for you, and taken in the light of stability, 
and taken in the light of what our energy independence needs 
are--and let me just segue to that for just a second because 
you mentioned other sources of energy.
    I think it is imperative that the United States and the 
administration's policies look at American emergency 
independence and use American resources that lessen our 
dependence on foreign sources, because we are seeing rising gas 
prices which affect input costs, which affect commodity prices. 
So it is a huge trickle-down effect.
    So let me segue back into is the administration actively 
working to prevent the Muslim Brotherhood from being involved 
in this process of new governance in Egypt.
    Mr. Steinberg. Congressman, I would say that we are 
actively working to make sure that the government that emerges 
is an inclusive, tolerant, democratic one that respects the 
rights of women, minorities, religious minorities and the like. 
It is not focused on one particular group; it is on all groups. 
We want the principle of anybody participating in a future 
Egyptian Government to sustain those values. And anybody and 
any group that isn't consistent with that, we would not support 
their being a part of the government.
    Mr. Duncan. So along those lines, what specific steps is 
the State Department or this administration taking along those 
lines?
    Mr. Steinberg. That is precisely why we have been so active 
in pushing the Egyptian Government to engage in a prompt, 
orderly transition, because we believe the best chance of 
getting that tolerant outcome that we want with the kinds of 
people that Congressman Royce talked about is to move forward 
with the process and to engage with those forces, because those 
are the forces that can come together and create both democracy 
and stability in Egypt.
    Mr. Duncan. Has the administration, in your support for 
clear and consistent principles, stated to Egypt that you would 
not support the Muslim Brotherhood in any shape, form, or 
fashion?
    Mr. Steinberg. Again, Congressman, I don't think we single 
out any individual group. We say what we would support, and we 
would not support those who are not consistent with those 
principles.
    Mr. Duncan. I would hope that the State Department policy 
would be to support factions that are friendly to the United 
States, friendly to the United States' economic interests, and 
friendly to the United States as far as national security 
interests.
    Mr. Steinberg. I think we feel comfortable, if you look at 
history, that democratic governments where people really have a 
voice, and they get to choose, and they are not intimidated, 
and there is diversity are friendly to the United States. If 
you look at the democracies around the world, almost to a 
country those are our friends.
    So I think that is why we are so committed to moving 
forward with this process, because we do think it achieves 
exactly what you have identified.
    Mr. Duncan. Thank you.
    I yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    And to round out the question-and-answer period, I am so 
pleased to yield as our last interviewer Mr. Griffin for the 
Subcommittee on Europe and Eurasia, the vice chair of that 
subcommittee.
    Thank you, Mr. Griffin.
    Mr. Griffin. Thank you, Madam Chair.
    We had some testimony yesterday regarding the potential for 
al-Qaeda to exploit some of the instability in northern Africa, 
particularly in Egypt, and I just wanted to get your comments 
on that. There was a Wall Street Journal op-ed by Kenneth 
Pollack on this yesterday, and understanding that this may be 
down the road a bit, sort of intermediate term and not 
immediate, and also understanding that Egypt has a history of 
doing a pretty good job of keeping some of the more extreme 
elements under control, could you comment on whether al-Qaeda 
is looking to recruit or take advantage of the power vacuum in 
the region?
    Mr. Steinberg. Without making a specific reference to that, 
because I don't know specifically that they are, but I would 
have to--I think we have to be alert to the possibility that 
they would. I think that we know that they are looking for any 
opportunities to advance their agenda in any place that they 
can find it. And certainly places where there are real vacuums, 
like we see in Somalia, are very dangerous places, which is 
precisely why we do believe it is so important to have this 
orderly, sustained process, because we think it is the best 
antidote about giving extremists and terrorist groups the 
opportunity to make inroads.
    Mr. Griffin. Well, the article that I was looking at 
yesterday tends to say that this may not be the most likely 
course, particularly in the short term. But as we know, al-
Qaeda has roots even at the highest echelons in Egypt. So you 
don't know of any specific, identifiable antidotes or 
information that you can share with regard to al-Qaeda in that 
region? You just identify it as a possibility.
    Mr. Steinberg. I think it is something we have to be alert 
to. Obviously to get into a little more detail, we would 
probably have to do this in a closed session. But I would say 
the most important thing is to be vigilant to it and to take 
the steps now to not to let the circumstances arise, because I 
feel very confident that the voices in the streets in Tahrir 
Square are not voices that are--voices that are looking to al-
Qaeda as their salvation. So we need to make sure that they are 
the ones that prevail in this situation.
    Mr. Griffin. Thank you for that.
    Chairman Ros-Lehtinen. Thank you so much for your excellent 
testimony. We look forward to getting some of those questions 
in writing from you. And I would especially appreciate your 
responses and the Department of State's responses to the U.N. 
overpayment issue and the refund.
    Thank you so much. And this committee is now adjourned.
    Thank you, sir.
    [Whereupon, at 12:50 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearings Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
 IFES Briefing Paper, ``Elections in Egypt: Key Challenes for Credible 
and Competitive Elections,'' submitted for the record by the Honorable 
   Howard L. Berman, a Representative in Congress from the State of 
                               California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
